APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Ninth Circuit
(February 10, 2020) . . . . . . . . . . . App. 1
Appendix B Per Curiam Opinion in the United
States Court of Appeals for the Ninth
Circuit
(August 23, 2019) . . . . . . . . . . . . App. 53
Appendix C Order in the United States District
Court for the District of Idaho
(May 31, 2019). . . . . . . . . . . . . . App. 147
Appendix D Findings of Fact, Conclusions of Law,
and Order in the United States
District Court for the District of Idaho
(December 13, 2018) . . . . . . . . . App. 152

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-35017
D.C. No. 1:17-cv-00151-BLW
[Filed February 10, 2020]
____________________________________
)
ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
)
)
v.
)
)
CORIZON, INC.; SCOTT ELIASON;
)
MURRAY YOUNG; CATHERINE
)
WHINNERY,
)
Defendants-Appellants, )
)
and
)
)
IDAHO DEPARTMENT OF
)
CORRECTIONS; HENRY ATENCIO;
)
JEFF ZUMDA; HOWARD KEITH
)
YORDY; AL RAMIREZ, Warden;
)
RICHARD CRAIG; RONA SIEGERT,
)
Defendants.
)
___________________________________ )

App. 2
No. 19-35019
D.C. No. 1:17-cv-00151-BLW
____________________________________
ADREE EDMO, AKA Mason Edmo,
)
Plaintiff-Appellee,
)
)
v.
)
)
IDAHO DEPARTMENT OF
)
CORRECTIONS; HENRY ATENCIO;
)
JEFF ZUMDA; HOWARD KEITH
)
YORDY; AL RAMIREZ, Warden;
)
RICHARD CRAIG; RONA SIEGERT
)
Defendants-Appellants, )
)
and
)
)
CORIZON, INC.; SCOTT ELIASON;
)
MURRAY YOUNG; CATHERINE
)
WHINNERY,
)
Defendants.
)
___________________________________ )
ORDER
Filed February 10, 2020
Before: M. Margaret McKeown and Ronald M. Gould,
Circuit Judges, and Robert S. Lasnik,* District
Judge.

*

The Honorable Robert S. Lasnik, United States District Judge for
the Western District of Washington, sitting by designation.

App. 3
Order;
Statement by Judge O’Scannlain;
Dissent by Judge Collins;
Dissent by Judge Bumatay
SUMMARY**
Prisoner Civil Rights
The panel denied a petition for panel rehearing and
denied a petition for rehearing en banc on behalf of the
court, in a case in which the panel affirmed the district
court’s entry of a permanent injunction in favor of an
Idaho state prisoner, but vacated the injunction to the
extent it applied to certain defendants in their
individual capacities, in the prisoner’s action seeking
medical treatment for gender dysphoria.
Respecting the denial of rehearing en banc, Judge
O’Scannlain, joined by Judges Callahan, Bea, Ikuta, R.
Nelson, Bade, Bress, Bumatay and VanDyke, stated
that with its decision not to rehear this case en banc,
this court became the first federal court of appeals to
mandate that a State pay for and provide sexreassignment surgery to a prisoner under the Eighth
Amendment. Judge O’Scannlain stated that the threejudge panel’s conclusion—that any alternative course
of treatment would be “cruel and unusual
punishment”—is as unjustified as it is unprecedented.
To reach such a conclusion, the court created a circuit

**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 4
split, substituted the medical conclusions of federal
judges for the clinical judgments of prisoners’ treating
physicians, redefined the familiar “deliberate
indifference” standard, and, in the end, constitutionally
enshrined precise and partisan treatment criteria in
what is a new, rapidly changing, and highly
controversial area of medical practice.
Dissenting from the denial of rehearing en banc,
Judge Collins stated that whether the defendant doctor
was negligent or not (a question on which Judge Collins
expressed no opinion), his treatment decisions did not
amount to “cruel and unusual punishment,” and the
court thus strayed far from any proper understanding
of the Eighth Amendment.
Dissenting from the denial of rehearing en banc,
Judge Bumatay, joined by Judges Callahan, Ikuta, R.
Nelson, Bade and VanDyke, and by Judge Collins as to
Part II, stated that by judicially mandating an
innovative and evolving standard of care, the panel
effectively constitutionalized a set of guidelines subject
to ongoing debate and inaugurated yet another circuit
split. And by diluting the requisite state of mind from
“deliberate indifference” to negligence, the panel
effectively held that—contrary to Supreme Court
precedent—medical malpractice does become a
constitutional violation merely because the victim is a
prisoner.
ORDER
The full court was advised of the petition for
rehearing en banc. A judge requested a vote on whether
to rehear the matter en banc. The matter failed to

App. 5
receive a majority of the votes of nonrecused active
judges in favor of en banc consideration. Fed R. App. P.
35.
The petition for rehearing en banc is DENIED. An
opinion respecting denial of rehearing en banc,
prepared by Judge O’Scannlain, and dissents from
denial of rehearing en banc prepared by Judge Collins
and Judge Bumatay are filed concurrently with this
order.
O’SCANNLAIN, Circuit Judge, * with whom
CALLAHAN, BEA, IKUTA, R. NELSON, BADE,
BRESS, BUMATAY, and VANDYKE, Circuit Judges,
join, respecting the denial of rehearing en banc:
With its decision today, our court becomes the first
federal court of appeals to mandate that a State pay for
and provide sex-reassignment surgery to a prisoner
under the Eighth Amendment. The three-judge panel’s
conclusion—that any alternative course of treatment
would be “cruel and unusual punishment”—is as
unjustified as it is unprecedented. To reach such a
conclusion, the court creates a circuit split, substitutes
the medical conclusions of federal judges for the clinical
judgments of prisoners’ treating physicians, redefines
the familiar “deliberate indifference” standard, and, in
the end, constitutionally enshrines precise and

*

As a judge of this court in senior status, I no longer have the
power to vote on calls for rehearing cases en banc or formally to
join a dissent from failure to rehear en banc. See 28 U.S.C. § 46(c);
Fed. R. App. P. 35(a). Following our court’s general orders,
however, I may participate in discussions of en banc proceedings.
See Ninth Circuit General Order 5.5(a).

App. 6
partisan treatment criteria in what is a new, rapidly
changing, and highly controversial area of medical
practice.
Respectfully, I believe our court’s unprecedented
decision deserved reconsideration en banc.
I
A
In 2012, Adree Edmo (then known as Mason Dean
Edmo) was incarcerated for sexually assaulting a
sleeping 15-year-old boy. By all accounts, Edmo is
afflicted with profound and complex mental illness.
She1 suffers from major depressive disorder, anxiety,
alcohol addiction, and drug addiction. At least two
clinicians have concluded that she shares the traits of
borderline personality disorder. She abused alcohol and
methamphetamines every day for many years, stopping
only upon her incarceration. A victim of sexual abuse
at an early age, she attempted suicide three times
before her arrest for sexual assault—twice by overdose
and once by cutting.
A new diagnosis was added in 2012: gender
dysphoria. Two months after being transferred to the
Idaho State Correctional Institution (a men’s prison),
Edmo sought to speak about hormone therapy with Dr.
Scott Eliason, the Board-certified director of psychiatry
for Corizon, Inc. (the prison’s medical care provider). In
Dr. Eliason’s view, Edmo met the criteria for gender
1

Though Edmo was born a male, Edmo has legally changed the sex
listed on her birth certificate to female. I therefore use feminine
pronouns throughout, just as the panel does.

App. 7
dysphoria.2 After the diagnosis was confirmed by
another forensic psychiatrist and the prison’s
Management and Treatment Committee, Edmo was
prescribed hormone therapy. She soon changed her
legal name and the sex listed on her birth certificate.
As a result of four years of hormone therapy, Edmo
experienced physical changes, including breast
development, redistribution of body fat, and a change
in body odor. She now has the same circulating
hormones as a typical adult female.
In April 2016, at Edmo’s request, Dr. Eliason
evaluated her for sex-reassignment surgery.3
Ultimately, Dr. Eliason decided to maintain the current
course of hormones and supportive counseling instead
of prescribing surgery. He staffed Edmo’s case with Dr.
Jeremy Stoddart (a psychiatrist) and Dr. Murray
Young (a physician who served as the Regional Medical
Director for Corizon), as well as Jeremy Clark, a
clinical supervisor and member of the World
Professional Association for Transgender Health
2

Gender dysphoria is a diagnosis introduced in the latest, fifth
edition of the American Psychiatric Association’s Diagnostic and
Statistical Manual of Mental Disorders. It replaces the nowobsolete “gender identity disorder” used in the previous edition.
The gender dysphoric patient experiences “clinically significant
distress or impairment in social, occupational, or other important
areas of functioning” that is associated with the feeling of
incongruence between perceived gender identity and phenotypic
sex. See Am. Psychiatric Ass’n, Diagnostic and Statistical Manual
of Mental Disorders 453 (5th ed. 2013).

3

The panel adopts the question-begging term “gender confirmation
surgery,” which is preferred by Edmo and her lawyers. I will
continue to use the neutral “sex-reassignment surgery.”

App. 8
(“WPATH”). He also presented the evaluation and
vetted it before the regular meeting of the
multidisciplinary Management Treatment Committee.
Dr. Eliason, supported by Dr. Stoddart, Dr. Young,
and Clark, opted not to recommend sex-reassignment
surgery for several reasons, some of which are
described in his chart notes and others of which were
elaborated in their testimony. First, Dr. Eliason noted
that Edmo reported that the hormone therapy had
improved her dysphoria and Eliason “did not observe
significant dysphoria.” In the absence of more severe
distress, Dr. Eliason could not justify the risks of
pursuing the most aggressive—and permanent—
treatment through surgery. Second, Dr. Eliason
observed that Edmo’s comorbid conditions—major
depressive disorder and alcohol use disorder, among
others—were not adequately controlled. Edmo had
refused to attend therapy consistently in prison. She
also engaged in self harm (including cutting and
attempted castration) and exhibited co-dependency and
persistently poor sexual boundaries with other
prisoners. In Dr. Eliason’s view, Edmo’s other mental
health disorders were not sufficiently stabilized to
handle the stressful process of surgery and transition.
Finally, Dr. Eliason observed that Edmo—who was
parole-eligible and due to be released in 2021—had not
lived among her out-of-prison social network as a
woman. He noted the high suicide rates for
postoperative patients and was concerned that Edmo
might be at greater risk of suicide given the potential
lack of support from family, friends, coworkers, and
neighbors during her transition. Dr. Eliason did not
rule out the possibility of Edmo receiving sex-

App. 9
reassignment surgery at some later point. As Dr.
Eliason put it in his notes on his consultation with
Edmo, “Medical Necessity for Sexual Reassignment
Surgery is not very well defined and is constantly
shifting.” Citing the changing nature of the science
and the contingent nature of his evaluation of Edmo,
his recommendations were merely “for the time being.”
B
About a year after her evaluation, Edmo filed this
§ 1983 lawsuit against Dr. Eliason, the Idaho
Department of Corrections, Corizon, and several other
individuals, alleging that the prison doctors’ treatment
choice violated her right to be free from cruel and
unusual punishment under the Eighth and Fourteenth
Amendments. She then moved for a preliminary
injunction to require the prison to provide her with sexreassignment surgery.
The district court held an evidentiary hearing on
the motion. At the outset of the hearing, the court
commented that it was hard “to envision” how a
request to mandate sex-reassignment surgery could be
granted through anything other than a permanent
injunction. Nonetheless, the district court evaluated
Edmo’s motion under the preliminary injunction
standard and, only out of “an abundance of caution,”
provided a footnote evaluating whether an injunction
was merited under the more demanding standard for
a permanent injunction (which the court erroneously
described as “no more rigorous than that applicable to
a claim for preliminary mandatory relief”). Edmo v.
Idaho Dep’t of Corr., 358 F. Supp. 3d 1103, 1122 n.1 (D.
Idaho 2018); see Edmo v. Corizon, Inc., 935 F.3d 757,

App. 10
784 n.13 (9th Cir. 2019) (“[T]he standard for granting
permanent injunctive relief is higher (in that it
requires actual success on the merits) . . . .”).
In addition to testimony from Edmo, Dr. Eliason,
and Jeremy Clark, the evidentiary hearing featured
testimony from four expert witnesses. Edmo presented
Dr. Randi Ettner, a psychologist, and Dr. Ryan Gorton,
an emergency room physician. Dr. Ettner is one of the
authors of the World Professional Association of
Transgender Health’s Standards of Care for the Health
of Transsexual, Transgender, and Gender
Nonconforming People and chairs WPATH’s Committee
for Institutionalized Persons. Dr. Gorton serves on that
committee too. WPATH—formerly the Harry Benjamin
International Gender Dysphoria Association—
describes itself as a “professional association” devoted
“to developing best practices and supportive policies
worldwide that promote health, research, education,
respect, dignity, and equality for transsexual,
transgender, and gender nonconforming people in all
cultural settings.” World Prof’l Ass’n for Transgender
Health, Standards of Care for the Health of
Transsexual, Transgender, and Gender-Nonconforming
People 1 (7th ed. 2011) (“WPATH Standards”). One of
WPATH’s central functions is to promulgate Standards
of Care, which offer minimalist treatment criteria for
several possible approaches to gender dysphoria, from
puberty-blocking hormones to sex-reassignment
surgery.
In addition to Dr. Eliason and Mr. Clark, the State
presented Dr. Keelin Garvey, the Chief Psychiatrist of
the Massachusetts Department of Corrections and

App. 11
chair of its Gender Dysphoria Treatment Committee,
and Dr. Joel Andrade, a clinical social worker who
served as clinical director for the Massachusetts
Department of Corrections and served on its Gender
Dysphoria Treatment Committee. Each set of experts
had gaps in their relevant experience. Edmo’s experts
had never treated inmates with gender dysphoria,
while the State’s experts had never conducted longterm follow-up care with a patient who had undergone
sex-reassignment surgery.
Edmo’s experts testified that, in their opinion, Edmo
needs sex-reassignment surgery. They based their
conclusion on the latest edition of WPATH Standards
of Care, which contain six criteria for sex-reassignment
surgery:
(1)

“persistent, well documented gender
dysphoria,”

(2)

“capacity to make a fully informed
decision and to consent for treatment,”

(3)

“age of majority,”

(4)

“if significant medical or mental health
concerns are present, they must be well
controlled,”

(5)

“12 continuous months of hormone
therapy as appropriate to the patient’s
gender goals,”

(6)

“12 continuous months of living in a
gender role that is congruent with their
gender identity.”

App. 12
Id. at 60. In the opinion of Edmo’s experts, Edmo met
all six criteria and was unlikely to show further
improvement in her gender dysphoria without such
surgery.
The State’s experts disagreed on three main
grounds. First, they did not regard the WPATH
Standards as definitive treatment criteria, let alone
medical consensus. In their analysis, the evidence
underlying the WPATH Standards is not sufficiently
well developed, particularly when it comes to the
treatment of gender dysphoric prisoners. Therefore,
they opined that a prudent, competent doctor might
rely on clinical judgment that differs from the (already
ambiguous) WPATH Standards. Second, the State’s
experts testified that, even under WPATH, Edmo failed
to meet the fourth criterion for surgery, which requires
that the patient’s other mental health concerns be well
controlled in order to reduce the risks associated with
transitioning. In the view of the State’s experts, her
mental health raised the concern that she would have
trouble transitioning. For their part, Edmo’s experts
argued that Edmo’s depression and addiction were
controlled enough for surgery and that some current
symptoms (such as self-cutting) stem from her gender
dysphoria and therefore can be alleviated with surgery.
Finally, the State’s experts testified that Edmo also
failed to meet the WPATH Standards’ sixth criterion
for surgery, which requires that Edmo live as a woman
for twelve months before surgery. In their view, it was
essential that Edmo live those twelve months outside
of prison—that is, within her social network—in order
to be adequately sure that she and her social network
are ready for the challenges posed by transitioning.

App. 13
Edmo’s experts disagreed, noting that WPATH says
treatment in prisons should “mirror” treatment outside
of prisons.
C
Although this appeal is from a grant of a
preliminary injunction, at some point the evidentiary
hearing on the motion for a preliminary injunction was
consolidated into a final bench trial on the merits. It is
hard to know when (or if) the parties were given the
requisite “clear and unambiguous notice” of
consolidation. See Isaacson v. Horne, 716 F.3d 1213,
1220 (9th Cir. 2013); see also Univ. of Tex. v.
Camenisch, 451 U.S. 390, 395 (1981).
The district court applied the Supreme Court’s oftcited rule that “deliberate indifference to serious
medical needs of prisoners constitutes the ‘unnecessary
and wanton infliction of pain’ proscribed by the Eighth
Amendment.” Estelle v. Gamble, 429 U.S. 97, 104
(1976) (quoting Gregg v. Georgia, 428 U.S. 153, 173
(1976)). The State agreed that gender dysphoria is a
serious medical need, so the only question on the
merits is whether Dr. Eliason and his team were
“deliberately indifferent” as a matter of law.
The district court concluded that the State’s experts
were “unconvincing” and gave their opinions “virtually
no weight.” Edmo, 358 F. Supp. 3d at 1125–26. Once
such expert testimony was set aside, the district court
held that any decision not to prescribe sexreassignment surgery would be “medically
unacceptable under the circumstances” and would
therefore violate the Eighth Amendment. Id. at 1127.

App. 14
Accordingly, the district court entered an injunction
ordering the State to “take all actions reasonably
necessary to provide Ms. Edmo gender confirmation
surgery as promptly as possible.” Id. at 1129.
D
The panel has now affirmed the injunction. See
Edmo, 935 F.3d at 803. Concluding that sexreassignment surgery was “medically necessary” and
that the prison officials chose a different course of
treatment “with full awareness of the prisoner’s
suffering,” the panel holds that Dr. Eliason and the
other prison officials “violate[d] the Eighth
Amendment’s prohibition on cruel and unusual
punishment.” Id.
To reach its conclusion that sex-reassignment
surgery was medically necessary, the panel spends
most of its lengthy opinion extolling and explaining the
WPATH Standards of Care. Because Dr. Eliason failed
to “follow” or “reasonably deviate from” the WPATH
Standards, the panel concluded that his treatment
choice was “medically unacceptable under the
circumstances.” Id. at 792. To reach the ultimate
conclusion—that Dr. Eliason had a deliberately
indifferent state of mind and was consequently in
violation of the Eighth Amendment—the panel posited
that Dr. Eliason’s awareness of the risks that Edmo
would attempt to castrate herself or feel “clinically
significant” distress “demonstrates that Dr. Eliason
acted with deliberate indifference.” Id. at 793. Each
conclusion was legal error.

App. 15
II
“Deliberate indifference is a high legal standard.”
Toguchi v. Chung, 391 F.3d 1051, 1060 (9th Cir. 2004).
It is, after all, under governing precedent one form of
the “unnecessary and wanton infliction of pain” that is
the sine qua non of an Eighth Amendment violation.
Estelle, 429 U.S. at 104 (quoting Gregg v. Georgia, 428
U.S. 153, 173 (1976)). Simply put, Edmo must prove
that Dr. Eliason’s chosen course of treatment was the
doing of a criminally reckless—or worse—state of mind.
Farmer v. Brennan, 511 U.S. 825, 839 (1994).
We have stated that a deliberately indifferent state
of mind may be inferred when “the course of treatment
the doctors chose was medically unacceptable under
the circumstances” and “they chose this course in
conscious disregard of an excessive risk to plaintiff’s
health.” Jackson v. McIntosh, 90 F.3d 330, 332 (9th Cir.
1996). Yet even most objectively unreasonable medical
care is not deliberately indifferent. “[M]ere
‘indifference,’ ‘negligence,’ or ‘medical malpractice’” is
not enough to constitute deliberate indifference. Lemire
v. Cal. Dep’t of Corr. & Rehab., 726 F.3d 1062, 1082
(9th Cir. 2013) (quoting Broughton v. Cutter Labs., 622
F.2d 458, 460 (9th Cir. 1980)). “Even gross negligence
is insufficient to establish deliberate indifference . . . .”
Id. Likewise, “[a] difference of opinion between a
physician and the prisoner—or between medical
professionals—concerning what medical care is
appropriate does not amount to deliberate
indifference.” Snow v. McDaniel, 681 F.3d 978, 987 (9th
Cir. 2012) (citing Sanchez v. Vild, 891 F.2d 240, 242
(9th Cir. 1989)), overruled on other grounds by Peralta

App. 16
v. Dillard, 744 F.3d 1076, 1083 (9th Cir. 2014) (en
banc). Although the panel organizes its opinion
according to the dictum we first articulated in Jackson,
it so contorts the standard as to render deliberate
indifference exactly what we have said it is not: a
constitutional prohibition on good-faith disagreement
between medical professionals.
A
The panel first, and fundamentally, errs by
misunderstanding what it means for a chosen
treatment to be medically “unacceptable” for purposes
of the Eighth Amendment. As did the district court, the
panel concludes that the decision to continue hormone
treatment and counseling instead of sex-reassignment
surgery for Edmo was “medically unacceptable under
the circumstances” because, in short, Dr. Eliason failed
to “follow” or “reasonably deviate from” the WPATH
Standards of Care. Edmo, 935 F.3d at 792. Yet such an
approach to the Eighth Amendment suffers from three
essential errors. First, contrary to the panel’s
suggestion, constitutionally acceptable medical care is
not defined by the standards of one organization.
Second, the panel relies on standards that were
promulgated by a controversial self-described advocacy
group that dresses ideological commitments as
evidence-based conclusions. Third, once the WPATH
Standards are put in proper perspective, we are left
with a “case of dueling experts,” compelling the
conclusion that Dr. Eliason’s treatment choice was
indeed medically acceptable.

App. 17
1
A mere professional association simply cannot
define what qualifies as constitutionally acceptable
treatment of prisoners with gender dysphoria. In Bell
v. Wolfish, 441 U.S. 520 (1979), the Supreme Court
rejected the argument that prison conditions must
reflect those set forth in the American Public Health
Association’s Standards for Health Services in
Correctional Institutions, the American Correctional
Association’s Manual of Standards for Adult
Correctional Institutions, or the National Sheriffs’
Association’s Handbook on Jail Architecture. Id. at 543
n.27. According to the Court, “the recommendations of
these various groups may be instructive in certain
cases, [but] they simply do not establish the
constitutional minima.” Id. After all, even acclaimed,
leading treatment criteria only represent the “goals
recommended by the organization in question” and the
views of the promulgating physicians,4 and so, without
more, a physician’s disagreement with such criteria is
simply the “‘difference of medical opinion’ . . . [that is]
insufficient, as a matter of law, to establish deliberate
indifference.” Id.; Jackson, 90 F.3d at 332 (quoting
Sanchez, 891 F.2d at 242); accord Snow, 681 F.3d at
987; see also Long v. Nix, 86 F.3d 761, 765 (8th Cir.
1996) (“[N]othing in the Eighth Amendment prevents
prison doctors from exercising their independent
medical judgment.”).

4

Although, as we will see, only half of the committee that
promulgates the WPATH Standards are physicians

App. 18
In its discussion of the role of treatment standards,
the panel fails to cite a single case in which a
professional organization’s standards of care defined
the line between medically acceptable and
unacceptable treatment. Instead, the panel cites two
cases, one from the Seventh Circuit and one from the
Eighth, for the proposition that professional
organizations’ standards of care are “highly relevant in
determining what care is medically acceptable and
unacceptable.” Edmo, 935 F.3d at 786 (emphasis
added). That may be. But as those two cases
demonstrate, the range of medically acceptable care is
defined by qualities of that care (or of its opposite) and
not by professional associations. Medically
unacceptable care is “grossly incompetent or inadequate
care,” Allard v. Baldwin, 779 F.3d 768, 772 (8th Cir.
2015), or care that constitutes “such a substantial
departure from accepted professional judgment to
demonstrate that the person responsible did not base
the decision on . . . [accepted professional] judgment,”
Henderson v. Ghosh, 755 F.3d 559, 566 (7th Cir. 2014)
(original parenthetical) (quoting McGee v. Adams, 721
F.3d 474, 481 (7th Cir. 2013) (stipulating that “medical
professionals . . . are ‘entitled to deference in treatment
decisions unless no minimally competent professional
would have so responded’”)). For its part, the First
Circuit holds in its own sex-reassignment-surgery case
that medical care does not violate the Eighth
Amendment so long as it is “reasonably commensurate
with the medical standards of prudent professionals.”
Kosilek v. Spencer, 774 F.3d 63, 90 (1st Cir. 2014) (en
banc). The panel is alone in its insistence that a

App. 19
professional association’s standards add up to the
constitutional minima.5
2
In the words of the panel, speaking for our court,
the WPATH Standards are “the gold standard,” the
“established standards” for evaluations of the necessity
of sex-reassignment surgery, the “undisputed starting
point in determining the appropriate treatment for
gender dysphoric individuals.” Edmo, 935 F.3d at
787–88, 788 n.16. But such overwrought acclaim is just
the beginning of the panel’s thorough enshrinement of
the WPATH Standards. The district court chose which
expert to rely on by looking at which expert hewed
most closely to the WPATH Standards of Care. See
Edmo, 358 F. Supp. 3d at 1124–26. And the panel
uncritically approves such an approach, calling the
WPATH Standards “a useful starting point for
analyzing the credibility and weight to be given to each
expert’s opinion.” Edmo, 935 F.3d at 788 n.16. By
rejecting any expert not (in the court’s view)
appropriately deferential to WPATH, the district court
and now the panel have effectively decided ab initio

5

Far from countering such assertions, the panel’s concession that
“deviation from [WPATH] standards does not alone establish an
Eighth Amendment claim” is just a truism that recognizes that the
Eighth Amendment also contains a subjective element. Edmo, 935
F.3d at 789. Moreover, such a statement serves simply to repeat
the panel’s faulty premise that the WPATH Standards are the
appropriate reference point in any analysis of medical
acceptability.

App. 20
that only the WPATH Standards could constitute
medically acceptable treatment.6
One would be forgiven for inferring from the panel’s
opinion that its bold assertions about the WPATH
Standards are uncontroverted truths. But, as the Fifth
Circuit has recognized, “the WPATH Standards of Care
reflect not consensus, but merely one side in a sharply
contested medical debate over sex reassignment
surgery.” Gibson v. Collier, 920 F.3d 212, 221 (5th Cir.
2019). For its part, the First Circuit, sitting en banc,
has likewise held that “[p]rudent medical
professionals . . . do reasonably differ in their opinions

6

In enshrining the WPATH Standards as the “gold standard” for
determining when to provide surgery to a prisoner with gender
dysphoria, the panel makes much of the State’s comment in its
opening statement before the evidentiary hearing that the WPATH
Standards are the “best standards out there.” Edmo, 935 F.3d at
769, 788 n.16. The panel even goes so far as to insist that “[b]oth
sides . . . agree that the appropriate benchmark regarding
treatment for gender dysphoria is the World Professional
Association of Transgender Health Standards of Care for the
Health of Transsexual, Transgender, and Gender Nonconforming
People.” Id. at 767. But, contrary to the panel’s suggestion, the
State’s admission that the WPATH Standards are more refined
than any alternative hardly means that the State agrees—or the
Eighth Amendment requires—that a medical provider must base
treatment decisions on WPATH’s criteria. Indeed, before the
district court and before our court, the State clearly rejected the
notion that any particular treatment criteria defines what is
medically acceptable, stating that Dr. Eliason’s choice “should be
ratified as long as it is a reasonable choice.” The panel erroneously
construes the State’s refusal to concede that it violated the
WPATH Standards as a concession that such standards are the
“benchmark” of legally acceptable medical care.

App. 21
regarding [WPATH’s] requirements.” Kosilek, 774 F.3d
at 88. Our court should have done the same.
The WPATH Standards are merely criteria
promulgated by a controversial private organization
with a declared point of view. According to Dr. Stephen
Levine, author of the WPATH Standards’ fifth version,
former Chairman of WPATH’s Standards of Care
Committee, and the court-appointed expert in Kosilek,
WPATH attempts to be “both a scientific organization
and an advocacy group for the transgendered. These
aspirations sometimes conflict.” Id. at 78. Sometimes
the pressure to be advocates wins the day. As Levine
put it, “WPATH is supportive to those who want sex
reassignment surgery. . . . Skepticism and strong
alternate views are not well tolerated. Such views have
been known to be greeted with antipathy from the
large numbers of nonprofessional adults who attend
each [of] the organization’s biennial meetings . . . .” Id.
(ellipses and brackets original). WPATH’s own
description of its drafting process makes this clear.
Initially, the sections of the sixth version were each
assigned to an individual member of WPATH who then
published a literature review with suggested revisions.
WPATH Standards, supra, at 109. The suggested
revisions were then discussed and debated by a thirtyfour-person Revision Committee, all before a
subcommittee drafted the new document. Id. at
109–11. Only about half of the Revision Committee
possesses a medical degree. The rest are sexologists,
psychotherapists, or career activists, with a sociologist
and a law professor rounding out the group. Id. at 111.

App. 22
The pressure to be advocates appears to have won
the day in the WPATH Standards’ recommendations
regarding institutionalized persons. Recall that one
central point of contention between the State’s
witnesses and Edmo’s was over whether Edmo’s time
undergoing hormone therapy in prison provides
sufficient guarantee that she could live well outside of
prison as a woman without having ever done so before.
The district court resolved the debate by citing the
WPATH Standards’ section on institutionalized
persons, see Edmo, 358 F. Supp. 3d at 1125, which
tersely stipulates that institutionalized persons should
not be “discriminated against” on the basis of their
institutionalization, WPATH Standards, supra, at 67.
Such a recommendation is not supported by any
research about the similarity between prisoners’
experiences with sex-reassignment surgery and that of
the general public. Indeed, as Edmo’s expert witness
and WPATH author, Dr. Randi Ettner, admits, there is
only one known instance of a person undergoing sexreassignment surgery while incarcerated—leaving
medical knowledge about how such surgery might
differ totally undeveloped.
Instead,
WPATH’s
recommendation
for
institutionalized persons merely expresses a policy
preference. The article from which the
recommendations are adapted stipulates upfront that,
because WPATH’s “mission” is “to advocate for
nondiscriminatory” care, it presumes that treatment
choices should be the same for all “demographic
variables, unless there is a clinical indication to provide
services in a different fashion.” George R. Brown,
Recommended Revisions to the World Professional

App. 23
Association for Transgender Health’s Standards of Care
Section on Medical Care for Incarcerated Persons with
Gender Identity Disorder, 11 Int’l J. of Transgenderism
133, 134 (2009). Unable to make an evidentiary finding
from a sample size of one, the article concludes that its
presumption should set the standard of care and then
proceeds to recommend revisions with the express
purpose of influencing how courts review gender
dysphoria treatments under the Eighth Amendment.
Id. at 133, 135. As a later peer-reviewed study by Dr.
Cynthia Osborne and Dr. Anne Lawrence put it,
WPATH’s institutionalized-persons recommendations
follow from an “ethical principle,” not “extensive
clinical experience.” Cynthia S. Osborne & Anne A.
Lawrence, Male Prison Inmates With Gender
Dysphoria: When Is Sex Reassignment Surgery
Appropriate?, 45 Archives of Sexual Behav. 1649, 1651
(2016).
Even apart from the concerns over WPATH’s
ideological commitments, its evidentiary basis is not
sufficient to justify the court’s reliance on its strict
terms. The WPATH Standards seem to suggest as
much. In its own words, the WPATH Standards are
simply “flexible clinical guidelines,” which explicitly
allow that “individual health professionals and
programs may modify them.” WPATH Standards,
supra, at 2. Indeed, the most recent WPATH Standards
“represents a significant departure from previous
versions” in part due to significant changes in
researchers’ conclusions over the preceding decade. Id.
at 1 n.2. Moreover, the WPATH Standards lack the
evidence-based grading system that characterizes
archetypal treatment guidelines, such as the Endocrine

App. 24
Society’s hormone therapy guidelines. Lacking
evidence-based grading, the WPATH Standards leave
practitioners in the dark about the strength of a given
recommendation. See William Byne et al., Report of the
American Psychiatric Association Task Force on
Treatment of Gender Identity Disorder, 41 Archives of
Sexual Behav. 759, 783 (2012) (concluding that “the
level of evidence” supporting WPATH’s Standards’
criteria for sex-reassignment surgery “was generally
low”). For these reasons, the Centers for Medicare &
Medicaid Services, an agency of the United States
Department of Health and Human Services, decided,
“[b]ased on a thorough review of the clinical evidence,”
that providers may consult treatment criteria other
than WPATH, including providers’ own criteria. Ctrs.
for Medicare & Medicaid Servs, Proposed Decision
Memo for Gender Dysphoria and Gender Reassignment
Surgery (June 2, 2016); Ctrs. for Medicare & Medicaid
Servs, Decision Memo for Gender Dysphoria and
Gender Reassignment Surgery (Aug. 30, 2016).
3
The panel’s disposition results from its failure to
put the WPATH Standards in proper perspective. Had
the district court understood that Edmo’s experts’ role
in WPATH marks them not with special insight into
the legally acceptable care, but rather as mere
participants in an ongoing medical debate, they would
have acknowledged this case for what it is: a “case of
dueling experts.” Edmo, 935 F.3d at 787. Instead of
giving Drs. Garvey and Andrade (to say nothing of Dr.
Eliason) “no weight” due to their insufficient fealty to
WPATH, the district court should have recognized

App. 25
them as legitimate, experienced participants in that
debate. And had the State’s experts’ criticisms of and
interpretation of the WPATH Standards been given
proper weight—any weight at all—the district court
would have had to conclude that the State’s
disagreement with Edmo’s experts was a mere
“difference of medical opinion,” not a constitutional
violation. Jackson, 90 F.3d at 332.
So too with its assessment of Dr. Eliason’s
treatment choice. It is instructive that the worst the
district court can say about Dr. Eliason is that he “did
not apply the WPATH criteria.” Edmo, 358 F. Supp. 3d
at 1126. Focusing the analysis not on whether Dr.
Eliason applied the standards of a professional
association but rather on whether the treatment choice
was within that of a prudent, competent practitioner,
the cautious treatment selected by Dr. Eliason is
plainly constitutionally acceptable.
As Drs. Garvey and Andrade explain, it is medically
acceptable to offer Edmo a treatment of hormone
therapy and psychotherapy but not sex-reassignment
surgery. The practitioners’ fear that sex-reassignment
surgery would exacerbate Edmo’s other mental
illnesses and increase the risk of surgery was a genuine
and sound fear. As Dr. Garvey put it, “[b]ased on her
current coping strategies, I would be concerned about
her suicide risk after surgery.” Although the measured
“regret rate,” which refers to the proportion of
postoperative patients who regret their surgery, is
“low,” see Edmo, 935 F.3d at 771, the district court and
the panel failed to acknowledge detailed testimony that
those studies neglected to follow up with such a high

App. 26
proportion of the observed sample that the stated
figure does not “represent the full picture.” In Dr.
Andrade’s opinion, “I think there are things she needs
to work out in therapy in the short and long term
before she can make a really well-informed decision
about surgery.” He raised the concern that Edmo is
particularly at risk because of “unresolved trauma”
that may stem, not from gender dysphoria, but instead
from past sexual abuse.
Dr. Eliason’s view that Edmo needed to have lived
as a woman outside of prison in order to ensure that
she would be able to adapt well after the surgery was
also legitimate. Indeed, under the peer-reviewed
treatment criteria developed by Drs. Osborne and
Lawrence, Edmo was not eligible for sex-reassignment
surgery for these exact reasons. Acknowledging the
lack of evidence concerning the effects of sexreassignment surgery on inmates, the unique
challenges imposed by the correctional setting, and the
significant risk of patient regret, Drs. Osborne and
Lawrence proposed criteria that require a prospective
patient have “a satisfactory disciplinary record and
demonstrated capacity to cooperate” and “a long period
of expected incarceration after [surgery],” among
others. Osborne & Lawrence, supra, at 1661. This
latter criterion helps to ensure that male-to-female
patients have “a longer period of time to consolidate
one’s feminine gender identity and gender role.” Id. at
1660; see also id. at 1656 (“[I]nmates with [gender
dysphoria] who attempt to live in female-typical gender
roles within men’s prisons . . . could not effectively
prepare” for life after surgery.) The district court
disregarded such additional, peer-reviewed treatment

App. 27
criteria because they “are not part of the WPATH
criteria and are in opposition to the WPATH Standards
of Care.” Edmo, 358 F. Supp. 3d at 1126. Had the
district court taken a step back and considered not
whether Osborne and Lawrence were WPATHcompliant but rather whether a competent physician
could rely on their reasoning, it would have had to
conclude that Dr. Eliason’s treatment choice was that
of a competent, prudent physician.
Perhaps recognizing such problems with the district
court’s definition of medical unacceptability, the panel
concludes its medical-unacceptability analysis by
changing the subject. Instead of considering whether
Dr. Eliason’s choice of treatment was medically
unacceptable, the panel fixates on Dr. Eliason’s chart
notes, which sets forth three general categories in
which he believes sex-reassignment surgery may be
required: (1) “Congenital malformation or ambiguous
genitalia,” (2) “Severe and devastating dysphoria that
is primarily due to genitals,” (3) or “Some type of
medical problem in which endogenous sexual hormones
were causing severe physiological damage.” According
to the panel, such categories “bear little resemblance”
to the WPATH Standards and therefore “Dr. Eliason’s
evaluation was not an exercise of medically acceptable
professional judgment.” Edmo, 935 F.3d at 791–92. In
the first place, Dr. Eliason’s categories are not meant
to substitute for treatment standards. Such categories
describe three broad pools of eligible patients; whether
a particular patient belongs in a certain pool—by
having dysphoria sufficiently severe to require sexreassignment surgery, for instance—would be resolved
by more detailed evaluative criteria. In the second

App. 28
place, conformity to WPATH is not the test of
constitutionally acceptable treatment of gender
dysphoria. But more broadly, the panel simply asks the
wrong question. Deliberate indifference may be
inferred when “the course of treatment the doctors
chose was medically unacceptable under the
circumstances,” not when the doctors’ contemporaneous
explanation of the choice is incomplete. Jackson, 90
F.3d at 332 (emphasis added); see also Snow, 681 F.3d
at 988; Toguchi, 391 F.3d at 1058; Hamby v.
Hammond, 821 F.3d 1085, 1092 (9th Cir. 2016) (all
referring to the “course of treatment,” not the
rationale). It does not matter that Dr. Eliason’s
testimony justifies his treatment choice in ways not
explicit in his chart notes such that the panel calls his
testimony a “post hoc explanation.” Edmo, 935 F.3d at
791. So long as the ultimate treatment choice was
medically acceptable, our precedents tell us, we cannot
infer “the unnecessary and wanton infliction of pain”
that violates the Eighth Amendment.
B
Even were the panel correct that the only medically
acceptable way to approach a gender dysphoric
patient’s request for sex-reassignment surgery is to
apply the WPATH Standards of Care, we still could not
infer a constitutional violation from these facts. As the
Supreme Court has explained, the Eighth Amendment
simply proscribes categories of punishment, and
punishment is “a deliberate act intended to chastise or
deter.” Wilson v. Seiter, 501 U.S. 294, 299–300 (1991).
“[O]nly the ‘unnecessary and wanton infliction of pain’
implicates the Eighth Amendment.” Id. at 297 (quoting

App. 29
Estelle, 429 U.S. at 104) (emphasis original). Hence the
commonplace deliberate-indifference inquiry, which is
a culpability standard equivalent to criminal
recklessness. Farmer, 511 U.S. at 839–40. Simply put,
unless the official “knows of and disregards an
excessive risk to inmate health and safety,” he does not
violate the Eighth Amendment. Id. at 837.
1
With little explanation, the panel castigates Dr.
Eliason for having “disregarded” risks that he directly
and forthrightly addressed. Edmo, 935 F.3d at 793. Far
from disregarding the risk that Edmo would attempt to
castrate herself, Dr. Eliason investigated the causes of
such a risk and took concrete steps to mitigate it.
Edmo’s self-harm (including her castration attempts)
followed closely after her disciplinary infractions and
other severe stressors. Identifying this causal
connection, Dr. Eliason prescribed and encouraged
regular counseling to address Edmo’s acting out and
her ability to cope. Dr. Eliason also sought to further
deter self-castration by explaining to Edmo that she
will need to have intact genitals for any eventual
surgery, something Edmo now understands and
articulated in her testimony. Likewise, contrary to the
panel’s conclusion that he disregarded the risk of
continued distress, Dr. Eliason opted for a treatment of
continued hormone therapy and more regular
supportive counseling precisely because hormone
therapy had already substantially ameliorated the
distress from the dysphoria.
Furthermore, the panel errs by fixating on such
individual risks. Physicians ministrate to whole

App. 30
individuals with whole diseases. Thus, individual risks
may—and frequently do—persist for the sake of the
overall health of the person. Dr. Eliason and his staff
clearly believed their treatment choice would mitigate
overall risk, including grave risks the panel downplays.
Given Edmo’s long-term struggles with severe
depression and addiction, coupled with the fact that
she had not lived as a woman within her social
network, Eliason and the other doctors with whom he
staffed the evaluation were concerned that she would
have trouble adjusting after surgery, which could lead
to regret, relapse, or new mood disorders. Ultimately,
they worried that she might attempt suicide again.
Such risks are not trifling and, in light of them, Dr.
Eliason’s willingness to accept some risk that Edmo
would try to castrate herself or would continue to feel
the distress of gender dysphoria (while taking steps to
mitigate such risks) is anything but deliberately
indifferent.
2
None of this is to acquiesce in the straw-man
argument set up by the panel: that, so long as officials
provide some care, they are immunized from an Eighth
Amendment claim. One may assume that some medical
care is indeed so obviously inadequate that, without
any direct evidence of the defendant’s state of mind, we
may infer that the defendant was deliberately
indifferent. See Farmer, 511 U.S. at 842 (remarking
that deliberate indifference is “subject to
demonstration in the usual ways, including inference
from circumstantial evidence” and may be inferred

App. 31
“from the very fact that the risk was obvious”).7 But
that is not this case.
Even in a legal universe in which the WPATH
Standards define adequate care, Dr. Eliason’s
deviations were not deliberately indifferent. He
selected a course of treatment that, in light of the
complex of diagnoses, the grave risks, and the rapidly
evolving nature of the medical research, was not
obviously inadequate. Cf. Lemire, 726 F.3d at 1075 (“A
prison official’s deliberately indifferent conduct will
generally ‘shock the conscience’ so long as the prison
official had time to deliberate before acting . . . .”). He
subjected his assessment to a review process intended
to surface any possibility he was not considering, a
review process that included several doctors and a full
committee. And far from being an “unjustifiable” or

7

It should, however, be noted that the panel fails to identify a
precedent of ours in which we have inferred a physician’s
deliberate indifference solely from the inadequate nature of the
treatment and the persistence of known risks. In the nearest cases,
some other circumstantial evidence has suggested the obviousness
of the inadequacy such that the physician must have been aware
of the inadequacy. E.g., Snow, 681 F.3d at 988 (non-specialist
refused the recommendation of a treating specialist); Hamilton v.
Endell, 981 F.2d 1062, 1067 (9th Cir. 1992) (same); Lopez v. Smith,
203 F.3d 1122, 1132 (9th Cir. 2000) (same); Hunt v. Dental Dep’t,
865 F.2d 198, 201 (9th Cir. 1989) (refusal to replace the dentures
prisoner had been prescribed); Jett v. Penner, 439 F.3d 1091, 1098
(9th Cir. 2006) (prisoner not referred to specialist for reasons
unrelated to the prisoner’s medical needs and medical records were
manipulated); Colwell v. Bannister, 763 F.3d 1060, 1070 (9th Cir.
2014) (reliance on arbitrary prison policy). I do not doubt that mere
inadequacy may raise the inference of deliberate indifference, but
we seem to leave such an inference for cases of genuine quackery.

App. 32
“gross” deviation from the WPATH Standards, he
departed from WPATH by raising the Standards’ own
concerns for the presence of comorbid conditions and
the patient’s limited experience as a woman. See
Farmer, 511 U.S. at 839 (incorporating the Model
Penal Code’s definition of criminal recklessness); Model
Penal Code § 2.02(2)(c) (1985) (stating that the
criminally reckless individual “disregards a substantial
and unjustifiable risk” and that such disregard
“involves a gross deviation from the standard of
conduct that a law-abiding person would observe in the
actor’s situation.”). Indeed, the panel concludes that his
deviations were simply not “reasonable”—the test for
negligent malpractice, not deliberate indifference.
Edmo, 935 F.3d at 792. “Eighth Amendment liability
requires ‘more than ordinary lack of due care . . . .’”
Farmer, 511 U.S. at 835 (quoting Whitley v. Albers, 475
U.S. 312, 319 (1986)).
III
The panel’s novel approach to Eighth Amendment
claims for sex-reassignment surgery conflicts with
every other circuit to consider the issue. The panel
acknowledges such a circuit split with the Fifth
Circuit’s opinion in Gibson v. Collier, 920 F.3d 212 (5th
Cir. 2019), but tries—and fails—to distinguish the
First Circuit’s en banc opinion in Kosilek v. Spencer,
774 F.3d 63 (1st Cir. 2014). See Edmo, 935 F.3d at
794–95. The panel does not even address a third
decision: the Tenth Circuit’s opinion in Lamb v.
Norwood, 899 F.3d 1159 (10th Cir. 2018).
Just as in this case, the First Circuit considered an
appeal of an injunction mandating sex-reassignment

App. 33
surgery. But, unlike our court, the First Circuit
reversed. Though the panel attempts to downplay the
direct conflict between its opinion and Kosilek by
pointing to minor differences between the factual
circumstances in each case,8 the decisive differences
are matters of law. As to whether the care was
medically unacceptable, the First Circuit held that
medically acceptable treatment of gender dysphoric
prisoners is not synonymous with the demands of
WPATH. Kosilek first reversed the district court’s
finding that one of the State’s experts was
“illegitimate” because the district court “made a
significantly flawed inferential leap: it relied on its
own—non-medical—judgment” and put too much
“weight” on the WPATH Standards. Kosilek, 774 F.3d
at 87–88. With that expert now taken seriously, the
First Circuit held that the denial of Kosilek’s sexreassignment surgery was medically acceptable
8

The differences between the circumstances in Kosilek and those
in this case are not substantial enough to distinguish the holdings.
The clinical judgments in each case were motivated by concerns
about coexisting mental health conditions and the risk of suicide.
Kosilek, 774 F.3d at 72. Just as in this case, Kosilek surfaced
expert opinions that the WPATH Standards are best applied
flexibly, that in-prison experience in the newly assigned gender is
not a sufficient guarantee of ability to transition, and that
practitioners face a “dearth of empirical research” on sexreassignment surgery. Id. at 72–73, 76. The “security concerns”
over how to house a potential postoperative Kosilek, which the
panel considers the foremost difference between the two cases, was
not even essential to Kosilek’s holding. See Edmo, 935 F.3d at 794;
Kosilek, 774 F.3d at 91–92 (concluding that the officials’ “choice of
a medical option . . . does not exhibit a level of inattention or
callousness to a prisoner’s needs rising to a constitutional
violation” before even analyzing the security concerns).

App. 34
because it was within the bounds of “the medical
standards of prudent professionals.” Id. at 90. On the
question of deliberate indifference, the First Circuit
applied a test, which, unlike the panel’s inference from
the practitioners’ mere knowledge that a course of
treatment carried risks, asked whether the
practitioners “knew or should have known” that course
of treatment was medically unacceptable. Id. at 91.
For its part, the Fifth Circuit has held that good
faith denial of sex-reassignment surgery never violates
the Eighth Amendment. Recognizing “large gaps” in
medical knowledge and a “robust and substantial good
faith disagreement dividing respected members of the
expert medical community,” the Fifth Circuit concluded
that “there can be no claim [for sex-reassignment
surgery] under the Eighth Amendment.” Gibson, 920
F.3d at 220, 222. Indeed, Texas’s refusal to even
evaluate the inmate for sex-reassignment surgery is, in
the words of the Fifth Circuit, not “so unconscionable
as to fall below society’s minimum standards of
decency” and permit an Eighth Amendment claim. Id.
at 216 (quoting Kosilek, 774 F.3d at 96).
Finally, the Tenth Circuit has upheld the entry of
summary judgment against a prisoner’s Eighth
Amendment claim for sex-reassignment surgery. See
Lamb, 899 F.3d at 1163. As in this case, the doctor who
evaluated the prisoner in Lamb determined that
“surgery is impractical and unnecessary in light of the
availability and effectiveness of more conservative
therapies.” Id. Adopting Kosilek’s subjective
standard—that an Eighth Amendment violation would
take place “only if prison officials had known or should

App. 35
have known” that “sex reassignment surgery [was] the
only medically adequate treatment”—the Tenth Circuit
held that “prison officials could not have been
deliberately indifferent by implementing the course of
treatment recommended by a licensed medical doctor.”
Id. at 1163 & n.11 (citing Kosilek, 774 F.3d at 91).
Although I am not aware of any other circuits to
have directly addressed the questions posed in this
case,9 for its part, the Seventh Circuit has held that it
is at least not “clearly established” that there is a
constitutional right to gender-dysphoria treatment
beyond hormone therapy. Campbell v. Kallas, 936 F.3d
536, 549 (7th Cir. 2019). Nor is it “clearly established”
that a prison medical provider is prohibited from
denying sex-reassignment surgery on the basis of the
patient’s status as an institutionalized person. Id. at
541, 549.
With this decision, our circuit sets itself apart.
IV
I do not know whether sex-reassignment surgery
will ameliorate or exacerbate Adree Edmo’s suffering.
Fortunately, the Constitution does not ask federal
judges to put on white coats and decide vexed questions
9

The Seventh and Fourth Circuits (along with our own circuit)
have also held that arbitrary blanket bans on certain gender
dysphoria treatments can violate the Eighth Amendment—an
issue not presented here because Idaho evaluates prisoner
requests for sex-reassignment surgery on a case-by-case basis. See
Rosati v. Igbinoso, 791 F.3d 1037, 1040 (9th Cir. 2015); De’lonta v.
Johnson, 708 F.3d 520, 526 (4th Cir. 2013); Fields v. Smith, 653
F.3d 550, 556 (7th Cir. 2011).

App. 36
of psychiatric medicine. The Eighth Amendment
forbids the “unnecessary and wanton infliction of pain,”
not the “difference of opinion between a physician and
the prisoner—or between medical professionals.” Snow,
681 F.3d at 985, 987 (quoting Estelle, 429 U.S. at 104).
Yet today our court assumes the role of Clinical
Advisory Committee. Far from rendering an opinion
“individual to Edmo” that “rests on the record,” Edmo,
935 F.3d at 767, the panel entrenches the district
court’s unfortunate legal errors as the law of this
circuit. Instead of permitting prudent, competent
patient care, our court enshrines the WPATH
Standards as an enforceable “medical consensus,”
effectively putting an ideologically driven private
organization in control of every relationship between a
doctor and a gender dysphoric prisoner within our
circuit. Instead of reserving the Eighth Amendment for
the grossly, unjustifiably reckless, the panel infers a
culpable state of mind from the supposed inadequacy of
the treatment.
We have applied the traditional deliberateindifference standard to requests for back surgery,
kidney transplant, hip replacement, antipsychotic
medication, and hernia surgery. Yet suddenly the
request for sex-reassignment surgery—and the panel’s
closing appeal to what it calls the “increased social
awareness” of the needs and wants of transgender
citizens—effects a revolution in our law! Id. at 803. The
temptation to stand at what we are told is society’s
next frontier and to invent a constitutional right to
state-funded sex-reassignment surgery does not justify

App. 37
the revision of previously universal principles of Eighth
Amendment jurisprudence.
Dr. Eliason and the State’s other practitioners were
not deliberately indifferent—far from it. And they
certainly were not guilty of violating the Eighth
Amendment. They confronted the serious risks to
Edmo’s health, especially the gravest one. They
considered the knotty quandary posed by her
overlapping illnesses and the vicissitudes of her life.
Mindful of the dictate “first do no harm,” these doctors
determined that the appropriate treatment would be
more cautious and more reversible than the one the
patient desired. And they did so in the shadow of the
ongoing debate about when the surgical replacement of
the genitals is curative and when it is not.
Surely this was not cruel and unusual punishment.
COLLINS, Circuit Judge, dissenting from the denial of
rehearing en banc:
The Supreme Court has held that a prisoner
claiming that his or her medical treatment is so
inadequate that it constitutes “cruel and unusual
punishment” in violation of the Eighth Amendment
must make the demanding showing that prison officials
acted with “deliberate indifference” to the prisoner’s
“serious medical needs.” Estelle v. Gamble, 429 U.S. 97,
104 (1976). As judges of an “inferior Court[],” see U.S.
Const. art. III, § 1, we are bound to apply that
standard, but as Judge Bumatay explains, the panel
here effectively waters it down into a “mere negligence”
test. See infra at 47–48 (Bumatay, J., dissenting from
denial of rehearing en banc). That is, by narrowly

App. 38
defining the range of “medically acceptable” options
that the court believes a prison doctor may properly
consider in a case such as this one, and by then
inferring deliberate indifference from Dr. Eliason’s
failure to agree with that narrow range, the district
court and the panel have applied standards that look
much more like negligence than deliberate indifference.
Id. at 45–48. Whether Dr. Eliason was negligent or not
(a question on which I express no opinion), his
treatment decisions do not amount to “cruel and
unusual punishment,” and we have thus strayed far
from any proper understanding of the Eighth
Amendment. I therefore join Part II of Judge
Bumatay’s dissent, and I respectfully dissent from our
failure to rehear this case en banc.
BUMATAY, Circuit Judge, with whom CALLAHAN,
IKUTA, R. NELSON, BADE, and VANDYKE, Circuit
Judges, join, and with whom COLLINS, Circuit Judge,
joins as to Part II, dissenting from the denial of
rehearing en banc:
Like the panel and the district court, I hold great
sympathy for Adree Edmo’s medical situation. And as
with all citizens, her constitutional rights deserve the
utmost respect and vigilant protection. As the district
court rightly stated,
The Rule of Law, which is the bedrock of our
legal system, promises that all individuals will
be afforded the full protection of our legal
system and the rights guaranteed by our
Constitution. This is so whether the individual
seeking that protection is black, white, male,

App. 39
female, gay, straight, or, as in this case,
transgender.1
Adree Edmo is a transgender woman suffering from
gender dysphoria—a serious medical condition. While
incarcerated in Idaho’s correctional facilities, she asked
that her gender dysphoria be treated with sexreassignment surgery (“SRS”). After consultation with
a prison doctor, her request was denied. She then sued
under the Eighth Amendment.2
I respect Edmo’s wishes and hope she is afforded
the best treatment possible. But whether SRS is the
optimal treatment for Edmo’s gender dysphoria is not
before us. As judges, our role is not to take sides in
matters of conflicting medical care. Rather, our duty is
to faithfully interpret the Constitution.
That duty commands that we apply the Eighth
Amendment, not our sympathies. Here, in disregard of
the text and history of the Constitution and precedent,
the panel’s decision elevates innovative and evolving
medical standards to be the constitutional threshold for
prison medical care. In doing so, the panel minimizes
the standard for establishing a violation of the Eighth
Amendment.
1

Edmo v. Idaho Dep’t of Corr., 358 F. Supp. 3d 1103, 1109 (D.
Idaho 2018), order clarified, No. 1:17-CV-00151-BLW, 2019 WL
2319527 (D. Idaho May 31, 2019), and aff’d in part, vacated in
part, remanded sub nom. Edmo v. Corizon, Inc., 935 F.3d 757 (9th
Cir. 2019).

2

Because Judge O’Scannlain thoroughly recites the relevant facts
in his opinion respecting the denial of the rehearing en banc, which
I join in full, I do not reiterate them here.

App. 40
After today’s denial of rehearing en banc, the Ninth
Circuit stands alone in finding that a difference of
medical opinion in this debated area of treatment
amounts to “cruel and unusual” punishment under the
Constitution. While this posture does not mean we are
wrong, it should at least give us pause before
embarking on a new constitutional trajectory. This is
especially true given the original meaning of the
Eighth Amendment.
Because the panel’s opinion reads into the Eighth
Amendment’s Cruel and Unusual Clause a meaning in
conflict with its text, original meaning, and controlling
precedent, I respectfully dissent from the denial of
rehearing en banc.
I.
In holding that Idaho3 violated the Eighth
Amendment, the panel opined that the Constitution’s
text and original meaning merited “little discussion.”
See Edmo, 935 F.3d at 797 n.21. I disagree.
As inferior court judges, we are bound by Supreme
Court precedent. Yet, in my view, judges also have a
“duty to interpret the Constitution in light of its text,
structure, and original understanding.” NLRB v. Noel
Canning, 573 U.S. 513, 573 (2014) (Scalia, J.,
concurring). While we must faithfully follow the Court’s
Eighth Amendment precedent as articulated in Estelle
v. Gamble, 429 U.S. 97 (1976), and its progeny, “[w]e
should resolve questions about the scope of those
3

For simplicity, I collectively refer to Defendants below and
Appellants here as “Idaho.”

App. 41
precedents in light of and in the direction of the
constitutional text and constitutional history.” Free
Enter. Fund v. Public Co. Accounting Oversight Bd.,
537 F.3d 667, 698 (D.C. Cir. 2008) (Kavanaugh, J.,
dissenting), aff’d in part, rev’d in part and remanded,
561 U.S. 477 (2010).
Accordingly, the Eighth Amendment’s history and
original understanding are of vital importance to this
case.
A.
The Eighth Amendment provides that “[e]xcessive
bail shall not be required, nor excessive fines imposed,
nor cruel and unusual punishments inflicted.” U.S.
Const. amend. VIII. Even just a cursory review of the
amendment’s original meaning shows that Edmo’s
claims fall far below a constitutional violation as a
matter of text and original understanding.
At the time of the Eighth Amendment’s ratification,
“cruel” meant “[p]leased with hurting others; inhuman;
hard-hearted; void of pity; wanting compassion; savage;
barbarous; unrelenting.” Bucklew v. Precythe, 139
S. Ct. 1112, 1123 (2019) (citing 1 Samuel Johnson, A
Dictionary of the English Language (4th ed. 1773); 1
Noah Webster, An American Dictionary of the English
Language (1828) (“Disposed to give pain to others, in
body or mind; willing or pleased to torment, vex or
afflict; inhuman; destitute of pity, compassion or
kindness.”)). Even today, “cruel” punishments have
been described as “inhumane,” Farmer v. Brennan, 511
U.S. 825, 838 (1994), involving the “unnecessary and
wanton infliction of pain,” Whitley v. Albers, 475 U.S.

App. 42
312, 319 (1986) (emphasis added) (citations omitted), or
involving the “superadd[ition] of terror, pain, or
disgrace.” Bucklew, 139 S. Ct. at 1124 (emphasis
added) (internal quotation marks and citations
omitted).
In the 18th Century, a punishment was “unusual”
if it ran contrary to longstanding usage or custom, or
had long fallen out of use. Bucklew, 139 S. Ct. at 1123
(citing 4 William Blackstone, Commentaries on the
Laws of England 370 (1769); Stuart Banner, The Death
Penalty: An American History 76 (2002); Baze v. Rees,
553 U.S. 35, 97 (2008) (Thomas, J., concurring); John
F. Stinneford, The Original Meaning of “Unusual”: The
Eighth Amendment as a Bar to Cruel Innovation, 102
Nw. U. L. Rev. 1739, 1770–71, 1814 (2008)). This early
understanding comports with the plain meaning of
“unusual,” which has changed little from our Nation’s
founding. See Harmelin v. Michigan, 501 U.S. 957, 976
(1991) (comparing Webster’s American Dictionary
(1828) definition of “unusual” as that which does not
“occu[r] in ordinary practice” with Webster’s Second
International Dictionary 2807 (1954) as that which is
not “in common use.”).
Conversely, customs enjoying a long history of usage
were described as “usual” practices. Stinneford, supra,
at 1770. James Wilson, a key contributor to the
Constitution, stated that “long customs, approved by
the consent of those who use them, acquire the
qualities of a law.” 2 James Wilson, Collected Works of
James Wilson 759 (Kermit L. Hall & Mark David Hall
eds., Indianapolis, Liberty Fund 2007); see also
Stinneford, supra, at 1769. Likewise, early American

App. 43
courts construing the term “cruel and unusual”
(generally, as used in state constitutions) upheld
punishments that were not “unusual” in light of
common law usage. Stinneford, supra, at 1810–11
(citing Barker v. People, 20 Johns. 457, 459 (N.Y. Sup.
Ct. 1823), aff’d, 3 Cow. 686 (N.Y. 1824); Commonwealth
v. Wyatt, 27 Va. 694, 701 (Va. Gen. Ct. 1828); People v.
Potter, 1 Edm. Sel. Cas. 235, 245 (N.Y. Sup. Ct. 1846)).
Thus, “[u]nder the plain meaning of the term, a prison
policy cannot be ‘unusual’ if it is widely practiced in
prisons across the country.” Gibson v. Collier, 920 F.3d
212, 226 (5th Cir. 2019).
Finally, various views have been proposed with
respect to the original meaning of “punishment” in the
Eighth Amendment. Some view the word as being
inapplicable to conditions of confinement. See, e.g.,
Farmer, 511 U.S. at 837 (“The Eighth Amendment does
not outlaw cruel and unusual ‘conditions’; it outlaws
cruel and unusual ‘punishments.’”) (Souter, J.). Some
have even suggested that “punishment” refers only to
sentences imposed by a judge or jury. See Hudson v.
McMillian, 503 U.S. 1, 18 (1992) (Thomas, J.,
dissenting); but see Helling v. McKinney, 509 U.S. 25,
40 (1993) (Thomas, J., dissenting) (recognizing that the
“evidence is not overwhelming” on this question).
Others believe the term was originally understood to
encompass more than sentences called for by statute or
meted out from the bench or jury box, but it required
deliberate intent. See, e.g., Wilson v. Seiter, 501 U.S.
294, 300 (1991) (“The infliction of punishment is a
deliberate act intended to chastise or deter. This is
what the word means today; it is what it meant in the
eighteenth century.”) (Scalia, J.) (quoting Duckworth v.

App. 44
Franzen, 780 F.2d 645, 652 (7th Cir. 1985)); see also
Celia Rumann, Tortured History: Finding Our Way
Back to the Lost Origins of the Eighth Amendment, 31
Pepp. L. Rev. 661, 675, 677 (2004) (presenting
historical evidence that the word punishment was
“understood at the time to include torturous
interrogation”) (citing 4 William Blackstone,
Commentaries on the Laws of England; 3 Jonathan
Elliot, The Debates in the Several State Conventions
on the Adoption of the Federal Constitution 447–48).
B.
While the foregoing overview does not provide the
full contours of the original understanding of the Cruel
and Unusual Clause, it demonstrates that Idaho’s
actions are far from a constitutional violation based on
the clause’s text and original meaning. Idaho’s actions
simply do not amount to the “barbarous” or “inhuman”
treatment so out of line with longstanding practice as
to be forbidden by the Eighth Amendment.
No longstanding practice exists of prison-funded
SRS.4 Indeed, the medical standards at the heart of
Edmo’s claim are innovative and evolving. The
standards of care relied on by Edmo were promulgated
by the World Professional Association for Transgender
Health (“WPATH”) in 2011—only about five years

4

See, e.g., Quine v. Beard, No.14-cv-02726-JST, 2017 WL 1540758,
at *1 (N.D. Cal. Apr. 28, 2017), aff’d in part, vacated in part, rev’d
in part sub nom. Quine v. Kernan, 741 F. App’x 358 (9th Cir. 2018);
Kristine Phillips, A Convicted Killer Became the First U.S. Inmate
to Get State-Funded Gender-Reassignment Surgery, Wash. Post
(Jan. 10, 2017), https://wapo.st/2S21zP3.

App. 45
before Edmo’s lawsuit. WPATH, Standard of Care for
the Health of Transsexual, Transgender, and GenderNonconforming People (7th ed. 2011) (“WPATH
standards”). As the standards themselves note, this
“field of medicine is evolving.” The WPATH standards
also call for flexibility, individual tailoring, and wide
latitude in treatment options.
Likewise, as recognized by numerous federal courts,
the WPATH standards are not accepted as medical
consensus. The first circuit court to address the issue
ruled that the WPATH standards did not foreclose
alternative treatment options, and that a doctor’s
decision to choose a non-WPATH treatment did not
violate the Eighth Amendment. Kosilek v. Spencer, 774
F.3d 63, 90 (1st Cir. 2014). The Fifth Circuit also found
that the WPATH standards remained controversial and
did not reflect a consensus. Gibson, 920 F.3d at 223.
Similarly, after reciting the WPATH standard’s
recommended treatment options for gender dysphoria,
the Tenth Circuit rejected a claim that prison officials
acted with deliberate indifference “by implementing [an
alternative] course of treatment recommended by a
licensed medical doctor,” rather than SRS. Lamb v.
Norwood, 899 F.3d 1159, 1163 (10th Cir. 2018), cert.
denied, 140 S. Ct. 252 (2019).5
The debate about the WPATH standards continues
even outside prison walls. The Centers for Medicare
5

In the non-SRS context, the Tenth Circuit also found no Eighth
Amendment violation where a doctor prescribed lower hormonal
treatment levels for a gender dysphoric inmate than those
suggested by the WPATH standards. Druley v. Patton, 601 F.
App’x 632, 635 (10th Cir. 2015).

App. 46
and Medicaid Services (“CMS”) declined to adopt the
WPATH standards due to inadequate scientific
backing, and instead gives providers discretion to apply
either the WPATH standards or their own standards.
CMS, Decision Memo for Gender Dysphoria and
Gender Reassignment Surgery (August 30, 2016),
available at https://go.cms.gov/36yMrx X. Similarly, the
American Psychiatric Association expressed concern
about the scientific evidence undergirding the WPATH
standards. And as recently as 2017, WPATH requested
that Johns Hopkins University conduct an evidencebased review of the standards, a review that, at the
time of Edmo’s lawsuit, was ongoing.
Idaho’s actions reflect the uncertainty regarding the
WPATH standards throughout the medical field, and
do not, under the record, reflect a want of compassion.
See supra O’Scannlain, J., dissenting at 22–29. Given
the lack of medical consensus, Dr. Eliason’s decision to
pursue an alternative treatment, rather than SRS,
cannot constitute the “barbarous” or “inhuman”
conduct prohibited by the Eighth Amendment. See
Bucklew, 139 S. Ct. at 1123. Nothing in the record
reflects that Dr. Eliason’s diagnosis and treatment of
Edmo was tainted by malice or animosity. Notably, Dr.
Eliason concluded that Edmo had coexisting mental
health issues that required treatment and counseling
prior to considering SRS. The district court itself found
Edmo’s reluctance to address those issues “troubling.”
Edmo, 358 F. Supp. 3d at 1121. Additionally, Idaho had
no blanket policy prohibiting SRS, and Dr. Eliason
never definitively ruled it out. Dr. Eliason committed
to monitoring Edmo’s candidacy for SRS after deciding
that Edmo did not meet the criteria for the procedure

App. 47
in 2016. In sum, Dr. Eliason’s decision to pursue an
alternative treatment to SRS suggests a tailored
evaluation of potential risks and does not reflect the
hardhearted or barbarous treatment proscribed by the
text of the Constitution.
Given the facts of this case, Dr. Eliason’s treatment
cannot rise to the infliction of cruel and unusual
punishment—not in a sense that bears any
resemblance to the original meaning of that phrase.
This is not to say that the WPATH standards are not a
medically acceptable standard. But the innovative,
contested, and evolving nature of the WPATH
standards, the lack of medical consensus, and the
particular circumstances of this case make clear that
no constitutional violation occurred under the
Constitution’s text and original understanding.
II.
In addition to being inconsistent with the original
understanding of the Eighth Amendment, I, like Judge
O’Scannlain, believe that the panel decision departs
from precedent.
A.
Since Estelle v. Gamble, the Supreme Court has
recognized claims for inadequate medical treatment
under the Eighth Amendment when prison officials act
with “deliberate indifference to serious medical needs
of prisoners.” 429 U.S. at 104. The test for such a claim
involves “both an objective standard—that the
deprivation was serious enough to constitute cruel and
unusual punishment—and a subjective standard—
deliberate indifference.” Snow v. McDaniel, 681 F.3d

App. 48
978, 985 (9th Cir. 2012), overruled on other grounds by
Peralta v. Dillard, 774 F.3d 1076 (9th Cir. 2014). Under
Ninth Circuit precedent, if a defendant’s treatment
decision was “medically acceptable,” then the court
need go no further: the plaintiff cannot show deliberate
indifference as a matter of law. Jackson v. McIntosh, 90
F.3d 330, 332 (9th Cir. 1996) (citing Estelle, 429 U.S. at
107–08).
Deliberate indifference is a high bar, involving an
“unnecessary and wanton infliction of pain” or conduct
that is “repugnant to the conscience of mankind.”
Estelle, 429 U.S. at 104, 105–06 (citations omitted). An
inadvertent failure to provide adequate medical care is
neither, so it cannot support an Eighth Amendment
claim. Id; see also Farmer, 511 U.S. at 835 (explaining
that deliberate indifference requires “more than
ordinary lack of due care for the prisoner’s interests or
safety”) (citation omitted).
A prison official acts with deliberate indifference
only where he “knows of and disregards an excessive
risk to inmate health or safety.” Farmer, 511 U.S. at
837 (emphasis added). As Justice Thomas describes it,
this is the second-highest standard of subjective
culpability under the Court’s Eighth Amendment
jurisprudence—short only of “malicious and sadistic
action for the very purpose of causing harm.” Id. at 861
(Thomas, J., concurring) (internal quotation marks and
citations omitted). Such a stringent culpability
requirement “follows from the principle that ‘only the
unnecessary and wanton infliction of pain implicates
the Eighth Amendment.’” Id. at 834 (quoting Wilson,
501 U.S. at 294).

App. 49
Our precedent has consistently emphasized the
challenging threshold for showing deliberate
indifference.6 Rightfully so, too. In the 44 years since
Estelle, an unbroken line of Supreme Court cases
reaffirmed that mere negligence, inadvertence, or goodfaith error cannot establish an Eighth Amendment
claim.7
B.
The panel’s decision here dilutes the otherwise
stringent deliberate indifference standard. The panel
6

See Hamby v. Hammond, 821 F.3d 1085, 1092 (9th Cir. 2016)
(explaining that “[a] difference of opinion between a physician and
the prisoner—or between medical professionals—concerning what
medical care is appropriate does not amount to deliberate
indifference,” and reiterating the “high legal standard” for showing
an Eighth Amendment violation) (citations omitted); Toguchi v.
Chung, 391 F.3d 1051, 1060 (9th Cir. 2004); Hallett v. Morgan, 296
F.3d 732, 745 (9th Cir. 2002); Wood v. Housewright, 900 F.2d 1332,
1334 (9th Cir. 1990).
7

See Minneci v. Pollard, 565 U.S. 118, 130 (2012) (noting that “to
show an Eighth Amendment violation a prisoner must typically
show that a defendant acted, not just negligently, but with
‘deliberate indifference’”) (citing Farmer, 511 U.S. at 825, 834);
Ortiz v. Jordan, 562 U.S. 180, 190 (2011) (restating Farmer’s
articulation of the deliberate indifference standard); Wilson, 501
U.S. at 297 (“[A]llegations of ‘inadvertent failure to provide
adequate medical care,’ or of a ‘negligent . . . diagnosis,’ simply fail
to establish the requisite culpable state of mind.”) (internal
citations and alterations omitted); Whitley, 475 U.S. at 319 (“To be
cruel and unusual punishment, conduct that does not purport to be
punishment at all must involve more than ordinary lack of due
care . . . . It is obduracy and wantonness, not inadvertence or error
in good faith, that characterize the conduct prohibited by the Cruel
and Unusual Punishments Clause[.]”).

App. 50
begins by finding Edmo’s gender dysphoria to be a
“serious medical need.” Edmo, 935 F.3d at 785. It then
determines, based solely on the WPATH standards,
that Dr. Eliason’s failure to recommend SRS was
medically unacceptable. Id. at 786–92. From there, the
panel leaps to conclude that Dr Eliason was
“deliberately indifferent” precisely because it viewed
his treatment as “ineffective” and “medically
unacceptable” under the panel’s reading of the WPATH
standards. Id. at 793. Thus, under the panel’s
approach, compliance with the court-preferred medical
standards (in this case, the WPATH standards) is the
beginning and the end of the inquiry. This is not the
deliberate indifference inquiry required by precedent.
As an initial matter, and as Judge O’Scannlain
aptly points out, the panel errs in holding up one
medically accepted standard, i.e., the WPATH
guidelines, as the constitutional “gold standard,”
thereby precluding any further debate on the matter.
See supra O’Scannlain, J., dissenting at 15–22. As
discussed above, the WPATH standards do not
establish a definitive medical consensus and judges
applying Eighth Amendment standards should not and
need not take sides in this debate.
More fundamentally though, the panel’s analysis
effectively erases the subjective deliberate indifference
requirement with its circular reasoning. Nowhere does
the panel consider any direct evidence of Dr. Eliason’s
subjective mental state. Cf. Jett v. Penner, 439 F.3d
1091, 1098 & n.2 (9th Cir. 2006) (concluding that a
doctor’s medical note stating “I reviewed xrays which
showed no obvious fracture malalignment,” written

App. 51
after reviewing a radiology report which specifically
indicated a deformity, could evidence deliberate
indifference) (alteration in original). Nor does the panel
consider the many reasons underlying Dr. Eliason’s
decision to decline SRS treatment. See supra
O’Scannlain, J., dissenting at 15–22. Once those
reasons are swept aside, the panel circularly infers
deliberate indifference based on its prior determination
that Dr. Eliason’s treatment plan was “ineffective” or
“medically unacceptable” under the WPATH standards.
See Edmo, 935 F.3d at 793–94 (finding Dr. Eliason
deliberately indifferent because his treatment “stopped
short of what was medically necessary”).
Such an approach is particularly troublesome
because, if replicated, deliberate indifference could be
inferred solely from a finding of a “medically
unacceptable” treatment. For Eighth Amendment
claims like Edmo’s, a plaintiff must first show the
“medically unacceptable” treatment of a “serious
medical need[]” and, second, that the doctor’s
treatment decision reflected “deliberate indifference” to
the medical need. Jackson, 90 F.3d at 332. The panel’s
analysis collapses this two-part inquiry into one
circular step. If courts follow the panel’s reasoning, in
every case of medically unacceptable treatment, courts
could automatically infer deliberate indifference.
Worse still, because “medical acceptability” is an
objective negligence inquiry, the ultimate effect of the
panel’s analysis is to dilute the heightened, subjective
culpability required for deliberate indifference, see
Farmer, 511 U.S. at 839–40, into mere negligence,
which the Supreme Court has repeatedly warned falls

App. 52
short of an Eighth Amendment violation. See, e.g.,
Estelle, 429 U.S. at 105–06. By denying rehearing en
banc in this case, we relegate federal judges to the role
of referee in medical disputes. This is not what the
Constitution or precedent envisions.
***
The Eighth Amendment’s history and text entreat
us to hold the line on the heightened standards for a
constitutional deprivation found in our precedent. As
Justice Thomas rightly observed, “[t]he Eighth
Amendment is not, and should not be turned into, a
National Code of Prison Regulation.” Hudson, 503 U.S.
at 28 (Thomas, J., dissenting). By judicially mandating
an innovative and evolving standard of care, the panel
effectively constitutionalizes a set of guidelines subject
to ongoing debate and inaugurates yet another circuit
split. And by diluting the requisite state of mind from
“deliberate indifference” to negligence, the panel
effectively holds that—contrary to Supreme Court
precedent—”[m]edical malpractice [does] become a
constitutional violation merely because the victim is a
prisoner.” Estelle, 429 U.S. at 106 (altered). I
respectfully dissent from the denial of rehearing en
banc.

App. 53

APPENDIX B
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 19-35017
D.C. No. 1:17-cv-00151-BLW
[Filed August 23, 2019]
____________________________________
)
ADREE EDMO, AKA Mason Edmo,
Plaintiff-Appellee,
)
)
v.
)
)
CORIZON, INC.; SCOTT ELIASON;
)
MURRAY YOUNG; CATHERINE
)
WHINNERY,
)
Defendants-Appellants, )
)
and
)
)
IDAHO DEPARTMENT OF
)
CORRECTIONS; AL RAMIREZ, in his
)
official capacity as warden of Idaho
)
State Correctional Institution;*
)
HENRY ATENCIO; JEFF ZMUDA;
)
*

Al Ramirez is substituted in his official capacity for his
predecessor, Howard Keith Yordy, pursuant to Rule 43(c)(2) of the
Federal Rules of Appellate Procedure.

App. 54
HOWARD KEITH YORDY; RICHARD
CRAIG; RONA SIEGERT,
Defendants.
___________________________________

)
)
)
)

No. 19-35019
D.C. No. 1:17-cv-00151-BLW
____________________________________
ADREE EDMO, AKA Mason Edmo,
)
Plaintiff-Appellee,
)
)
v.
)
)
IDAHO DEPARTMENT OF
)
CORRECTIONS; AL RAMIREZ, in his
)
official capacity as warden of Idaho
)
State Correctional Institution;
)
HENRY ATENCIO; JEFF ZMUDA;
)
HOWARD KEITH YORDY; RICHARD
)
CRAIG; RONA SIEGERT,
)
Defendants-Appellants, )
)
and
)
)
CORIZON, INC.; SCOTT ELIASON;
)
MURRAY YOUNG; CATHERINE
)
WHINNERY,
)
Defendants.
)
___________________________________ )

App. 55
Appeal from the United States District Court
for the District of Idaho
B. Lynn Winmill, Chief District Judge, Presiding
Argued and Submitted May 16, 2019
San Francisco, California
Filed August 23, 2019
Before: M. Margaret McKeown and Ronald M. Gould,
Circuit Judges, and Robert S. Lasnik,** District Judge.
PER CURIAM OPINION
SUMMARY***
Eighth Amendment / Prisoner Rights
The panel affirmed the district court’s entry of a
permanent injunction in favor of Idaho state prisoner
Adree Edmo, but vacated the injunction to the extent
it applied to defendants Corizon, Howard Yordy, Rona
Siegert, Dr. Young, Dr. Craig, and Dr. Whinnery, in
their individual capacities, in Edmo’s action seeking
medical treatment for gender dysphoria.
The district court concluded that Edmo had
established her Eighth Amendment claim. The district
court further concluded that gender confirmation
surgery (“GCS”) was medically necessary for Edmo,
and ordered the State to provide the surgery.
**

The Honorable Robert S. Lasnik, United States District Judge
for the Western District of Washington, sitting by designation.

***

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 56
The panel credited the district court’s factual
findings as logical and well-supported, and held that
the responsible prison authorities were deliberately
indifferent to Edmo’s gender dysphoria, in violation of
the Eighth Amendment. The panel held that the
record, as construed by the district court, established
that Edmo had a serious medical need, that the
appropriate medical treatment was GCS, and that
prison authorities had not provided that treatment
despite full knowledge of Edmo’s ongoing and extreme
suffering and medical needs. The panel rejected the
State’s position that there was a reasoned
disagreement between qualified medical professionals.
The panel emphasized that its analysis was individual
to Edmo, and rested on the record of this case.
Addressing further aspects of the appeal, the panel
rejected the State’s contention that the district court
did not make the Prison Litigation Reform Act’s
requisite “need-narrowness-intrusiveness” findings,
causing the injunction to automatically expire and
mooting the appeal. The panel held that the district
court’s order, considered as a whole, made all the
findings required by 18 U.S.C. § 3626(a)(1)(A), and
Ninth Circuit precedent. The panel also held that the
permanent injunction that the district court entered
had not expired, and remained in place, albeit stayed.
The panel accordingly denied the State’s motion to
dismiss.
The panel held that the district court did not err in
granting a permanent injunction. Specifically, the
panel held, based on the district court’s factual
findings, that Edmo established her Eighth

App. 57
Amendment claim and that she will suffer irreparable
harm – in the form of ongoing mental anguish and
possible physical harm – if GCS is not provided. The
State did not dispute that Edmo’s gender dysphoria
was a sufficiently serious medical need to trigger the
State’s obligations under the Eighth Amendment. The
panel held that the district court did not err in
crediting the testimony of Edmo’s experts that GCS
was medically necessary to treat Edmo’s gender
dysphoria and that the State’s failure to provide that
treatment was medically unacceptable. The panel
further held that the district court did not err in
discrediting the State’s experts because aspects of their
opinions were illogical and unpersuasive. Also, the
panel held that the record demonstrated that Dr.
Eliason acted with deliberate indifference to Edmo’s
serious medical needs. The panel noted that its decision
was in tension with the Fifth Circuit’s decision in
Gibson v. Collier, 920 F.3d 212 (5th Cir. 2019), and the
panel rejected that decision’s categorical holding that
denying GCS cannot, as a matter of law, violate the
Eighth Amendment.
The panel held that the district court did not err in
finding that Edmo would be irreparably harmed absent
an injunction. The panel rejected the State’s
contentions as to why the district court erred in this
finding.
The panel next considered the State’s challenges to
the scope of the injunction. The panel held that the
injunction was properly entered against Dr. Eliason
because he personally participated in the deprivation
of Edmo’s constitutional rights. The panel also held

App. 58
that because Edmo may properly pursue her Eighth
Amendment claim for injunctive relief against Attencio,
Zmuda and Ramirez in their official capacities, they
were properly included within the scope of the district
court’s injunction. On remand, the district court shall
amend the injunction to substitute the current warden
as a party for Yordy. The panel vacated the district
court’s injunction to the extent it applied to Yordy,
Siegert, Dr. Young, Dr. Craig, and Dr. Whinnery in
their individual capacities because the evidence in the
record was insufficient to conclude that they were
deliberately indifferent to Edmo’s serious medical
needs. The panel vacated the injunction as to Corizon,
and remanded with instructions to the district court to
modify the injunction to exclude Corizon. Finally, the
panel held that the injunctive relief ordered was not
overbroad.
The panel considered the State’s challenges to the
procedure used by the district court. The panel rejected
the State’s contention that the district court
erroneously converted the evidentiary hearing into a
final trial on the merits without giving proper notice.
The panel held that the State did receive notice, and in
any event, the State had not shown any prejudice. The
panel also rejected the State’s contention that the
district court violated defendants’ Seventh Amendment
right to a jury trial by converting the evidentiary
hearing into a trial on the merits. The panel held that
the State’s conduct waived its right to a jury trial with
respect to issues common to Edmo’s request for an
injunction ordering GCS and her legal claims.

App. 59
COUNSEL
Brady J. Hall (argued), Special Deputy Attorney
General; Lawrence G. Wasden, Attorney General;
Office of the Attorney General, Boise, Idaho; Marisa S.
Crecelius, Moore Elia Kraft & Hall LLP, Boise, Idaho;
for Defendants-Appellants Idaho Department of
Corrections, Henry Atencio, Jeff Zmuda, Howard Keith
Yordy, Richard Craig, and Rona Siegert.
Dylan A. Eaton (argued), J. Kevin West, and Bryce
Jensen, Parsons Behle & Latimer, Boise, Idaho, for
Defendants-Appellants Corizon, Inc.; Scott Eliason;
Murray Young; and Catherine Whinnery.
Lori Rifkin (argued), Hadsell Stormer & Renick LLP,
Emeryville, California; Dan Stormer and Shaleen
Shanbhag, Hadsell Stormer & Renick LLP, Pasadena,
California; Craig Durham and Deborah Ferguson,
Ferguson Durham PLLC, Boise, Idaho; Amy Whelan
and Julie Wilensky, National Center for Lesbian
Rights, San Francisco, California; for PlaintiffAppellee.
David M. Shapiro, Sheila A. Bedi, and Vanessa del
Valle, Roderick & Solange MacArthur Justice Center,
Chicago, Illinois; Molly E. Whitman, Akin Gump
Strauss Hauer & Feld LLP, Dallas, Texas; for Amici
Curiae Andrea Armstrong, Sharon Dolovich, Betsy
Ginsberg, Michael B. Mushlin, Alexander A. Reinert,
Laura Rovner, and Margo Schlanger.
Molly Kafka and Richard Alan Eppink, ACLU of Idaho
Foundation, Boise, Idaho; Devon A. Little and Derek
Borchardt, Walden Macht & Haran LLP, New York,
New York; Amy Fettig and Jennifer Wedekind, ACLU

App. 60
National Prison Project, Washington, D.C.; Gabriel
Arkles and Rose Saxe, ACLU LGBT & HIV
Project/ACLU Foundation, New York, New York; for
Amici Curiae Former Corrections Officials.
Devi M. Rao and Jason T. Perkins, Jenner & Block
LLP, Washington, D.C., for Amici Curiae Medical and
Mental Health Professional Organizations.
Sharif E. Jacob, Ryan K. M. Wong, Kristin E. Hucek,
and Patrick E. Murray, Keker Van Nest & Peters LLP,
San Francisco, California, for Amicus Curiae Jody L.
Herman.
Alan E. Schoenfeld, Wilmer Cutler Pickering Hale and
Dorr LLP, New York, New York; Michael Posada,
Wilmer Cutler Pickering Hale and Dorr LLP,
Washington, D.C.; Richard Saenz, Lambda Legal
Defense & Education Fund Inc., New York, New York;
A. Chinyere Ezie, Center for Constitutional Rights,
New York, New York; for Amici Curiae Civil Rights &
Non-Profit Organizations.
OPINION
PER CURIAM:
The Eighth Amendment prohibits “cruel and
unusual punishments.” U.S. Const. amend. VIII. “The
Amendment embodies broad and idealistic concepts of
dignity, civilized standards, humanity, and
decency . . . .” Estelle v. Gamble, 429 U.S. 97, 102
(1976) (quotation omitted). Our society recognizes that
prisoners “retain the essence of human dignity
inherent in all persons.” Brown v. Plata, 563 U.S. 493,
510 (2011).

App. 61
Consistent with the values embodied by the Eighth
Amendment, for more than 40 years the Supreme
Court has held that “deliberate indifference to serious
medical needs” of prisoners constitutes cruel and
unusual punishment. Estelle, 429 U.S. at 106. When
prison authorities do not abide by their Eighth
Amendment duty, “the courts have a responsibility to
remedy the resulting . . . violation.” Brown, 563 U.S. at
511. We do so here.
Adree Edmo (formerly Mason Dean Edmo) is a
male-to-female transgender prisoner in the custody of
the Idaho Department of Correction (“IDOC”). Edmo’s
sex assigned at birth (male) differs from her gender
identity (female). The incongruity causes Edmo to
experience persistent distress so severe it limits her
ability to function. She has twice attempted selfcastration to remove her male genitalia, which cause
her profound anguish.
Both sides and their medical experts agree: Edmo
suffers from gender dysphoria, a serious medical
condition. They also agree that the appropriate
benchmark regarding treatment for gender dysphoria
is the World Professional Association of Transgender
Health Standards of Care for the Health of
Transsexual, Transgender, and Gender Nonconforming
People (“WPATH Standards of Care”). And the State1
does not seriously dispute that in certain
1

In addition to IDOC, Edmo sued Corizon, Inc. (a private for-profit
corporation that provides health care to inmates in IDOC custody)
and various employees of IDOC and Corizon. The defendants
briefed the case jointly, and for ease of reference we refer to them
collectively as “the State.”

App. 62
circumstances, gender confirmation surgery (“GCS”)
can be a medically necessary treatment for gender
dysphoria. The parties’ dispute centers around whether
GCS is medically necessary for Edmo—a question we
analyze with deference to the district court’s factual
findings.
Following four months of intensive discovery and a
three-day evidentiary hearing, the district court
concluded that GCS is medically necessary for Edmo
and ordered the State to provide the surgery. Its ruling
hinged on findings individual to Edmo’s medical
condition. The ruling also rested on the finding that
Edmo’s medical experts testified persuasively that GCS
was medically necessary, whereas testimony from the
State’s medical experts deserved little weight. In
contrast to Edmo’s experts, the State’s witnesses lacked
relevant experience, could not explain their deviations
from generally accepted guidelines, and testified
illogically and inconsistently in important ways.
The district court’s detailed factual findings were
amply supported by its careful review of the extensive
evidence and testimony. Indeed, they are essentially
unchallenged. The appeal boils down to a disagreement
about the implications of the factual findings.
Crediting, as we must, the district court’s logical,
well-supported factual findings, we hold that the
responsible prison authorities have been deliberately
indifferent to Edmo’s gender dysphoria, in violation of
the Eighth Amendment. The record before us, as
construed by the district court, establishes that Edmo
has a serious medical need, that the appropriate
medical treatment is GCS, and that prison authorities

App. 63
have not provided that treatment despite full
knowledge of Edmo’s ongoing and extreme suffering
and medical needs. In so holding, we reject the State’s
portrait of a reasoned disagreement between qualified
medical professionals. We also emphasize that the
analysis here is individual to Edmo and rests on the
record in this case. We do not endeavor to project
whether individuals in other cases will meet the
threshold to establish an Eighth Amendment violation.
The district court’s order entering injunctive relief for
Edmo is affirmed, with minor modifications noted
below.
Our opinion proceeds as follows. In Part I, we
provide background on gender dysphoria, the standard
of care, and the evidence considered and factual
findings made by the district court. Part II explains
why this appeal complies with the Prison Litigation
Reform Act (“PLRA”) and is not moot. In Part III, we
turn to the gravamen of the appeal: Edmo’s Eighth
Amendment claim and showing of irreparable injury.
Part IV addresses the State’s challenges to the
injunction’s scope and narrows the injunction as to
certain defendants. Part V rejects the State’s objections
to the procedure employed by the district court. We
conclude in Part VI.

App. 64
I. Background2
A. Gender Dysphoria and its Treatment
Transgender individuals have a “[g]ender
identity”—a “deeply felt, inherent sense” of their
gender—that does not align with their sex assigned at
birth.3 Am. Psychol. Ass’n, Guidelines for Psychological
Practice with Transgender and Gender Nonconforming
People, 70 Am. Psychologist 832, 834 (2015). Recent
estimates suggest that approximately 1.4 million
transgender adults live in the United States, or 0.6
percent of the adult population. Andrew R. Flores et
al., The Williams Inst., How Many Adults Identify as
Transgender in the United States?, at 2 (2016),
http://williamsinstitute.law.ucla.edu/wp-content/
uploads/How-Many-Adults-Identify-as-Transgender-inthe-United-States.pdf.
Gender dysphoria4 is “[d]istress that is caused by a
discrepancy between a person’s gender identity and
that person’s sex assigned at birth (and the associated
gender role and/or primary and secondary sex
characteristics).” World Prof’l Ass’n for Transgender
Health, Standards of Care for the Health of
2

The following sections are derived from the district court’s factual
findings and the record on appeal.

3

At birth, infants are classified as male or female based on visual
observation of their external genitalia. This is a person’s “sex
assigned at birth,” but it may not be the person’s gender identity.

4

Until recently, the medical community commonly referred to
gender dysphoria as “gender identity disorder.” See Kosilek v.
Spencer, 774 F.3d 63, 68 n.1 (1st Cir. 2014).

App. 65
Transsexual, Transgender, and GenderNonconforming People 2 (7th ed. 2011) (hereinafter
“WPATH SOC”). The Fifth Edition of the American
Psychiatric Association’s Diagnostic and Statistical
Manual of Mental Disorders (“DSM-5”) sets forth two
conditions that must be met for a person to be
diagnosed with gender dysphoria.5
First, there must be “[a] marked incongruence
between one’s experienced/expressed gender and
assigned gender, of at least 6 months’ duration, as
manifested by at least two of the following”:
(1) “a marked incongruence between one’s
experienced/expressed gender and primary
and/or secondary sex characteristics”;
(2) “a strong desire to be rid of one’s primary
and/or secondary sex characteristics because of
a marked incongruence with one’s experienced/
expressed gender”;
(3) “a strong desire for the primary and/or
secondary sex characteristics of the other
gender”;
(4) “a strong desire to be of the other gender”;
(5) “a strong desire to be treated as the other
gender”; or
(6) “a strong conviction that one has the typical
feelings and reactions of the other gender.”

5

Each expert in the case used these criteria to determine whether
Edmo has gender dysphoria.

App. 66
Am. Psychiatric Ass’n, Diagnostic and Statistical
Manual of Mental Disorders 452 (5th ed. 2013)
(hereinafter “DSM-5”). Second, the person’s condition
must be associated with “clinically significant
distress”—i.e., distress that impairs or severely limits
the person’s ability to function in a meaningful way
and has reached a threshold that requires medical or
surgical intervention, or both. Id. at 453, 458. Not
every transgender person has gender dysphoria, and
not every gender dysphoric person has the same
medical needs.
Gender dysphoria is a serious but treatable medical
condition. Left untreated, however, it can lead to
debilitating distress, depression, impairment of
function, substance use, self-surgery to alter one’s
genitals or secondary sex characteristics, self-injurious
behaviors, and even suicide.
The district court found that the World Professional
Association of Transgender Health Standards of Care
for the Health of Transsexual, Transgender, and
Gender Nonconforming People (“WPATH Standards of
Care”)6 “are the internationally recognized guidelines
for the treatment of individuals with gender
dysphoria.” Edmo v. Idaho Dep’t of Corr., 358 F. Supp.
3d 1103, 1111 (D. Idaho 2018). Most courts agree. See,
e.g., De’lonta v. Johnson, 708 F.3d 520, 522–23 (4th Cir.
2013); Keohane v. Jones, 328 F. Supp. 3d 1288, 1294
6

The WPATH Standards of Care were formerly referred to as the
“Harry Benjamin Standards of Care” and were promulgated by
WPATH under its former name, the “Harry Benjamin
International Gender Dysphoria Association.” Kosilek, 774 F.3d at
70 & n.3.

App. 67
(N.D. Fla. 2018), appeal filed, No. 18-14096 (11th Cir.
2018); Norsworthy v. Beard, 87 F. Supp. 3d 1164, 1170
(N.D. Cal.), appeal dismissed & remanded, 802 F.3d
1090 (9th Cir. 2015); Soneeya v. Spencer, 851 F. Supp.
2d 228, 231–32 (D. Mass. 2012). But see Gibson v.
Collier, 920 F.3d 212, 221 (5th Cir. 2019) (“[T]he
WPATH Standards of Care reflect not consensus, but
merely one side in a sharply contested medical debate
over [GCS].”); cf. Kosilek, 774 F.3d at 76–79 (recounting
testimony questioning the WPATH Standards of Care).
And many of the major medical and mental health
groups in the United States—including the American
Medical Association, the American Medical Student
Association, the American Psychiatric Association, the
American Psychological Association, the American
Family Practice Association, the Endocrine Society, the
National Association of Social Workers, the American
Academy of Plastic Surgeons, the American College of
Surgeons, Health Professionals Advancing LGBTQ
Equality, the HIV Medicine Association, the Lesbian,
Bisexual, Gay and Transgender Physician Assistant
Caucus, and Mental Health America—recognize the
WPATH Standards of Care as representing the
consensus of the medical and mental health
communities regarding the appropriate treatment for
transgender and gender dysphoric individuals.
Each expert in this case relied on the WPATH
Standards of Care in rendering an opinion. As the
State acknowledged to the district court, the WPATH
Standards of Care “provide the best guidance,” and “are
the best standards out there.” “There are no other
competing, evidence-based standards that are accepted

App. 68
by any nationally or internationally recognized medical
professional groups.” Edmo, 358 F. Supp. 3d at 1125.
“[B]ased on the best available science and expert
professional consensus,” the WPATH Standards of
Care provide “flexible clinical guidelines” “to meet the
diverse health care needs of transsexual, transgender,
and gender nonconforming people.” WPATH SOC at
1–2. Treatment under the WPATH Standards of Care
must be individualized: “[w]hat helps one person
alleviate gender dysphoria might be very different from
what helps another person.” Id. at 5. “Clinical
departures from the [WPATH Standards of Care] may
come about because of a patient’s unique anatomic,
social, or psychological situation; an experienced health
professional’s evolving method of handling a common
situation; a research protocol; lack of resources in
various parts of the world; or the need for specific harm
reduction strategies.” Id. at 2.
The WPATH Standards of Care identify the
following evidence-based treatment options for
individuals with gender dysphoria:
(1) “changes in gender expression and role
(which may involve living part time or full time
in another gender role, consistent with one’s
gender identity)”;
(2) “psychotherapy (individual, couple, family, or
group) for purposes such as exploring gender
identity, role, and expression[,] addressing the
negative impact of gender dysphoria and stigma
on mental health[,] alleviating internalized
transphobia[,] enhancing social and peer

App. 69
support[,] improving body image[,] or promoting
resilience”;
(3) “hormone therapy to feminize or masculinize
the body”; and
(4) “surgery to change primary and/or secondary
sex characteristics (e.g., breasts/chest, external
and/or internal genitalia, facial features, body
contouring).”
Id. at 10. The WPATH Standards of Care state that
many individuals “find comfort with their gender
identity, role, and expression without surgery.” Id. at
54. For others, however, “surgery is essential and
medically necessary to alleviate their gender
dysphoria.” Id. That group cannot achieve “relief from
gender dysphoria . . . without modification of their
primary and/or secondary sex characteristics to
establish greater congruence with their gender
identity.” Id. at 55; see also Jae Sevelius & Valerie
Jenness, Challenges and Opportunities for GenderAffirming Healthcare for Transgender Women in
Prison, 13 Int’l J. Prisoner Health 32, 36 (2017)
(“Negative outcomes such as genital self-harm,
including autocastration and/or autopenectomy, can
arise when gender-affirming surgeries are delayed or
denied.”); George R. Brown & Everett McDuffie, Health
Care Policies Addressing Transgender Inmates in
Prison Systems in the United States, 15 J. Corr. Health
Care 280, 287–88 (2009) (describing the authors’
“firsthand knowledge of completed autocastration
and/or autopenectomy in six facilities in four states”).

App. 70
The weight of opinion in the medical and mental
health communities agrees that GCS is safe, effective,
and medically necessary in appropriate circumstances.
See, e.g., U.S. Dep’t of Health & Human Servs., No. A13-87, Decision No. 2576, (Dep’t Appeals Bd. May 30,
2014); Randi Ettner, et al., Principles of Transgender
Medicine and Surgery 109–11 (2d ed. 2016); Jordan D.
Frey, et al., A Historical Review of Gender-Affirming
Medicine: Focus on Genital Reconstruction Surgery, 14
J. Sexual Med. 991, 991 (2017); Cynthia S. Osborne &
Anne A. Lawrence, Male Prison Inmates With Gender
Dysphoria: When Is Sex Reassignment Surgery
Appropriate?, 45 Archives of Sexual Behav. 1649,
1651–53 (2016); see also De’lonta, 708 F.3d at 523
(“Pursuant to the Standards of Care, after at least one
year of hormone therapy and living in the patient’s
identified gender role, sex reassignment surgery may
be necessary for some individuals for whom serious
symptoms persist. In these cases, the surgery is not
considered experimental or cosmetic; it is an accepted,
effective, medically indicated treatment for [gender
dysphoria].”).
The WPATH criteria for genital reconstruction
surgery in male-to-female patients include the
following:
(1)
“persistent, well documented gender
dysphoria”;
(2)
“capacity to make a fully informed
decision and to consent for treatment”;
(3)

“age of majority in a given country”;

App. 71
(4) “if significant medical or mental health
concerns are present, they must be well
controlled”;
(5) “12 continuous months of hormone therapy
as appropriate to the patient’s gender goals”;
and
(6) “12 continuous months of living in a gender
role that is congruent with their gender
identity.”
WPATH SOC at 60. The parties’ dispute focuses on
whether Edmo satisfied the fourth and sixth criteria.
With respect to the fourth criterion, the WPATH
Standards of Care provide that coexisting medical or
mental health concerns unrelated to the person’s
gender dysphoria do not necessarily preclude surgery.
Id. at 25. But those concerns need to be managed prior
to, or concurrent with, treatment of a person’s gender
dysphoria. Id. Coexisting medical or mental health
issues resulting from a person’s gender dysphoria are
not an impediment under the fourth criterion. It may
be difficult to determine, however, whether mental or
medical health concerns result from the gender
dysphoria or are unrelated.
The WPATH Standards of Care explain that the
sixth criterion—living for 12 months in an identitycongruent role—is intended to ensure that the person
experiences the full range of “different life experiences
and events that may occur throughout the year.” Id. at
61. During that time, the patient should present
consistently in her desired gender role. Id.

App. 72
Scientific studies show that the regret rate for
individuals who undergo GCS is low, in the range of
one to two percent. See, e.g., Osborne & Lawrence,
Male Prison Inmates With Gender Dysphoria, 45
Archives of Sexual Behav. at 1660; William Byne, et
al., Report of the American Psychiatric Association Task
Force on Treatment of Gender Identity Disorder, 41
Archives of Sexual Behav. 759, 780–81 (2012). The
district court found, and the State does not dispute on
appeal, that Edmo does not have any of the risk factors
that would make her likely to regret GCS. See Edmo,
358 F. Supp. 3d at 1121.
The WPATH Standards of Care apply equally to all
individuals “irrespective of their housing situation” and
explicitly state that health care for transgender
individuals “living in an institutional environment
should mirror that which would be available to them if
they were living in a non-institutional setting within
the same community.” WPATH SOC at 67. The next
update to the WPATH Standards of Care will likewise
apply equally to incarcerated persons. The National
Commission on Correctional Health Care (“NCCHC”),
a leading professional organization in health care
delivery in the correctional context, endorses the
WPATH Standards of Care as the accepted standards
for the treatment of transgender prisoners.
In summary, the broad medical consensus in the
area of transgender health care requires providers to
individually diagnose, assess, and treat individuals’
gender dysphoria, including for those individuals in
institutionalized environments. Treatment can and
should include GCS when medically necessary. Failure

App. 73
to follow an appropriate treatment plan can expose
transgender individuals to a serious risk of
psychological and physical harm. The State does not
dispute these points; it contends that GCS is not
medically necessary for Edmo.
B. Edmo’s Treatment
Edmo is a transgender woman in IDOC custody.
Her sex assigned at birth was male, but she identifies
as female. In her words, “my brain typically operates
female, even though my body hasn’t corresponded with
my brain.”
Edmo has been incarcerated since pleading guilty in
2012 to sexual abuse of a 15-year-old male at a house
party. Edmo was 21 years old at the time of the
criminal offense. Edmo is currently incarcerated at the
Idaho State Correctional Institution (“ISCI”). At the
time of the evidentiary hearing, she was 30 years old
and due to be released from prison in 2021.
Edmo has viewed herself as female since age 5 or 6.
She struggled with her gender identity as a child and
teenager, presenting herself intermittently as female,
but around age 20 or 21 she began living fulltime as a
woman.
Although she identified as female from an early age,
Edmo first learned the term “gender dysphoria” and
the contours of that diagnosis around the time of her
incarceration. Shortly thereafter, Corizon psychiatrist
Dr. Scott Eliason diagnosed her with “gender identity
disorder,” now referred to as gender dysphoria. Corizon
psychologist Dr. Claudia Lake confirmed that
diagnosis.

App. 74
While incarcerated, Edmo has changed her legal
name to Adree Edmo and the sex on her birth
certificate to “female” to affirm her gender identity.
Throughout her incarceration, Edmo has consistently
presented as female, despite receiving many
disciplinary offense reports for doing so. For example,
when able to do so, Edmo has worn her hair in
feminine hairstyles and worn makeup, for which she
has received multiple disciplinary offense reports.7
Medical providers have documented Edmo’s feminine
presentation since 2012.
Neither the parties nor their experts dispute that
Edmo suffers from gender dysphoria. That dysphoria
causes Edmo to feel “depressed,” “disgusting,”
“tormented,” and “hopeless.”
To alleviate Edmo’s gender dysphoria, prison
officials have, since 2012, provided hormone therapy.
Edmo has followed and complied with her hormone
therapy regimen, which helps alleviate her gender
dysphoria to some extent. The hormones “clear[] [her]
mind” and have resulted in breast growth, body fat
redistribution, and changes in her skin. Today, Edmo
is hormonally confirmed, which means that she has the
hormones and secondary sex characteristics
(characteristics, such as women’s breasts, that appear
during puberty but are not part of the reproductive
7

Before the evidentiary hearing, Edmo tried to receive access to
female commissary items, such as women’s underwear. Most of her
requests were denied. On the eve of the evidentiary hearing, IDOC
amended its policy concerning the treatment of gender dysphoric
prisoners to increase transgender women’s access to female
commissary items.

App. 75
system) of an adult female. Edmo has gained the
maximum physical changes associated with hormone
treatment.
Hormone therapy has not completely alleviated
Edmo’s gender dysphoria. Edmo continues to
experience significant distress related to gender
incongruence. Much of that distress is caused by her
male genitalia. Edmo testified that she feels
“depressed, embarrassed, [and] disgusted” by her male
genitalia and that this is an “everyday reoccurring
thought.” Her medical records confirm her disgust,
noting repeated efforts by Edmo to purchase
underwear to keep, in Edmo’s words, her “disgusting
penis” out of sight.
In addition to her gender dysphoria, Edmo suffers
from major depressive disorder with anxiety and drug
and alcohol addiction, although her addiction has been
in remission while incarcerated. Edmo has taken her
prescribed medications for depression and anxiety.
Prison officials have also provided Edmo mental health
treatment to help her work through her serious
underlying mental health issues and a preincarceration history of trauma, abuse, and suicide
attempts. Edmo sees her psychiatrist when scheduled.
But Edmo does not see her treating clinician, Krina
Stewart, because Edmo does not believe Stewart is
qualified to treat her gender dysphoria. Edmo has
attended group therapy sessions inconsistently.
In September 2015, Edmo attempted to castrate
herself for the first time using a disposable razor

App. 76
blade.8 Before doing so, she left a note to alert officials
that she was not “trying to commit suicide,” and was
instead “only trying to help [her]self.” Edmo did not
complete the castration, though she continued to report
thoughts of self-castration in the following months.
On April 20, 2016, Dr. Eliason evaluated Edmo for
GCS. At the time, IDOC’s policy concerning the
treatment of gender dysphoric prisoners provided that
GCS “will not be considered for individuals within
[IDOC], unless determined medically necessary by” the
treating physician.9 Corizon’s policy does not mention
GCS.
In his evaluation, Dr. Eliason noted that Edmo
reported she was “doing alright.” He also noted that
Edmo had been on hormone replacement therapy for
the last year and a half, but that she felt she needed
more. He reported that Edmo had stated that hormone
replacement therapy helped alleviate her gender
dysphoria, but she remained frustrated with her male
anatomy.
Dr. Eliason indicated that Edmo appeared feminine
in demeanor and interaction style. He also indicated
that Edmo had previously attempted to “mutilate her
genitalia” because of the severity of her distress. Dr.
Eliason later testified that, at the time of his
evaluation, he felt that Edmo’s gender dysphoria “had

8

She had previously reported thoughts of self-castration to
clinicians.

9

IDOC revised its policy shortly before the evidentiary hearing,
but its revised policy contains functionally identical language.

App. 77
risen to another level,” as evidenced by her selfcastration attempt.
But Dr. Eliason also flagged that he had spoken to
prison staff about Edmo’s behavior and they explained
it was “notable for animated affect and no observed
distress.” He similarly noted that he had personally
observed Edmo and did not see significant dysphoria;
instead, she “looked pleasant and had a good mood.”
As to GCS, Dr. Eliason explained in his notes that
while medical necessity for GCS is “not very well
defined and is constantly shifting,” in his view, GCS
would be medically necessary in at least three
situations: (1) “congenital malformations or ambiguous
genitalia,” (2) “severe and devastating dysphoria that
is primarily due to genitals,” or (3) “some type of
medical problem in which endogenous sexual hormones
were causing severe physiological damage.” Dr. Eliason
concluded that Edmo “does not meet any of those . . .
criteria” and, for that reason, GCS is not medically
necessary for her.
Dr. Eliason instead concluded that hormone therapy
and supportive counseling suffice to treat Edmo’s
gender dysphoria for the time being, despite
recognizing that Edmo had attempted self-castration
on that regimen. Dr. Eliason indicated that he would
continue to monitor and assess Edmo.
Dr. Eliason staffed Edmo’s evaluation with Dr.
Jeremy Stoddart, Dr. Murray Young, and Jeremy
Clark, who all agreed with his assessment. They did
not observe Edmo; rather, they agreed with Dr.
Eliason’s recommended treatment as he presented it to

App. 78
them. The record is sparse on the qualifications of Dr.
Stoddart and Dr. Young, but Clark has never
personally treated anyone with gender dysphoria and
was not qualified under IDOC policy to assess whether
GCS would be appropriate for Edmo.
Dr. Eliason also discussed his evaluation with
IDOC’s Management and Treatment Committee
(“MTC”), a multi-disciplinary team composed of
medical providers, mental health clinicians, IDOC’s
Chief Psychologist, and prison leadership. The MTC
meets periodically to evaluate and address the unique
medical, mental health, and housing needs of prisoners
with gender dysphoria. The committee “does not make
any individual treatment decisions regarding”
treatment for inmates with gender dysphoria. “Those
determinations are made by the individual clinicians or
the medical staff employed by Corizon.” The MTC
agreed with Dr. Eliason’s assessment.
Although not mentioned in his April 20, 2016 notes,
Dr. Eliason testified at the evidentiary hearing that he
considered the WPATH Standards of Care when
determining Edmo’s treatment. Citing those standards,
Dr. Eliason testified that he did not believe GCS was
appropriate for two reasons: (1) because mental health
issues separate from Edmo’s gender dysphoria were not
“fully in adequate control” and (2) because Edmo had
not lived in her identified gender role for 12 months
outside of prison. He explained that Edmo needed to
experience “living as a woman” around “her real social
network – her family and friends on the outside” so
that she could “determine whether or not she felt like
that was her real identity.”

App. 79
Edmo was never evaluated for GCS again, but the
MTC considered her gender dysphoria and treatment
plan during later meetings. The MTC continues to
believe that GCS is not medically necessary or
appropriate for Edmo.
In December 2016, Edmo tried to castrate herself
for the second time. A medical note from the incident
reports that Edmo said she no longer wanted her
testicles. Edmo reported to medical providers that she
was “feeling angry/frustrated that [she] was not
receiving the help desired related to [her] gender
dysphoria. Inmate Edmo’s actions were reported as a
method to stop/cease testosterone production in Edmo’s
body. Edmo denied suicidal ideation . . . .”
Edmo’s second attempt was more successful than
the first. She was able to open her testicle sac with a
razor blade and remove one testicle. She abandoned
her attempt, however, when there was too much blood
to continue. She then sought medical assistance and
was transported to a hospital, where her testicle was
repaired. Edmo was receiving hormone therapy both
times she attempted self-castration.
Edmo testified that she was disappointed in herself
for coming so close but failing to complete her selfcastration attempts. She also testified that she
continues to actively think about self-castration. To
avoid acting on those thoughts and impulses, Edmo
“self-medicat[es]” by cutting her arms with a razor. She
says that the physical pain helps to ease the “emotional
torment” and mental anguish her gender dysphoria
causes her.

App. 80
Edmo further testified that she expects GCS to help
alleviate some of her gender dysphoria. In particular,
she testified that she expects GCS to help her avoid
having “as much depression about myself and my
physical body. I don’t think I will be so anxious that
people are always knowing I’m different . . . .” Edmo
recognizes, however, that GCS “is not a fix-all”: “[i]t’s
not a magic operation. . . . I’m still going to have to face
the same stressors that we all face in everyday
life . . . .”
C. Initiation of this Action
Edmo filed a pro se complaint on April 6, 2017. She
also moved for a temporary restraining order, a
preliminary injunction, and the appointment of
counsel.
Edmo’s motion for appointment of counsel was
granted in part, and counsel for Edmo appeared in
June and August 2017. Counsel withdrew Edmo’s pro
se motion for preliminary injunction shortly thereafter.
On September 1, 2017, Edmo filed an amended
complaint asserting claims under 42 U.S.C. § 1983, the
Eighth Amendment, the Fourteenth Amendment, the
Americans with Disabilities Act, the Affordable Care
Act, and for common law negligence. She named as
defendants IDOC, Henry Atencio (Director of IDOC),
Jeff Zmuda (Deputy Director of IDOC), Howard Keith
Yordy (former Warden of ISCI), Dr. Richard Craig
(Chief Psychologist at ISCI), Rona Siegert (Health
Services Director at ISCI), Corizon, Dr. Eliason, Dr.
Young, and Dr. Catherine Whinnery (Corizon
employee).

App. 81
Through counsel, Edmo filed a renewed motion for
a preliminary injunction on June 1, 2018. Among other
relief, Edmo sought an order requiring the State to
provide her with a referral to a qualified surgeon and
access to GCS.
The State moved to extend the time to respond to
Edmo’s motion. After a status conference, the district
court set an evidentiary hearing for October 10, 11, and
12, 2018. The court permitted the parties to undertake
four months of extensive fact and expert discovery in
preparation for the hearing.
D. The Evidentiary Hearing
At the evidentiary hearing, each side had eight
hours to present its case. The district court heard live
testimony from seven witnesses over three days. It also
considered thousands of pages of exhibits, including
Edmo’s medical records. With the parties’ agreement,
the court also permitted the State to submit
declarations in lieu of live testimony and permitted
Edmo to impeach the declarations with deposition
testimony.
At the outset of the hearing, the district court noted
that “[w]e’re here on a hearing for a temporary
injunction,” but it explained that “it’s hard for me to
envision this hearing being anything but a hearing on
a final injunction[,] at least as to” the injunctive relief
ordering GCS. The court stated that it was unsure
whether that made a difference, and it asked the
parties to address at some point whether the hearing
was for a preliminary injunction or a permanent
injunction. Notably, the State did not do so.

App. 82
The district court heard testimony from three
percipient witnesses: Edmo, Dr. Eliason (the Corizon
physician), and Jeremy Clark (an IDOC clinician who
did not meet IDOC’s criteria to assess Edmo for GCS).
Their relevant testimony is largely recounted above.
It also heard testimony from four expert witnesses,
two each for Edmo and the State. Dr. Randi Ettner,
Ph.D. in psychology, testified first for Edmo. Dr. Ettner
is one of the authors of the current (seventh) version of
the WPATH Standards of Care. She has been a
WPATH member since 1993 and chairs its
Institutionalized Persons Committee. Dr. Ettner has
authored or edited many peer-reviewed publications on
the treatment of gender dysphoria and transgender
health care more broadly, including the leading
textbook used in medical schools on the subject. She
also trains medical and mental health providers on
treating people with gender dysphoria. Dr. Ettner has
been retained as an expert witness on gender dysphoria
and its treatment in many court cases, and she has
been appointed as an independent expert by one
federal court to evaluate an incarcerated person for
GCS.
Dr. Ettner has evaluated, diagnosed, and treated
between 2,500 and 3,000 individuals with gender
dysphoria. She has referred about 300 people for GCS.
She has also refused to recommend surgery for some
patients who have requested it. She believes that not
everyone who has gender dysphoria needs GCS. Dr.
Ettner also has “[e]xtensive experience” treating and
providing post-operative care for patients who have
undergone GCS.

App. 83
Dr. Ettner has assessed approximately 30
incarcerated individuals with gender dysphoria for
GCS and other medical care, but she has not treated
incarcerated patients. She has not worked in a prison
and she is not a Certified Correctional Healthcare
Professional.
Based on her evaluation of Edmo and a review of
Edmo’s medical records, Dr. Ettner diagnosed Edmo
with gender dysphoria, depressive disorder, anxiety,
and suicidal ideation. In Dr. Ettner’s opinion, GCS is
medically necessary for Edmo and should be
immediately performed. She explained that most
patients with gender dysphoria do not require GCS, but
Edmo requires it because hormone therapy has been
inadequate for her and Edmo has attempted to remove
her own testicles. Dr. Ettner further explained that
GCS would give Edmo congruent genitalia, eliminating
the severe distress Edmo experiences due to her male
anatomy.
Dr. Ettner further opined that Edmo meets the
WPATH criteria for GCS. She explained that Edmo has
“persistent and well-documented long-standing gender
dysphoria”; Edmo “has no thought disorders and no
impaired reality testing”; Edmo is the age of majority
in this country; although Edmo has depression and
anxiety, those conditions do not “impair her ability to
undergo surgery” because they are “as controlled as
[they] can be”; Edmo has had six years of hormone
therapy; and Edmo has lived for more than one year
“as a woman to the best of her ability in a male prison.”
More specifically, as to the fourth criterion, Dr.
Ettner opined that Edmo does not have mental health

App. 84
concerns that would preclude GCS. She explained that
Edmo’s depression and anxiety are as “controlled as
can be” because Edmo “is taking the maximum amount
of medication that controls depression.” Dr. Ettner
noted that Edmo has complied with taking her
prescribed medications and that psychotherapy is not
“a precondition for surgery” under the WPATH
Standards of Care. She also flagged that Edmo has the
capacity to comply with her postsurgical treatment, as
evidenced by her compliance with her hormone therapy
to date.
As to the clinical significance of Edmo’s selfcastration attempts and cutting behaviors, Dr. Ettner
explained that neither behavior indicates that Edmo
has inadequately controlled mental health concerns.
Rather, those behaviors indicate “the need for
treatment for gender dysphoria.” Dr. Ettner explained
that
when an individual who is not psychotic or
delusional attempts what we call surgical selftreatment – because we don’t regard removal of
the testicles or attempted removal of the
testicles as either mutilation or self-harm – we
regard it as an intentional attempt to remove
the target organ that produces testosterone,
which, in fact, is the cure for gender dysphoria.
In Dr. Ettner’s opinion, Edmo’s depression and anxiety
“will be attenuated post surgery.”
Dr. Ettner opined that Edmo satisfies the sixth
criterion because she has lived “as a woman to the best
of her ability in a male prison.” Dr. Ettner based her

App. 85
opinion on Edmo’s “appearance . . . , her disciplinary
records, which indicated that she had attempted to
wear her hair in a feminine hairstyle and to wear
makeup even though that was against the rules and
she was – received some sort of disciplinary action for
that, and her – the way that she was receiving female
undergarments and had developed the stigma of
femininity, the secondary sex characteristics, breast
development, et cetera.”
Dr. Ettner opined that if Edmo does not receive
GCS, “[t]he risks would be, as typical in inadequately
treated or untreated gender dysphoria, either surgical
self-treatment, emotional decompensation, or suicide.”
Dr. Ettner explained that Edmo “is at particular risk of
suicide given that she has a high degree of suicide
ideation.” If, on the other hand, Edmo receives surgery,
Dr. Ettner opined that
[i]t would eliminate the gender dysphoria. It
would provide a level of wellbeing that she
hasn’t had previously. It would eliminate 80
percent of the testosterone in her body,
necessitating a lower dose of hormones going
forward, which would be particularly helpful
given that she has elevated liver enzymes. And
it would, I believe, eliminate much of the
depression and the attendant symptoms that she
is experiencing.
Dr. Ryan Gorton, M.D., also testified for Edmo. Dr.
Gorton is an emergency medicine physician. He also
works pro bono at a clinic serving uninsured patients
or those with Medicare or Medicaid. Many of those
patients have mental health conditions or have been in

App. 86
prison. He has published peer-reviewed articles on the
treatment of gender dysphoria, and he has been
qualified as an expert witness in cases involving
transgender health care. Dr. Gorton also provides
training on transgender health care issues to many
groups, is a member of WPATH, and serves on
WPATH’s Transgender Medicine and Research
Committee and its Institutionalized Persons
Committee.
Dr. Gorton has been the primary care physician for
about 400 patients with gender dysphoria. At the time
of the evidentiary hearing, Dr. Gorton was treating
approximately 100 patients with gender dysphoria. Dr.
Gorton has assessed patients for gender dysphoria,
initiated and monitored hormone treatment, referred
patients for mental health treatment, and determined
the appropriateness of GCS. At the time of the
evidentiary hearing, Dr. Gorton was providing followup care for about 30 patients who had vaginoplasty. Dr.
Gorton has no experience treating transgender inmates
and is not a Certified Correctional Healthcare
Professional.
Based on his review of Edmo’s medical records and
his in-person evaluation of Edmo, Dr. Gorton opined
that GCS is medically necessary for Edmo and that she
meets the WPATH criteria for GCS. He explained that
Edmo has “persistent well-documented gender
dysphoria,” as shown in her prison medical records; she
has the capacity “to make a fully informed decision and
to consent for treatment” because “she didn’t seem at
all impaired in her decision-making capacity”; she is
the age of majority; she has depression and anxiety,

App. 87
“but they are not to a level that would preclude her
getting [GCS]”; she had 12 consecutive months of
hormone therapy; and she has been living in her
“target gender role . . . despite an environment that’s
very hostile to that and some negative consequences
that she has experienced because of that.”
Dr. Gorton further opined that if Edmo “is not
provided surgery, there is a very substantial chance
she will try to attempt self-surgery again. And that’s
especially worrisome given her attempts have been
progressive. . . . So I think she might be successful” on
her next attempt. He predicted that there is little
chance that Edmo’s gender dysphoria will improve
without surgery. Conversely, Dr. Gorton anticipated
that Edmo is unlikely to regret surgery because “her
gender dysphoria is very genital-focused” and regret
rates among GCS patients are very low.
Dr. Gorton also opined that Edmo’s self-castration
attempts demonstrate “that she has severe genitalfocused gender dysphoria and that she is not getting
the medically necessary treatment to alleviate that.”
He elaborated that Edmo’s depression and anxiety are
not driving Edmo’s self-castration attempts: “there
[are] a lot of people with depression and anxiety who
don’t remove their testicles.”
Finally, Dr. Gorton criticized Dr. Eliason’s
evaluation of Edmo. He explained that he disagreed
with Dr. Eliason’s conclusion that Edmo does not need
GCS and he also disagreed with the three “criteria” Dr.
Eliason gave for when GCS would be necessary. Dr.
Gorton criticized Dr. Eliason’s first criterion—that GCS
could be needed where there is “congenital

App. 88
malformation or ambiguous genitalia”—because that
situation “isn’t even germane to transgender people”;
rather, it relates to “people with intersex conditions.”
As to the second criterion—that GCS could be needed
when a patient is suffering from “severe and
devastating gender dysphoria that is primarily due to
genitals”—Dr. Gorton pointed out that the WPATH
Standards of Care for surgery require only “clear and
significant dysphoria.” And even applying Dr. Eliason’s
higher bar, Dr. Gorton explained that Edmo would still
qualify for GCS because she has twice attempted
selfcastration, demonstrating “severe genital-focused
dysphoria.” Finally, Dr. Gorton characterized Dr.
Eliason’s third criterion—that GCS could be needed in
situations when “endogenous sexual hormones were
causing severe physiological damage”—as “bizarre.” Dr.
Gorton could not conjure “a clinical circumstance where
that would be the case that your hormones that your
body produces are attacking you . . . . I just don’t
understand what [Dr. Eliason] is talking about there.”
Dr. Keelin Garvey, M.D., testified for the State. Dr.
Garvey is a psychiatrist and Certified Correctional
Healthcare Professional. As the former Chief
Psychiatrist of the Massachusetts Department of
Corrections, Dr. Garvey chaired the Gender Dysphoria
Treatment Committee. She directly treated a “couple of
patients” with gender dysphoria earlier in her career as
Deputy Medical Director, but she has not done so in
recent years. Prior to evaluating Edmo, Dr. Garvey had
never evaluated a patient in person to determine
whether that person needed GCS. Dr. Garvey has
never recommended a patient for GCS, and she has not

App. 89
done follow-up care with a person who has received
GCS.
Based on her evaluation of Edmo and a review of
Edmo’s medical records, Dr. Garvey diagnosed Edmo
with gender dysphoria, major depressive disorder,
alcohol use disorder, stimulant use disorder, and opioid
use disorder. She explained that the latter three are in
remission.
Relying on the WPATH Standards of Care, Dr.
Garvey opined that GCS is not medically necessary for
Edmo.10 Dr. Garvey first explained that Edmo does not
meet the first WPATH Standards of Care
criterion—”persistent, well documented gender
dysphoria”—because of a lack of evidence in preincarceration medical records that Edmo presented as
female before her time in prison. Dr. Garvey
acknowledged, however, that Edmo has been
presenting as female since 2012 and that she has been
diagnosed with gender dysphoria since that time.
Dr. Garvey then explained that Edmo does not meet
the fourth criterion—”medical/mental health concerns
must be well controlled”—because Edmo “is actively
self-injuring.” Dr. Garvey elaborated that “self-injury
in any form is never considered a healthy or productive
coping mechanism” and that she would like to see
Edmo “develop further coping skills that she would be
able to use following surgery so that she is not
engaging in self-injury after surgery.” Dr. Garvey’s
10

Dr. Garvey testified that she relies on the WPATH Standards of
Care and the NCCHC guidelines adopting those standards when
treating inmates with gender dysphoria.

App. 90
concern is that GCS is a “stressful undertaking” and
Edmo lacks “effective coping strategies” to deal with
the stress.
Finally, Dr. Garvey testified that Edmo does not
meet the sixth criterion—“12 continuous months of
living in a gender role that is congruent with gender
identity”—because Edmo has not presented as female
outside of prison and “there [are] challenges to using
her time in a men’s prison as this real-life experience
because it doesn’t offer her the opportunity to actually
experience all those things she is going to go through
on the outside.”
Dr. Joel Andrade, Ph.D. in social work, also testified
for the State. He is a licensed clinical social worker and
is a Certified Correctional Healthcare Professional with
an emphasis in mental health. Dr. Andrade has over a
decade of experience providing and supervising the
provision of correctional mental health care, including
directing and overseeing the treatment of inmates
diagnosed with gender dysphoria in the custody of the
Massachusetts Department of Corrections in his roles
as clinical director, chair of the Gender Dysphoria
Supervision Group, and member of the Gender
Dysphoria Treatment Committee.
As a member of the Gender Dysphoria Treatment
Committee, Dr. Andrade recommended GCS for two
inmates. But the recommendations were contingent on
the inmates living in a women’s prison for
approximately 12 months before the surgery. The
Massachusetts Department of Corrections, like IDOC,
houses prisoners according to their genitals, so the

App. 91
inmates had not been moved (nor had their surgery
occurred).
Dr. Andrade has never directly treated patients
with gender dysphoria, nor has he been a treating
clinician for a patient who has had GCS. His
“experience with gender dysphoria comes almost
exclusively from [his] participation on the
Massachusetts Department of Corrections[’] Gender
Dysphoria Treatment Committee and Supervision
Group.” Dr. Andrade did not qualify, under the IDOC
gender dysphoria policy in effect at the time of his
assessment of Edmo, to assess a person for GCS
because he is neither a psychologist nor a physician.
Based on his evaluation of Edmo and a review of her
medical records, Dr. Andrade diagnosed Edmo with
“major depressive disorder, recurrent, in partial
remission,” “generalized anxiety disorder,” “alcohol use
disorder, severe,” and gender dysphoria. Dr. Andrade
also diagnosed Edmo with borderline personality
disorder. The district court did not credit this
diagnosis, however, because no other person (including
the State’s other expert, Dr. Garvey) has ever
diagnosed Edmo with borderline personality disorder
and Dr. Andrade was unable to identify his criteria for
this diagnosis. Edmo, 358 F. Supp. 3d at 1120. The
record amply supports the district court’s finding in
this respect.
Dr. Andrade opined that Edmo does not meet the
WPATH criteria for GCS. He explained that, based on
his review of Edmo’s pre-incarceration records, Edmo
did not present as female or discuss her gender
dysphoria before incarceration. Dr. Andrade testified

App. 92
that he would like to see Edmo live as female outside of
a correctional setting before receiving GCS, or, at the
least, live in a women’s prison first. IDOC, however,
houses prisoners according to their genitals. Dr.
Andrade also explained that Edmo needs to work
through some of her trauma, particularly sexual abuse
that she suffered, and other mental health concerns
before receiving surgery. Dr. Andrade opined that
Edmo’s mental health issues will not be cured by GCS.
At the close of the hearing, the district court
reiterated that it was unsure “how we can hear [Edmo’s
request for GCS] on a preliminary injunction. . . . [I]f I
order it, then it’s done.” The court further suggested
that the request for GCS could “only be resolved in a
final hearing” and noted that it had, in effect, “treated
this hearing as [a] final hearing on the issue.”
The court, as it had done at the outset of the
hearing, asked the parties to address whether the
hearing was for a preliminary or permanent injunction.
In response, Edmo contended that the court could order
GCS in a preliminary injunction. The State did not
address the court’s question. It instead contended that
the standard for a mandatory injunction—which can be
preliminary or permanent—should apply.
E. The District Court’s Decision
The district court rendered its decision on December
13, 2018. After recounting the evidence and making
extensive factual findings, the district court began its
analysis by noting that it was unsure whether the
standard for a preliminary injunction or the standard
for a permanent injunction applied. The court noted

App. 93
that “the nature of the relief requested in this case,
coupled with the extensive evidence presented by the
parties over a 3-day evidentiary hearing, [may have]
effectively converted these proceedings into a final trial
on the merits of the plaintiff’s request for permanent
injunctive relief.” Edmo, 358 F. Supp. 3d at 1122 n.1. It
also indicated that “both parties appear to have treated
the evidentiary hearing” as a final trial on the merits.
Id. The district court explained that the difference was
immaterial, however, because Edmo was entitled to
relief under either standard. Id.
On the merits, the district court concluded that
Edmo had established her Eighth Amendment claim.
The district court first held that Edmo suffers from
gender dysphoria, which is undisputedly “a serious
medical condition.” Id. at 1124.
It then concluded that GCS is medically necessary
to treat Edmo’s gender dysphoria. See id. at 1124–26.
In a carefully considered, 45-page opinion, the district
court specifically found “credible the testimony of
Plaintiff’s experts Drs. Ettner and Gorton, who have
extensive personal experience treating individuals with
gender dysphoria both before and after receiving
gender confirmation surgery,” and who opined that
GCS was medically necessary. Id. at 1125. The court
rejected the contrary opinions of the State’s experts
because “neither Dr. Garvey nor Dr. Andrade has any
direct experience with patients receiving gender
confirmation surgery or assessing patients for the
medical necessity of gender confirmation surgery,” and
neither of the State’s experts had meaningful
“experience treating patients with gender dysphoria

App. 94
other than assessing them for the existence of the
condition.” Id. The district court also noted that the
State’s “experts appear to misrepresent the WPATH
Standards of Care by concluding that Ms. Edmo,
despite presenting as female since her incarceration in
2012, cannot satisfy the WPATH criteria because she
has not presented as female outside of the prison
setting.” Id. As the district court noted, “there is no
requirement in the WPATH Standards of Care that a
patient live for twelve months in his or her gender role
outside of prison before becoming eligible for” GCS. Id.
(quotation omitted).
Finally, the district court explained that the State
was deliberately indifferent to Edmo’s gender
dysphoria because it “fail[ed] to provide her with
available treatment that is generally accepted in the
field as safe and effective, despite her actual harm and
ongoing risk of future harm including self-castration
attempts, cutting, and suicidal ideation.” Id. at
1126–27. The district court also stated that the
evidence “suggest[ed] that Ms. Edmo has not been
provided gender confirmation surgery because Corizon
and IDOC have a de facto policy or practice of refusing
this treatment for gender dysphoria to prisoners,”
which amounts to deliberate indifference. Id. at 1127.
After analyzing the merits, the district court
concluded that Edmo satisfied the other prerequisites
to injunctive relief. Id. at 1127–28. The district court
found that, given Edmo’s continuing emotional distress
and self-castration attempts, “Edmo is at serious risk
of life-threatening self-harm” if she does not receive
GCS. Id. at 1128. The State, on the other hand, had not

App. 95
shown that it would be harmed if ordered to provide
GCS, so the equities favored Edmo. Id.
Having concluded that Edmo was entitled to an
injunction, the court ordered the State “to provide
Plaintiff with adequate medical care, including gender
confirmation surgery.” Id. at 1129. It ordered the State
to “take all actions reasonably necessary to provide Ms.
Edmo gender confirmation surgery as promptly as
possible and no later than six months from the date of
this order.” Id.
F. Appellate Proceedings
The State filed timely notices of appeal on January
9, 2019. It also asked the district court to stay its order
pending appeal. The district court denied the State’s
motion on March 4.
The State then filed in this court a motion to stay
pending appeal. A motions panel granted that motion.
Edmo subsequently moved to amend the stay to allow
her to undergo a previously scheduled pre-surgery
consultation. The motions panel granted that motion
and amended the stay.
On April 3, the State filed an “urgent motion” to
dismiss this appeal as moot. We indicated on April 5
that our court would consider that motion with the
merits, not on an urgent basis.
After hearing oral argument on May 16, we ordered
a limited remand to the district court to clarify three
points. Relevant here, we asked the district court to
clarify whether it granted Edmo a permanent
injunction in its December 13, 2018 order. The district

App. 96
court clarified that it “granted permanent injunctive
relief.” Edmo v. Idaho Dep’t of Corr., No. 1:17-CV00151-BLW, 2019 WL 2319527, at *2 (D. Idaho May 31,
2019). We also asked the district court to clarify
whether it had concluded that Edmo had succeeded on
the merits of her Eighth Amendment claim. The
district court responded that it had. Id.
Having received the district court’s response to our
limited remand order, we proceed to the issues on
appeal. The State challenges the district court’s grant
of injunctive relief to Edmo on multiple grounds. It
contends that this appeal is moot because the
injunction did not comply with the PLRA and has, for
that reason, automatically expired. It contends that the
decision not to provide GCS to Edmo reflects a
difference of prudent medical opinion and cannot
support an Eighth Amendment claim. It contends that
Edmo will not be irreparably harmed absent an
injunction. It contends that the injunction is overbroad.
Finally, it contends that, to the extent the district court
converted the evidentiary hearing into a final trial on
the merits of Edmo’s request for GCS, it was provided
inadequate notice and the court violated its right to a
jury trial.
II. Mootness
“We first address, as we must, the question of
mootness . . . .” Shell Offshore Inc. v. Greenpeace, Inc.,
815 F.3d 623, 628 (9th Cir. 2016). An appeal is moot
“[w]hen events change such that the appellate court
can no longer grant ‘any effectual relief whatever to the
prevailing party.’” Id. (quoting City of Erie v. Pap’s
A.M., 529 U.S. 277, 287 (2000)). In those

App. 97
circumstances, we “lack[] jurisdiction and must dismiss
the appeal.” Id.
The State contends that the injunction does not
comply with provisions of the PLRA and, for that
reason, has automatically expired under the terms of
the statute. Relevant here, the PLRA provides that a
court shall not grant or approve any prospective
relief unless the court finds that such relief is
narrowly drawn, extends no further than
necessary to correct the violation of the Federal
right, and is the least intrusive means necessary
to correct the violation of the Federal right. The
court shall give substantial weight to any
adverse impact on public safety or the operation
of a criminal justice system caused by the relief.
18 U.S.C. § 3626(a)(1)(A). Courts often refer to this
provision as the “need-narrowness-intrusiveness”
inquiry. Graves v. Arpaio, 623 F.3d 1043, 1048 n.1 (9th
Cir. 2010) (per curiam) (quoting Pierce v. County of
Orange, 526 F.3d 1190, 1205 (9th Cir. 2008)). The
PLRA further provides that any “[p]reliminary
injunctive relief shall automatically expire on the date
that is 90 days after its entry, unless the court makes
the findings required under subsection (a)(1) [quoted
above] for the entry of prospective relief and makes the
order final before the expiration of the 90-day period.”
18 U.S.C. § 3626(a)(2).
The State contends that the district court did not
make the PLRA’s requisite need-narrownessintrusiveness findings or make its order final within 90
days, causing the injunction to expire under 18 U.S.C.

App. 98
§ 3626(a)(2). Generally, the expiration of an injunction
challenged on appeal moots the appeal. See Kitlutsisti
v. ARCO Alaska, Inc., 782 F.2d 800, 801 (9th Cir.
1986); see also United States v. Sec’y, Fla. Dep’t of
Corr., 778 F.3d 1223, 1228–29 (11th Cir. 2015). The
State asserts separate, albeit overlapping, contentions
in their motion to dismiss this appeal and in their
briefing. We reject those arguments.
A. Need-Narrowness-Intrusiveness Findings
The State first contends that the district court did
not make the PLRA’s need-narrowness-intrusiveness
findings, causing the injunction to automatically expire
and mooting this appeal.11 As we have explained in
prior decisions, the PLRA “has not substantially
changed the threshold findings and standards required
to justify an injunction.” Gomez v. Vernon, 255 F.3d
1118, 1129 (9th Cir. 2001). When “determining the
appropriateness of the relief ordered,” appellate “courts
must do what they have always done”: “consider the
order as a whole.” Armstrong v. Schwarzenegger, 622
F.3d 1058, 1070 (9th Cir. 2010). District courts must
make need-narrowness-intrusiveness “findings
sufficient to allow a ‘clear understanding’ of the ruling,”
but they need not “make such findings on a paragraph
by paragraph, or even sentence by sentence, basis.” Id.
(quotation omitted). “What is important, and what the
PLRA requires, is a finding that the set of reforms

11

We question whether the State’s need-narrowness-intrusiveness
challenge, properly understood, implicates mootness. But because
the result is the same, we accept the State’s framing for purposes
of our analysis.

App. 99
being ordered—the ‘relief’—corrects the violations of
prisoners’ rights with the minimal impact possible on
defendants’ discretion over their policies and
procedures.” Id.
Here, the district court made the necessary neednarrowness-intrusiveness findings. At the start of its
December 13, 2018 order, the district court explained
that any injunction must meet the PLRA’s neednarrowness-intrusiveness requirement. See Edmo, 358
F. Supp. 3d at 1122. The district court then explained
how the relief being ordered, GCS, “corrects the
violations of” Edmo’s rights. See Armstrong, 622 F.3d
at 1071. Specifically, the district court explained that
GCS is medically necessary to alleviate Edmo’s gender
dysphoria and that the State’s denial of GCS amounts
to deliberate indifference in violation of the Eighth
Amendment. See Edmo, 358 F. Supp. 3d at 1116–21,
1123–27, 1129. The district court limited the relief
ordered to have “the minimal impact possible on [the
State’s] discretion over their policies and procedures.”
See Armstrong, 622 F.3d at 1071. Specifically, the
district court limited the relief to “actions reasonably
necessary” to provide GCS, cautioned that its
conclusion is based on “the unique facts and
circumstances presented” by Edmo, and noted that its
“decision is not intended, and should not be construed,
as a general finding that all inmates suffering from
gender dysphoria are entitled to [GCS].” Edmo, 358
F. Supp. 3d at 1110, 1129. Finally, the district court
rejected the notion that injunctive relief would have
“any adverse impact on public safety or the operation
of a criminal justice system.” 18 U.S.C. § 3626(a)(1)(A).
It explained that the State had “made no showing that

App. 100
an order requiring them to provide” GCS to Edmo
“causes them injury.” Edmo, 358 F. Supp. 3d at 1128.
The district court’s order, considered as a whole, made
all the findings required by 18 U.S.C. § 3626(a)(1)(A)
and our precedent. See Armstrong, 622 F.3d at 1070.
B. Finality
The State next argues that the injunction has
automatically expired under the PLRA because the
district court did not make its order “final” within 90
days of entering injunctive relief. See 18 U.S.C.
§ 3626(a)(2); see also Sec’y, Fla. Dep’t of Corr., 778 F.3d
at 1228–29 (holding that an appeal of a preliminary
injunction was moot because the district court “did not
issue an order finalizing its [preliminary-injunction]
order,” and “[a]s a result, the preliminary injunction
expired by operation of law” 90 days later). The PLRA
provision cited by the State applies to preliminary
injunctive relief, not permanent injunctive relief. See
18 U.S.C. § 3626(a)(2). The permanent injunction that
the district court entered has not expired. See Edmo,
358 F. Supp. 3d at 1122 n.1 (concluding that Edmo is
“entitled to relief” under the permanent injunction
standard); see also Edmo, 2019 WL 2319527, at *2
(clarifying on limited remand that the district court
granted Edmo a permanent injunction). It remains in
place, albeit stayed.

App. 101
There is a live controversy on appeal.12 We
accordingly DENY the State’s motion to dismiss and
proceed to the merits of the appeal.
III. Challenges to the District Court’s Grant of
Injunctive Relief
An injunction is an “extraordinary remedy never
awarded as of right.” Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 24 (2008). “To be entitled to a
permanent injunction, a plaintiff must demonstrate:
(1) actual success on the merits; (2) that it has suffered
an irreparable injury; (3) that remedies available at
law are inadequate; (4) that the balance of hardships
justify a remedy in equity; and (5) that the public
interest would not be disserved by a permanent

12

Even construed as a preliminary injunction, the district court’s
December 13, 2018 order is not moot. On May 31, 2019, the district
court, incorporating its previous findings, renewed the injunction.
See Edmo, 2019 WL 2319527, at *2. Because the district court
renewed the injunction, we can consider its merits. See
Mayweathers v. Newland, 258 F.3d 930, 935–36 (9th Cir. 2001)
(holding that district courts may renew preliminary injunctions
under the PLRA while an appeal is pending, and considering the
merits of the renewed injunction). And we have jurisdiction under
28 U.S.C. § 1292(a)(1) regardless of whether the district court’s
order is considered a preliminary or permanent injunction. See
Hendricks v. Bank of Am., N.A., 408 F.3d 1127, 1131 (9th Cir.
2005) (preliminary injunction); TransWorld Airlines, Inc. v. Am.
Coupon Exch., Inc., 913 F.2d 676, 680–81 (9th Cir. 1990)
(permanent injunction where the “district court retained
jurisdiction to determine damages” and to adjudicate a separate
claim).

App. 102
injunction.”13

Indep.

Training

&

Apprenticeship

13

We agree with the State that the injunction is mandatory, as
opposed to prohibitory, because it requires the State to act. Based
on that distinction, the State argues that Edmo must satisfy a
higher burden of proof to be entitled to injunctive relief, and that
the district court failed to hold Edmo to that burden. On that
point, we disagree.
The State errs by relying on cases that concern mandatory
preliminary injunctions. Because mandatory preliminary
injunctions go “well beyond simply maintaining the status quo
[p]endente lite,” they are “particularly disfavored” and “are not
issued in doubtful cases.” Marlyn Nutraceuticals, Inc. v. Mucos
Pharma GmbH & Co., 571 F.3d 873, 879 (9th Cir. 2009) (alteration
in original) (quoting Anderson v. United States, 612 F.2d 1112,
1114–15 (9th Cir. 1980)). The calculus is different in the context of
permanent injunctions. A plaintiff must show actual success on the
merits, see Amoco Prod. Co. v. Village of Gambell, 480 U.S. 531,
546 n.12 (1987), so there is no concern that a mandatory
permanent injunction will upset the status quo only for a later
trial on the merits to show that the plaintiff was not entitled to
equitable relief. As a result, a plaintiff need not show that
“extreme or very serious damage will result,” as is required for
mandatory preliminary injunctions.
As we have explained, the district court granted Edmo
injunctive relief under both the preliminary and permanent
injunction standards. See Edmo, 358 F. Supp. 3d at 1122 n.1; see
also Edmo, 2019 WL 2319527, at *2. Because the standard for
granting permanent injunctive relief is higher (in that it requires
actual success on the merits) and the State contends in its opening
brief that we should review the injunction as a permanent
injunction, we consider whether the district court erred in granting
Edmo permanent injunctive relief. But we would also affirm under
the mandatory preliminary injunction standard, because the
district court correctly applied the proper standard for mandatory
preliminary injunctive relief, and not the lower standard for
prohibitory preliminary injunctions. See Edmo, 358 F. Supp. 3d at
1122, 1128.

App. 103
Program v. Cal. Dep’t of Indus. Relations, 730 F.3d
1024, 1032 (9th Cir. 2013) (citing eBay Inc. v.
MercExch., L.L.C., 547 U.S. 388, 391 (2006)).
We review for abuse of discretion the district court’s
decision to grant a permanent injunction. Ariz. Dream
Act Coal. v. Brewer, 855 F.3d 957, 965 (9th Cir. 2017).
We review “any determination underlying the grant of
an injunction by the standard that applies to that
determination.” Ting v. AT&T, 319 F.3d 1126, 1134–35
(9th Cir. 2003). Accordingly, the district court’s factual
findings on Edmo’s Eighth Amendment claim are
reviewed for clear error. See Graves, 623 F.3d at 1048.
Clear error exists if the finding is “illogical,
implausible, or without support in inferences that may
be drawn from the facts in the record.” La Quinta
Worldwide LLC v. Q.R.T.M., S.A. de C.V., 762 F.3d
867, 879 (9th Cir. 2014) (quoting Herb Reed Enters.,
LLC v. Florida Entm’t Mgmt., Inc., 736 F.3d 1239, 1247
(9th Cir. 2013)). We review de novo the district court’s
“conclusion that the facts . . . demonstrate an Eighth
Amendment violation.” Hallett v. Morgan, 296 F.3d
732, 744 (9th Cir. 2002).
The State contends that the district court erred in
granting an injunction because (1) Edmo’s Eighth
Amendment claim fails and (2) Edmo has not shown
that she will suffer irreparable injury in the absence of
an injunction.14 We disagree. We hold, based on the
district court’s factual findings, that Edmo established
her Eighth Amendment claim and that she will suffer

14

Because the State does not contest the other injunction factors,
we do not address them.

App. 104
irreparable harm—in the form of ongoing mental
anguish and possible physical harm—if GCS is not
provided.
A. The Merits of Edmo’s Eighth Amendment
Claim
“[D]eliberate indifference to serious medical needs
of prisoners” violates the Eighth Amendment. Estelle,
429 U.S. at 104. Because “society takes from prisoners
the means to provide for their own needs,” Brown, 563
U.S. at 510, the government has an “obligation to
provide medical care for those whom it is punishing by
incarceration,” Estelle, 429 U.S. at 103.
To establish a claim of inadequate medical care, a
prisoner must first “show a ‘serious medical need’ by
demonstrating that ‘failure to treat a prisoner’s
condition could result in further significant injury or
the ‘unnecessary and wanton infliction of pain.’” Jett v.
Penner, 439 F.3d 1091, 1096 (9th Cir. 2006) (quoting
McGuckin v. Smith, 974 F.2d 1050, 1059 (9th Cir.
1991), overruled on other grounds by WMX Techs., Inc.
v. Miller, 104 F.3d 1133 (9th Cir. 1997) (en banc)).
Serious medical needs can relate to “physical, dental
and mental health.” Hoptowit v. Ray, 682 F.2d 1237,
1253 (9th Cir. 1982), abrogated on other grounds by
Sandin v. Conner, 515 U.S. 472 (1995).
The State does not dispute that Edmo’s gender
dysphoria is a sufficiently serious medical need to
trigger the State’s obligations under the Eighth
Amendment. Nor could it. Gender dysphoria is a
“serious . . . medical condition” that causes “clinically
significant distress”—distress that impairs or severely

App. 105
limits an individual’s ability to function in a
meaningful way. DSM-5 at 453, 458. As Edmo testified,
her gender dysphoria causes her to feel “depressed,”
“disgusting,” “tormented,” and “hopeless,” and it has
caused past efforts and active thoughts of selfcastration. As this and many other courts have
recognized, Edmo’s gender dysphoria is a sufficiently
serious medical need to implicate the Eighth
Amendment. See Rosati v. Igbinoso, 791 F.3d 1037,
1039–40 (9th Cir. 2015); Kosilek, 774 F.3d at 86;
De’lonta, 708 F.3d at 525; Battista v. Clarke, 645 F.3d
449, 452 (1st Cir. 2011); Allard v. Gomez, 9 F. App’x
793, 794 (9th Cir. 2001); White v. Farrier, 849 F.2d 322,
325 (8th Cir. 1988); Meriwether v. Faulkner, 821 F.2d
408, 412 (7th Cir. 1987) (and cases cited therein);
Norsworthy, 87 F. Supp. 3d at 1187; Konitzer v. Frank,
711 F. Supp. 2d 874, 905 (E.D. Wis. 2010).
If, as here, a prisoner establishes a sufficiently
serious medical need, that prisoner must then “show
the [official’s] response to the need was deliberately
indifferent.” Jett, 439 F.3d at 1096. An inadvertent or
negligent failure to provide adequate medical care is
insufficient to establish a claim under the Eighth
Amendment. Estelle, 429 U.S. at 105–06; see also
Farmer v. Brennan, 511 U.S. 825, 835 (1994) (“ordinary
lack of due care” is insufficient to establish an Eighth
Amendment claim). In other words, “[m]edical
malpractice does not become a constitutional violation
merely because the victim is a prisoner.” Estelle, 429
U.S. at 106. To “show deliberate indifference, the
plaintiff must show that the course of treatment the
[official] chose was medically unacceptable under the
circumstances and that the [official] chose this course

App. 106
in conscious disregard of an excessive risk to the
plaintiff’s health.” Hamby v. Hammond, 821 F.3d 1085,
1092 (9th Cir. 2016) (quoting Snow v. McDaniel, 681
F.3d 978, 988 (9th Cir. 2012), overruled in part on other
grounds by Peralta v. Dillard, 744 F.3d 1076 (9th Cir.
2014) (en banc)).
1. The Medical Necessity of GCS for Edmo
The crux of the State’s appeal is that it provided
adequate and medically acceptable care to Edmo.
Accepted standards of care and practice within the
medical community are highly relevant in determining
what care is medically acceptable and unacceptable.
See Allard v. Baldwin, 779 F.3d 768, 772 (8th Cir.
2015); Henderson v. Ghosh, 755 F.3d 559, 566 (7th Cir.
2014) (per curiam). Typically, “[a] difference of opinion
between a physician and the prisoner—or between
medical professionals—concerning what medical care
is appropriate does not amount to deliberate
indifference.” Snow, 681 F.3d at 987; see also Gibson,
920 F.3d at 220. But that is true only if the dueling
opinions are medically acceptable under the
circumstances. See Toguchi v. Chung, 391 F.3d 1051,
1058 (9th Cir. 2004) (a mere “difference of medical
opinion . . . [is] insufficient, as a matter of law, to
establish deliberate indifference,” but not if the “chosen
course of treatment ‘was medically unacceptable under
the circumstances’” (alterations in original) (quoting
Jackson v. McIntosh, 90 F.3d 330, 332 (9th Cir. 1996))).
“In deciding whether there has been deliberate
indifference to an inmate’s serious medical needs, we
need not defer to the judgment of prison doctors or

App. 107
administrators.” Hunt v. Dental Dep’t, 865 F.2d 198,
200 (9th Cir. 1989). Nor does it suffice for “correctional
administrators wishing to avoid treatment . . . simply
to find a single practitioner willing to attest that some
well-accepted treatment is not necessary.” Kosilek, 774
F.3d at 90 n.12. In the final analysis under the Eighth
Amendment, we must determine, considering the
record, the judgments of prison medical officials, and
the views of prudent professionals in the field, whether
the treatment decision of responsible prison authorities
was medically acceptable.
Reviewing the record and the district court’s
extensive factual findings, we conclude that Edmo has
established that the “course of treatment” chosen to
alleviate her gender dysphoria “was medically
unacceptable under the circumstances.” Hamby, 821
F.3d at 1092 (quoting Snow, 681 F.3d at 988). This
conclusion derives from the district court’s factual
findings, which are not “illogical, implausible, or
without support in inferences that may be drawn from
the facts in the record.” La Quinta Worldwide LLC, 762
F.3d at 879 (quotation omitted).
In particular, and as we will explain, this is not a
case of dueling experts, as the State paints it. The
district court permissibly credited the opinions of
Edmo’s experts that GCS is medically necessary to
treat Edmo’s gender dysphoria and that the State’s
failure to provide that treatment is medically
unacceptable. Edmo’s experts are well-qualified to
render such opinions, and they logically and
persuasively explained the necessity of GCS and
applied the WPATH Standards of Care—the

App. 108
undisputed starting point in determining the
appropriate treatment for gender dysphoric
individuals. On the other side of the coin, the district
court permissibly discredited the contrary opinions of
the State’s treating physician and medical experts.
Those individuals lacked expertise and incredibly
applied (or did not apply, in the case of the State’s
treating physician) the WPATH Standards of Care. In
other words, the district court did not clearly err in
making its credibility determinations, so it is not our
role to reevaluate them. The credited testimony
establishes that GCS is medically necessary.
a. Expert Testimony
Turning first to the expert testimony offered, the
district court credited the testimony of Edmo’s experts
that GCS is medically necessary to treat Edmo’s gender
dysphoria and that the State’s failure to provide that
treatment is medically unacceptable. See Edmo, 358
F. Supp. 3d at 1120–21, 1125. Dr. Ettner and Dr.
Gorton opined that GCS is medically necessary because
Edmo’s current treatment has been inadequate, as
evidenced by her self-castration attempts. They also
opined that if Edmo does not receive GCS, there is little
chance that her gender dysphoria will improve and she
is at risk of committing self-surgery again, suicide, and
further emotional decompensation. On the other hand,
providing GCS to Edmo would, in the opinions of Dr.
Ettner and Dr. Gorton, align Edmo’s genitalia with her
gender identity, thereby eliminating the severe distress
Edmo experiences from her male genitalia.
In sharp contrast, the district court gave “virtually
no weight” to the opinions of the State’s experts. Edmo,

App. 109
358 F. Supp. 3d at 1126. Dr. Garvey and Dr. Andrade,
who purported to rely on the WPATH Standards of
Care, opined that GCS is not medically necessary for
Edmo.
The district court did not err in crediting the
testimony of Edmo’s experts and discounting the
testimony of the State’s experts. Dr. Ettner and Dr.
Gorton are well-qualified to opine on the medical
necessity of GCS. Both have substantial experience
treating individuals with gender dysphoria. Dr. Ettner
has evaluated, diagnosed, and treated between 2,500
and 3,000 individuals with gender dysphoria, while Dr.
Gorton has been the primary care physician for
approximately 400 patients with gender dysphoria.
Both have substantial experience evaluating whether
GCS is medically necessary for patients. Dr. Ettner has
evaluated hundreds of people for GCS, referring
approximately 300 while refusing others, and Dr.
Gorton routinely determines the appropriateness of
GCS for patients. They also have experience providing
follow-up care for patients who have undergone GCS.
And both have published peer-reviewed articles
concerning the treatment of gender dysphoria.
The State’s experts, by contrast, have substantial
experience providing health care in institutional
settings, but lack meaningful experience directly
treating people with gender dysphoria. Dr. Garvey
directly treated a “couple of patients” with gender
dysphoria early in her career, while Dr. Andrade has
never provided direct treatment for patients with
gender dysphoria. Moreover, prior to evaluating Edmo,
neither had ever evaluated someone in person to

App. 110
determine the medical necessity of GCS. Relatedly, Dr.
Garvey and Dr. Andrade have never provided follow-up
care for a person who has received GCS. Indeed, Dr.
Andrade did not even qualify under IDOC policy to
assess a person for GCS. And neither Dr. Garvey nor
Dr. Andrade has published a peer-reviewed article
concerning the treatment of gender dysphoria.
Neither Dr. Ettner nor Dr. Gorton have treated
prisoners with gender dysphoria, nor are they Certified
Correctional Healthcare Professionals. But both serve
on WPATH’s Institutionalized Persons Committee,
which “looks at the care and the assessment of
individuals who are incarcerated and develops
standards for treatment” of such individuals. They are
thus familiar with medical treatment in prison
settings. Moreover, Dr. Ettner has assessed
approximately 30 incarcerated persons with gender
dysphoria for GCS and other medical care.
More to the point, the more relevant experience for
determining the medical necessity of GCS is having
treated individuals with gender dysphoria, having
evaluated individuals for GCS, and having treated
them post-operatively. Such experience lends itself to
fundamental knowledge of whether GCS is necessary
and the potential risks of providing or foregoing the
surgery. Edmo’s experts have the requisite experience;
the State’s experts do not. For that reason alone, the
district court did not clearly err in crediting the
opinions of Edmo’s experts over those of the State.15 See

15

The State contends that neither Dr. Ettner nor Dr. Gorton was
qualified to offer expert opinions as to the appropriate medical care

App. 111
Caro v. Woodford, 280 F.3d 1247, 1253 (9th Cir. 2002)
(explaining that we “must afford the District Court
considerable deference in its determination that the
witnesses were qualified to draw [their] conclusions”).
Independent of the experts’ qualifications, the
district court did not err in crediting the opinions of
Edmo’s experts over those of the State because aspects
of Dr. Garvey’s and Dr. Andrade’s opinions ran
contrary to the established standards of care in the
area of transgender health care—the WPATH
Standards of Care—which they purported to
apply.16See Edmo, 358 F. Supp. 3d at 1125.

for Edmo because neither is a psychiatrist. So far as we can
discern, the argument is that because a psychiatrist (Dr. Eliason)
evaluated Edmo for GCS, only other psychiatrists are qualified to
opine as to the medical necessity of GCS and to contradict his
assessment. See Oral Arg. at 10:00–10:30. We reject that
contention. Edmo’s experts, as explained, have significant
experience evaluating patients for GCS—precisely what Dr.
Eliason did. On the basis of their medical experience treating
persons with gender dysphoria, they are well-qualified to render
an opinion on the medical necessity of GCS and whether failure to
provide the surgery is medically acceptable. See Fed. R. Evid. 702.
16

The State contends that the district court erred in requiring
strict adherence to the flexible WPATH Standards of Care and in
concluding that any deviation from those standards is medically
unacceptable. But the district court correctly recognized that the
WPATH Standards of Care are flexible, see Edmo, 358 F. Supp. 3d
at 1111, and it appropriately used them as a starting point to
gauge the credibility of each expert’s testimony, see id. at 1125–26.
Tellingly, each expert for Edmo and the State likewise used the
WPATH Standards of Care as a starting point. As the district
court recognized: “There are no other competing, evidence-based
standards that are accepted by any nationally or internationally

App. 112
For example, both Dr. Garvey and Dr. Andrade
expressed the view that Edmo does not meet the sixth
WPATH criterion, “12 continuous months of living in a
gender role that is congruent with gender identity.”
WPATH SOC at 60. They pointed out that Edmo has
not presented as female outside of prison and urged
that she needs real-life experiences in the community
before undergoing GCS.
These opinions run head-on into the WPATH
Standards of Care. The WPATH standards, which the
NCCHC endorses as the accepted standards for the
treatment of transgender inmates, apply
in their entirety . . . to all transsexual,
transgender, and gender nonconforming people,
irrespective of their housing situation. People
should not be discriminated against in their
access to appropriate health care based on where
they live, including institutional environments
such as prisons . . . . Health care for transsexual,
transgender, and gender nonconforming people
living in an institutional environment should
recognized medical professional groups.” Id. at 1125. And as the
State acknowledged at the evidentiary hearing, the “WPATH
standards of care in the seventh edition do provide the best
guidance” and “are the best standards out there.” For these
reasons, the WPATH Standards of Care establish a useful starting
point for analyzing the credibility and weight to be given to each
expert’s opinion and whether that opinion was consistent with
established standards of care. The State does not contest the
district court’s finding that the WPATH Standards of Care are the
“internationally recognized guidelines for the treatment of
individuals with gender dysphoria.” Id. at 1111. They are the gold
standard on this issue.

App. 113
mirror that which would be available to them if
they were living in a non-institutional setting
within the same community.
All elements of assessment and treatment as
described in the [Standards of Care] can be
provided to people living in institutions. Access
to these medically necessary treatments should
not be denied on the basis of institutionalization
or housing arrangements.
WPATH SOC at 67. Dr. Garvey and Dr. Andrade’s
view—that GCS cannot be medically indicated for
transgender inmates who did not present in a gendercongruent manner before incarceration—contradicts
these accepted standards. Dr. Garvey and Dr. Andrade
would deny GCS to a class of people because of their
“institutionalization,” which the WPATH Standards of
Care explicitly disavow. They provide no persuasive
explanation for their deviation.17And nothing in the
WPATH Standards of Care or the law supports
excluding an entire class of gender dysphoric
individuals from eligibility for GCS.
Both Dr. Garvey and Dr. Andrade also relied on
Edmo’s failure to attend psychotherapy sessions as an
indication that her mental health concerns are not well
controlled. But psychotherapy is not a precondition for

17

In concluding that Edmo does not meet the sixth WPATH
criterion, Dr. Garvey expressed concern that there is a lack of
evidence regarding GCS in prison settings. That rationale acts as
self-fulfilling prophecy. If prisons and prison officials deny GCS to
prisoners because of a lack of data, the data will never be
generated, and the cycle will continue.

App. 114
surgery under the WPATH Standards of Care. WPATH
SOC at 28–29.
We acknowledge that the WPATH Standards of
Care are flexible, and a simple deviation from those
standards does not alone establish an Eighth
Amendment claim. But the State’s experts purported to
be applying those standards and yet did so in a way
that directly contradicted them. These unsupported
and unexplained deviations offer a further reason why
the district court did not clearly err in discounting the
testimony of the State’s experts. See Caro, 280 F.3d at
1253.
Finally, the district court did not err in discrediting
the State’s experts because aspects of their opinions
were illogical and unpersuasive. For example, Dr.
Garvey and Dr. Andrade expressed the view that Edmo
does not meet the first WPATH criterion—“persistent,
well documented gender dysphoria,” WPATH SOC at
60—because of a lack of evidence from preincarceration records of Edmo presenting as female.
But both experts acknowledged that Edmo has been
diagnosed with and treated for gender dysphoria since
2012—i.e., for six years as of the evidentiary hearing.
Neither Dr. Garvey nor Dr. Andrade questioned Edmo’s
diagnosis, and both agree that she currently suffers
gender dysphoria. There can be no doubt that Edmo
has “persistent, well documented gender dysphoria,” so
their opinion is inexplicable.
Dr. Garvey’s and Dr. Andrade’s opinions on this
point also ignore that individuals with gender
dysphoria do not always experience symptoms early in
life or throughout their life, or do not identify them as

App. 115
such. As Dr. Ettner testified, “gender dysphoria
intensifies with age.” And as with treatment for any
other medical condition, treatment for gender
dysphoria must be based on a patient’s current
situation.
The opinions of Edmo’s experts are notably devoid
of these flaws. Dr. Ettner and Dr. Gorton cogently and
persuasively explained why GCS is medically necessary
for Edmo and why Edmo meets the WPATH criteria for
GCS.
For example, consistent with the WPATH
Standards of Care, Dr. Ettner explained that Edmo has
lived for “12 continuous months . . . in a gender role
that is congruent with gender identity” (the sixth
WPATH criterion) because she has lived “as a woman
to the best of her ability in a male prison.” In support
of her opinion, Dr. Ettner cited Edmo’s
“appearance . . . , her disciplinary records, which
indicated that she had attempted to wear her hair in a
feminine hairstyle and to wear makeup even though
that was against the rules and she was – received some
sort of disciplinary action for that, and her – the way
that she was receiving female undergarments and had
developed the stigma of femininity, the secondary sex
characteristics, breast development, et cetera.” Dr.
Gorton similarly explained that Edmo satisfies the
sixth WPATH criterion because she has lived for years
in her “target gender role . . . despite an environment
that’s very hostile to that and some negative
consequences that she has experienced because of
that.”

App. 116
Moreover, both Dr. Ettner and Dr. Gorton offered
reasoned explanations tying Edmo’s self-castration
attempts to her severe gender dysphoria. Dr. Ettner
explained that doctors regard “surgical selftreatment . . . as an intentional attempt to remove the
target organ that produces testosterone, which, in fact,
is the cure for gender dysphoria.” As Dr. Gorton
elaborated, Edmo’s self-castration attempts
demonstrate deficient treatment for “severe genitalfocused gender dysphoria.” He rejected the notion that
Edmo’s depression and anxiety drove her selfcastration
attempts: “there [are] a lot of people with depression
and anxiety who don’t remove their testicles.”
In light of the experts’ backgrounds and experience,
and the reasonableness, consistency, and
persuasiveness of their opinions, the district court did
not err in crediting the opinions of Edmo’s experts and
giving little weight to those of the State’s experts. The
district court carefully examined the voluminous
record, extensive testimony, and conflicting expert
opinions in this case and set forth clear reasons,
supported by the record, for relying on the testimony of
Edmo’s experts. See La Quinta Worldwide, 762 F.3d at
879 (a factual finding is clear error if it is “illogical,
implausible, or without support in inferences that may
be drawn from the facts in the record”); Caro, 280 F.3d
at 1253; Beech Aircraft Corp. v. United States, 51 F.3d
834, 838 (9th Cir. 1995) (per curiam). The credited
expert testimony established that GCS is medically
necessary to alleviate Edmo’s gender dysphoria.

App. 117
b. Dr. Eliason’s Assessment
Turning from the expert testimony offered, the
State contends that Edmo’s experts, at most, created a
dispute of professional judgment with Edmo’s treating
psychiatrist, Dr. Eliason, who it urges reasonably
concluded that GCS is inappropriate for Edmo. If that
is the case, the argument goes, then Edmo’s Eighth
Amendment claim fails because the dispute is merely
a “difference of opinion . . . between medical
professionals” about “what medical care is
appropriate.” Snow, 681 F.3d at 987. The problem for
the State is that Dr. Eliason’s decision “was medically
unacceptable under the circumstances.” Toguchi, 391
F.3d at 1058 (quoting Jackson, 90 F.3d at 332).
In particular, as the district court found, Dr.
Eliason did not follow accepted standards of care in the
area of transgender health care. See Edmo, 358
F. Supp. 3d at 1126. Dr. Eliason explained in his notes
that, in his view, GCS is medically necessary in three
situations: “congenital malformation or ambiguous
genitalia,” “severe and devastating dysphoria that is
primarily due to genitals,” or “some type of medical
problem in which endogenous sexual hormones were
causing severe physiological damage.” The conclusion
of his notes—“[t]his inmate does not meet any of those
[three] criteria”—suggests that he views those as the
only three scenarios in which GCS would be medically
necessary, an impression he did not dispel during his
testimony. Those “criteria” (Dr. Eliason’s term),
however, bear little resemblance to the widely
accepted, evidence-based criteria set out in the
WPATH’s Standards of Care. As Dr. Eliason

App. 118
acknowledged, the NCCHC endorses the WPATH
Standards of Care as the accepted standards for the
treatment of transgender prisoners. And as the district
court found and the State does not contest, “[t]here are
no other competing, evidence-based standards that are
accepted by any nationally or internationally
recognized medical professional groups.” Id. at 1125.
Dr. Eliason did not follow these standards in rendering
his decision.
The State challenges the district court’s finding that
Dr. Eliason “did not apply the WPATH Criteria,” id. at
1126, on two grounds. First, citing Dr. Eliason’s
testimony at the evidentiary hearing, it urges that Dr.
Eliason concluded that GCS was not medically
necessary for Edmo because Edmo’s mental health
issues were not well controlled (the fourth WPATH
criterion) and she had not consistently presented as
female outside of prison (the sixth).
The district court’s rejection of this post hoc
explanation was not clear error. Neither of the
explanations offered by Dr. Eliason during the
evidentiary hearing appears in Dr. Eliason’s notes. Nor
did he give these reasons during his deposition. Their
absence is conspicuous, given that Dr. Eliason took the
time to indicate instances where, in his opinion, GCS is
appropriate and to explain that Edmo did not satisfy
his “criteria.”
Second, the State highlights that Dr. Eliason’s notes
recommend further “supportive counseling” for Edmo
and indicate that Edmo was up for parole. The State
construes these notes as shorthand for the fourth and
sixth WPATH criteria, respectively. The State’s

App. 119
proposed reading of Dr. Eliason’s notes is
unreasonable. His notes are clear that GCS is not
needed because Edmo did not meet his three “criteria,”
and the district court was well within its factfinding
discretion in rejecting the State’s strained reading. We
therefore conclude that the district court reasonably
found that Dr. Eliason “did not rely upon any finding
that Ms. Edmo did not meet the WPATH criteria in
concluding in his April 2016 assessment that she did
not meet the criteria for gender confirmation surgery.”
Id. at 1120.
Notably, neither Dr. Eliason nor the State has
offered any explanation or support for Dr. Eliason’s
“criteria.” Dr. Eliason testified that he could not recall
where he came up with them.
Nor has Dr. Eliason or the State contended that Dr.
Eliason’s criteria were a reasonable deviation or
modification of the WPATH Standards of Care. In any
event, we could not accept that argument. Dr. Eliason’s
criteria—apparently invented out of whole cloth—are
so far afield from the WPATH standards that we
cannot characterize his decision as a flexible
application of or deviation from those standards.
Indeed, as Dr. Gorton explained, two of Dr. Eliason’s
criteria are inapplicable to the care of transgender
individuals. Dr. Eliason’s criterion of “congenital
malformation or ambiguous genitalia” “isn’t . . .
germane to transgender people.” His statement that
GCS could be needed when “endogenous sexual
hormones were causing severe physiological damage,”
is, in Dr. Gorton’s words, “bizarre. I can’t think of a
clinical circumstance where . . . your hormones that

App. 120
your body produces are attacking you . . . . I just don’t
understand what [Dr. Eliason] is talking about there.”
Dr. Eliason, in short, did not follow the accepted
standards of care in the area of transgender health
care, nor did he reasonably deviate from or flexibly
apply them. Dr. Eliason did not apply the established
standards, even as a starting point, in his evaluation.
Putting to the side Dr. Eliason’s failure to follow or
reasonably deviate from the accepted standards of care,
his decision was internally contradictory in an
important way. His notes reflect that GCS would be
medically necessary if a person is suffering “severe and
devastating gender dysphoria that is primarily due to
genitals.” At his deposition, Dr. Eliason conceded that
self-castration could show gender dysphoria sufficiently
severe to satisfy that criterion. And at the evidentiary
hearing, he acknowledged that Edmo “does primarily
meet that criteri[on].” Thus, even under Dr. Eliason’s
own criteria, Edmo should have been provided GCS.
Neither Dr. Eliason nor the State has reconciled this
important contradiction between Dr. Eliason’s criteria
and his determination.
In sum, Dr. Eliason’s evaluation was not an exercise
of medically acceptable professional judgment. Dr.
Eliason’s decision was based on inexplicable criteria far
afield from the recognized standards of care and, even
applying Dr. Eliason’s criteria, Edmo qualifies for GCS.
Given the credited expert testimony that GCS is
necessary to treat Edmo’s gender dysphoria, Dr.
Eliason’s contrary determination was “medically

App. 121
unacceptable under the circumstances.”18 Snow, 681
F.3d at 988.
2. Deliberate Indifference
The State next contends that even if the treatment
provided Edmo was medically unacceptable, no
defendant acted “in conscious disregard of an excessive
risk to [Edmo’s] health.” Hamby, 821 F.3d at 1092
(quoting Snow, 681 F.3d at 988). We disagree.
The record demonstrates that Dr. Eliason acted
with deliberate indifference to Edmo’s serious medical
needs. Dr. Eliason knew, as of the time of his
evaluation, that Edmo had attempted to castrate
herself. He also knew that Edmo suffers from gender
dysphoria; he knew she experiences “clinically
significant” distress that impairs her ability to
function. He acknowledged that Edmo’s self-castration
attempt was evidence that Edmo’s gender dysphoria, in
his words, “had risen to another level.” Dr. Eliason

18

Dr. Eliason was not alone in his decision. Dr. Stoddart, Dr.
Young, and Jeremy Clark agreed with his assessment, as did the
MTC. The State contends that such general agreement
demonstrates that Dr. Eliason’s decision was reasonable. But
general agreement in a medically unacceptable form of treatment
does not somehow make it reasonable. This is especially so in light
of the limited review those individuals performed: Dr. Stoddard,
Dr. Young, and Jeremy Clark agreed with Dr. Eliason’s
recommended treatment as he presented it to them and without
personally evaluating Edmo, and the MTC “does not make any
individual treatment decisions regarding [gender dysphoric]
inmates. Those determinations are made by the individual
clinicians or the medical staff employed by Corizon,” like Dr.
Eliason.

App. 122
nonetheless continued
treatment plan.

with

Edmo’s

ineffective

Edmo then tried to castrate herself a second time,
in December 2016. Dr. Eliason knew of that nearly
catastrophic event, but he did not reevaluate or
recommend a change to Edmo’s treatment plan, despite
indicating in his April 2016 evaluation that he would
continue to monitor and assess Edmo’s condition. Dr.
Eliason continued to see Edmo after that time, and he
considered Edmo’s treatment as a member of the MTC.
At no point did Dr. Eliason change his mind or the
treatment plan regarding surgery. Under these
circumstances, we conclude that Dr. Eliason knew of
and disregarded the substantial risk of severe harm to
Edmo. Farmer, 511 U.S. at 837.
The State urges that neither Dr. Eliason nor any
other defendant acted with deliberate indifference
because none acted with “malice, intent to inflict pain,
or knowledge that [the] recommended course of
treatment was medically inappropriate.” The State
misstates the standard. A prisoner “must show that
prison officials ‘kn[e]w [ ] of and disregard[ed]’ the
substantial risk of harm,’ but the officials need not
have intended any harm to befall the inmate; ‘it is
enough that the official acted or failed to act despite his
knowledge of a substantial risk of serious harm.’”
Lemire v. Cal. Dep’t of Corr. & Rehab., 726 F.3d 1062,
1074 (9th Cir. 2013) (alterations in original) (quoting
Farmer, 511 U.S. at 837, 842). Neither the Supreme
Court nor this court has ever required a plaintiff to
show a “sinister [prison official] with improper
motives,” as the State would require. It is enough that

App. 123
Dr. Eliason knew of and disregarded an excessive risk
to Edmo’s health by rejecting her request for GCS and
then never re-evaluating his decision despite ongoing
harm to Edmo.
The State also contends that because the
defendants provided some care to Edmo, no defendant
could have been deliberately indifferent. The provision
of some medical treatment, even extensive treatment
over a period of years, does not immunize officials from
the Eighth Amendment’s requirements. See Lopez v.
Smith, 203 F.3d 1122, 1132 (9th Cir. 2000) (en banc)
(explaining that “[a] prisoner need not prove that he
was completely denied medical care” to make out an
Eighth Amendment claim); see also De’lonta, 708 F.3d
at 526 (“[J]ust because [officials] have provided
De’lonta with some treatment consistent with the GID
Standards of Care, it does not follow that they have
necessarily provided her with constitutionally adequate
treatment.”). As the Fourth Circuit has aptly
analogized,
imagine that prison officials prescribe a
painkiller to an inmate who has suffered a
serious injury from a fall, but that the inmate’s
symptoms, despite the medication, persist to the
point that he now, by all objective measure,
requires evaluation for surgery. Would prison
officials then be free to deny him consideration
for surgery, immunized from constitutional suit
by the fact they were giving him a painkiller?
We think not.

App. 124
De’lonta, 708 F.3d at 526. Here, although the treatment
provided Edmo was important, it stopped short of what
was medically necessary.
3. Out-of-Circuit Precedent
Our decision cleaves to settled Eighth Amendment
jurisprudence, which requires a fact-specific analysis of
the record (as construed by the district court) in each
case. See Patel v. Kent Sch. Dist., 648 F.3d 965, 975
(9th Cir. 2011) (“Deliberate-indifference cases are by
their nature highly fact-specific . . . .”); see also Rachel
v. Troutt, 820 F.3d 390, 394 (10th Cir. 2016) (“Each
step of this [deliberate indifference] inquiry is factintensive.” (quoting Hartsfield v. Colburn, 491 F.3d
394, 397 (8th Cir. 2007))); Roe v. Elyea, 631 F.3d 843,
859 (7th Cir. 2011) (“[I]nmate medical care decisions
must be fact-based with respect to the particular
inmate, the severity and stage of his condition, the
likelihood and imminence of further harm and the
efficacy of available treatments.”); Youmans v. Gagnon,
626 F.3d 557, 564 (11th Cir. 2010) (“Judicial decisions
addressing deliberate indifference to a serious medical
need, like decisions in the Fourth Amendment searchand-seizure realm, are very fact specific.”); Chance v.
Armstrong, 143 F.3d 698, 703 (2d Cir. 1998) (“Whether
a course of treatment was the product of sound medical
judgment, negligence, or deliberate indifference
depends on the facts of the case.”).
Several years ago, the First Circuit, sitting en banc,
employed that fact-based approach to evaluate a
gender dysphoric prisoner’s Eighth Amendment claim
seeking GCS. The First Circuit confronted the following
record: credited expert testimony disagreed as to

App. 125
whether GCS was medically necessary; the prisoner’s
active treatment plan, which did not include GCS, had
“led to a significant stabilization in her mental state”;
and a report and testimony from correctional officials
detailed significant security concerns that would arise
if the prisoner underwent GCS. Kosilek, 774 F.3d at
86–96. “After carefully considering the community
standard of medical care, the adequacy of the provided
treatment, and the valid security concerns articulated
by the DOC,” a 3–2 majority of the en banc court
concluded that the plaintiff had not demonstrated GCS
was medically necessary treatment for her gender
dysphoria. Id. at 68.
Our approach mirrors the First Circuit’s, but the
important factual differences between cases yield
different outcomes. Notably, the security concerns in
Kosilek, which the First Circuit afforded “wide-ranging
deference,” are completely absent here. Id. at 92. The
State does not so much as allude to them. The medical
evidence also differs. In Kosilek, qualified and credited
experts disagreed about whether GCS was necessary.
Id. at 90. As explained above, the district court’s
careful factual findings admit of no such disagreement
here. Rather, they unequivocally establish that GCS is
the safe, effective, and medically necessary treatment
for Edmo’s severe gender dysphoria.
We recognize, however, that our decision is in
tension with Gibson v. Collier. In that case, the Fifth
Circuit held, in a split decision, that “[a] state does not
inflict cruel and unusual punishment by declining to
provide [GCS] to a transgender inmate.” 920 F.3d at
215. It did so on a “sparse record”—which included only

App. 126
the WPATH Standards of Care and was notably devoid
of “witness testimony or evidence from professionals in
the field”—compiled by a pro se plaintiff. Id. at 220.
Despite the sparse record, a 2–1 majority of the Gibson
panel concluded that “there is no consensus in the
medical community about the necessity and efficacy of
[GCS] as a treatment for gender dysphoria. . . . This ongoing medical debate dooms Gibson’s claim.” Id. at 221.
We respectfully disagree with the categorical nature
of our sister circuit’s holding. Most fundamentally,
Gibson relies on an incorrect, or at best outdated,
premise: that “[t]here is no medical consensus that
[GCS] is a necessary or even effective treatment for
gender dysphoria.” Id. at 223.
As the record here demonstrates and the State does
not seriously dispute, the medical consensus is that
GCS is effective and medically necessary in appropriate
circumstances. The WPATH Standards of Care—which
are endorsed by the American Medical Association, the
American Medical Student Association, the American
Psychiatric Association, the American Psychological
Association, the American Family Practice Association,
the Endocrine Society, the National Association of
Social Workers, the American Academy of Plastic
Surgeons, the American College of Surgeons, Health
Professionals Advancing LGBTQ Equality, the HIV
Medicine Association, the Lesbian, Bisexual, Gay and
Transgender Physician Assistant Caucus, and Mental
Health America—recognize this fact. WPATH SOC at
54–55. Each expert in this case agrees. As do others in
the medical community. See, e.g., U.S. Dep’t of Health
& Human Servs., No. A-13- 87, Decision No. 2576; Bao

App. 127
Ngoc N. Tran, et al., Gender Affirmation Surgery: A
Synopsis Using American College of Surgeons National
Surgery Quality Improvement Program and National
Inpatient Sample Databases, 80 Annals Plastic Surgery
S229, S234 (2018); Frey, A Historical Review of GenderAffirming Medicine, 14 J. Sexual Med. at 991; see also
What We Know Project, Ctr. for the Study of
Inequality, Cornell Univ., What Does the Scholarly
Research Say About the Effect of Gender Transition on
Transgender Well-Being?, https://whatweknow.inequali
ty.cornell.edu/topics/lgbt-equality/what-does-thescholarly-research-say-about-the-well-being-oftransgender-people/ (last visited July 10, 2019)
(reviewing the available literature and finding “a
robust international consensus in the peerreviewed
literature that gender transition, including medical
treatments such as hormone therapy and surgeries,
improves the overall well-being of transgender
individuals”). The Fifth Circuit is the outlier.
Gibson’s broad holding stemmed from a dismaying
disregard for procedure. As noted, the “sparse”
summary judgment record that the pro se plaintiff
developed included “only the WPATH Standards of
Care.” Gibson, 920 F.3d at 221. Perhaps that factual
deficiency doomed Gibson’s Eighth Amendment claim.
See id. at 223–24. But to reach its broader holding that
denying GCS cannot, as a matter of law, violate the
Eighth Amendment—in other words, to reject every
conceivable Eighth Amendment claim based on the
denial of GCS—the Fifth Circuit coopted the record
from Kosilek, a First Circuit decision that predates
Gibson by four years. Id. at 221–23. We doubt the

App. 128
analytical value of such an anomalous procedural
approach.
Worse yet, the medical opinions from Kosilek do not
support the Fifth Circuit’s categorical holding. Dr.
Chester Schmidt’s and Dr. Stephen Levine’s testimony
in Kosilek, which the Fifth Circuit relied on, do not
support the proposition that GCS is never medically
necessary. Dr. Schmidt and Dr. Levine testified that
GCS was not necessary in the factual circumstances of
that case, that is, based on the unique medical needs of
the prisoner at issue. See Kosilek, 774 F.3d at 76–79.
The only suggestion in Kosilek that GCS is never
medically necessary is in the First Circuit’s recitation
of the testimony of Dr. Cynthia Osborne. See Gibson,
920 F.3d at 221. The First Circuit recounted that Dr.
Osborne testified that she “did not view [GCS] as
medically necessary in light of the ‘whole continuum
from noninvasive to invasive’ treatment options
available to individuals with” gender dysphoria.
Kosilek, 774 F.3d at 77. To the extent this vague
portrait of Dr. Osborne’s testimony conveys her belief
that GCS is never medically necessary, she has
apparently changed her view in the more than ten
years since she testified in Kosilek. Like both sides and
all four medical experts who testified here, Dr. Osborne
now agrees that GCS “can be medically necessary for
some, though not all, persons with [gender dysphoria],
including some prison inmates.” Osborne & Lawrence,
Male Prison Inmates With Gender Dysphoria, 45
Archives of Sexual Behav. at 1651. In her and her coauthor’s words, “[GCS] is a safe, effective, and widely
accepted treatment for [gender dysphoria]; disputing

App. 129
the medical necessity of [GCS] based on assertions to
the contrary is unsupportable.” Id. The predicate
medical opinions that Gibson is premised upon, then,
do not support the Fifth Circuit’s view that GCS is
never medically necessary. The consensus is that GCS
is effective and medically necessary in appropriate
circumstances.19
Gibson is unpersuasive for several additional
reasons. It directly conflicts with decisions of this
circuit, the Fourth Circuit, and the Seventh Circuit, all
of which have held that denying surgical treatment for
gender dysphoria can pose a cognizable Eighth
Amendment claim. Rosati, 791 F.3d at 1040 (alleged
blanket ban on GCS and denial of GCS to plaintiff with
19

We do not suggest that every member of the medical and mental
health communities agrees that GCS may be medically necessary.
There are outliers. But when the medical consensus is that a
treatment is effective and medically necessary under the
circumstances, prison officials render unacceptable care by
following the views of outliers without offering a credible medical
basis for deviating from the accepted view. See Kosilek, 774 F.3d
at 90 n.12 (explaining that it is not enough for “correctional
administrators wishing to avoid treatment . . . simply to find a
single practitioner willing to attest that some well-accepted
treatment is not necessary”); Hamilton v. Endell, 981 F.2d 1062,
1067 (9th Cir. 1992) (“By choosing to rely upon a medical opinion
which a reasonable person would likely determine to be inferior,
the prison officials took actions which may have amounted to the
denial of medical treatment, and the unnecessary and wanton
infliction of pain.” (quotation omitted)), overruled in part on other
grounds as recognized in Snow, 681 F.3d at 986; cf. also Bragdon
v. Abbott, 524 U.S. 624, 650 (1998) (“A health care professional who
disagrees with the prevailing medical consensus may refute it by
citing a credible scientific basis for deviating from the accepted
norm.”).

App. 130
severe symptoms, including repeated self-castration
attempts, states an Eighth Amendment claim); Fields
v. Smith, 653 F.3d 550, 552–53, 558–59 (7th Cir. 2011)
(law banning hormone treatment and GCS, even if
medically necessary, violates the Eighth Amendment);
De’lonta, 708 F.3d at 525 (alleged denial of an
evaluation for GCS states an Eighth Amendment
claim).20 Relatedly, Gibson eschews Eighth Amendment
precedent requiring a case-by-case determination of the
medical necessity of a particular treatment. See, e.g.,
Colwell v. Bannister, 763 F.3d 1060, 1068 (9th Cir.
2014) (holding that the “blanket, categorical denial of
medically indicated surgery solely on the basis of an
administrative policy . . . is the paradigm of deliberate
indifference” (quotation omitted)); Roe, 631 F.3d at 859.
In this latter respect, Gibson also contradicts and
misconstrues the precedent it purports to follow:
Kosilek. According to the Gibson majority, “the
majority in Kosilek effectively allowed a blanket ban on
sex reassignment surgery.” 920 F.3d at 216. Not so.
The First Circuit did precisely what we do here: assess
whether the record before it demonstrated deliberate
indifference to the plaintiff’s gender dysphoria. On the
record before it, the First Circuit determined that
20

The Fifth Circuit unpersuasively attempted to reconcile its
decision with Rosati and De’lonta, pointing out that those decisions
“allowed Eighth Amendment claims for [GCS] to survive motions
to dismiss, without addressing the merits.” Gibson, 920 F.3d at 223
n.8. But if Gibson is correct that failing to provide GCS cannot
amount to deliberate indifference, then a plaintiff cannot state an
Eighth Amendment claim based on the denial of GCS. Rosati and
De’lonta would necessarily have been decided differently under
Gibson’s holding.

App. 131
either of two courses of treatment (one included GCS
and one did not) were medically acceptable. Kosilek,
774 F.3d at 90. In light of those medically acceptable
alternatives, the First Circuit explained that it was not
its place to “second guess medical judgments or to
require that the DOC adopt the more compassionate of
two adequate options.” Id. (quotation omitted). It
expressly cautioned that the opinion should not be read
to “create a de facto ban against [GCS] as a medical
treatment for any incarcerated individual,” as “any
such policy would conflict with the requirement that
medical care be individualized based on a particular
prisoner’s serious medical needs.” Id. at 91 (citing Roe,
631 F.3d at 862–63). The Fifth Circuit disregarded
these words of warning.21
***
In summary, Edmo has established that she suffers
from a “serious medical need,” Jett, 439 F.3d at 1096,
and that the treatment provided was “medically
unacceptable under the circumstances” and chosen “in
conscious disregard of an excessive risk” to her health,
Hamby, 821 F.3d at 1092. She established her Eighth

21

Gibson’s final, originalist rationale—that it cannot be cruel and
unusual to deny a surgery that has only once been provided to an
inmate, 920 F.3d at 226–28—warrants little discussion. Gibson’s
originalist understanding of the Eighth Amendment does not
control; Estelle does, and under Estelle a plaintiff establishes an
Eighth Amendment claim by demonstrating that prison officials
were deliberately indifferent to a serious medical need. 429 U.S. at
106. This standard protects the evolving standards of decency
enshrined in the Eighth Amendment.

App. 132
Amendment claim of deliberate indifference as to
Defendant-Appellant Dr. Eliason.
B. Irreparable Harm
The State next contends that the district court erred
in finding that Edmo would be irreparably harmed
absent an injunction.
In reaching its conclusion, the district court found
that Edmo experiences ongoing “clinically significant
distress,” meaning “the distress impairs or severely
limits [her] ability to function in a meaningful way.”
Edmo, 358 F. Supp. 3d at 1110–11. This finding is
supported by Edmo’s testimony that her gender
dysphoria causes her to feel “depressed,” “disgusting,”
“tormented,” and “hopeless”; that she actively
experiences thoughts of self-castration; and that she
“self-medicat[es]” by cutting her arms with a razor to
avoid acting on those thoughts and impulses. The
district court also found that in the absence of surgery,
Edmo “will suffer serious psychological harm and will
be at high risk of self-castration and suicide.” Id. at
1128. This finding is supported by the credited expert
testimony of Dr. Ettner and Dr. Gorton, who detailed
the escalating risks of self-surgery, suicide, and
emotional decompensation should Edmo be denied
surgery.
It is no leap to conclude that Edmo’s severe, ongoing
psychological distress and the high risk of selfcastration and suicide she faces absent surgery
constitute irreparable harm. See Stanley v. Univ. of S.
Cal., 13 F.3d 1313, 1324 n.5 (9th Cir. 1994); Thomas v.
County of Los Angeles, 978 F.2d 504, 511 (9th Cir.

App. 133
1992); Chalk v. U.S. Dist. Ct. Cent. Dist. of Cal., 840
F.2d 701, 709 (9th Cir. 1988). Moreover, the
deprivation of Edmo’s constitutional right to adequate
medical care is sufficient to establish irreparable harm.
See Nelson v. NASA, 530 F.3d 865, 882 (9th Cir. 2008)
(“Unlike monetary injuries, constitutional violations
cannot be adequately remedied through damages and
therefore generally constitute irreparable harm.”), rev’d
and remanded on other grounds, 562 U.S. 134 (2011).
The State offers three contentions as to why the
district court erred in finding that Edmo would be
irreparably injured in the absence of an injunction.
None is persuasive.
First, the State argues that the “long delay” of
“nearly a year” between Edmo filing her Amended
Complaint and her preliminary injunction motion
“implies a lack of urgency and irreparable harm.” We
disagree. The procedural history demonstrates that
Edmo did not sit on her rights. Proceeding pro se, Edmo
moved for preliminary injunctive relief when she filed
her original complaint. The court then appointed
counsel for Edmo, and shortly after appearing,
appointed counsel withdrew Edmo’s motion and filed
an amended complaint. To assess the urgency of
surgery, Edmo’s counsel promptly sought access to
Edmo’s medical records, which the State did not
produce until more than six months later. Edmo moved
for injunctive relief shortly thereafter. During that
time, Edmo and her counsel diligently investigated and
compiled the necessary record to move for injunctive
relief. That it took them months to do their diligence

App. 134
does not suggest that Edmo will not be harmed absent
an injunction.
Second, the State contends that Edmo has not
established irreparable injury because both she and her
expert, Dr. Gorton, agree that GCS is not an emergency
surgery and that the State should have six months to
provide such surgery. The State’s argument would
preclude courts from ordering non-emergent medical
care, even if the Eighth Amendment demands it. That
is untenable. The State also ignores the rationale for
the six-month time period. As Dr. Gorton explained, all
patients who receive GCS “are seen, they are
evaluated, there is a process you have to go through.”
In his experience, that process typically concludes
within six months. That Edmo requested relief on a
reasonable timeline, based on the medical evidence,
does not undermine the strong evidence of irreparable
injury.
Third, the State contends that Edmo has not
established irreparable harm because she “has not
attempted suicide or self-castration for years.” That
argument overlooks the profound, persistent distress
Edmo’s gender dysphoria causes, as well as the
credited expert testimony that absent GCS, Edmo is at
risk of further attempts at self-castration, and possibly
suicide. The district court did not err in finding that
Edmo would be irreparably harmed in the absence of
an injunction.
IV. Challenges to the Scope of the Injunction
We turn to the State’s contentions that the district
court’s injunction was overbroad.

App. 135
A. Individual Defendants
The State contends that the injunction should not
apply to Atencio, Zmuda, Yordy, Siegert, Dr. Young,
Dr. Craig, Dr. Eliason, or Dr. Whinnery because the
district court did not find that they, individually, were
deliberately indifferent to Edmo’s medical needs.
As explained in Section III.A, Edmo has established
that Dr. Eliason was deliberately indifferent to her
serious medical needs. The injunction was properly
entered against him because he personally participated
in the deprivation of Edmo’s constitutional rights. See
Colwell, 763 F.3d at 1070.
Edmo sued Attencio, Zmuda, and Yordy in their
official capacities. An official-capacity suit for
injunctive relief is properly brought against any
persons who “would be responsible for implementing
any injunctive relief.” Pouncil v. Tilton, 704 F.3d 568,
576 (9th Cir. 2012). The State does not contest that
Attencio, as Director of IDOC, and Zmuda, as Deputy
Director of IDOC, would be responsible for
implementing any injunctive relief ordered. Edmo
properly named them as defendants to her Eighth
Amendment claim for injunctive relief, regardless of
their personal involvement. See Colwell, 763 F.3d at
1070–71 (director of a state correctional system is a
proper defendant in an official-capacity suit seeking
injunctive relief for Eighth Amendment violations).
Yordy is no longer the Warden of ISCI, but, by
operation of the Federal Rules, his successor, Al
Ramirez, is “automatically substituted as party” in his
official capacity. Fed. R. Civ. P. 25(d). Ramirez is
properly a defendant to Edmo’s Eighth Amendment

App. 136
claim for injunctive relief, regardless of his personal
involvement. See Colwell, 763 F.3d at 1070–71 (warden
is a proper defendant in an official-capacity suit
seeking injunctive relief for Eighth Amendment
violations). Because Edmo may properly pursue her
Eighth Amendment claim for injunctive relief against
Attencio, Zmuda, and Ramirez in their official
capacities, they are properly included within the scope
of the district court’s injunction. On remand, the
district court shall amend the injunction to substitute
Al Ramirez (or the then-current Warden of ISCI) as a
party for Yordy.
Edmo also named Yordy as a defendant in his
individual capacity. She likewise named Siegert, Dr.
Young, Dr. Craig, and Dr. Whinnery as defendants in
their individual capacities (though she does not argue
on appeal that the injunction properly included them).
We hold that the evidence in the current record is
insufficient to conclude that they were deliberately
indifferent to Edmo’s serious medical needs. In
particular, the record does not show what they knew
about Edmo’s condition and what role they played in
her treatment or lack thereof. Edmo has not
established their liability, and the district court
improperly included them within the scope of the
injunction. We vacate the district court’s injunction to
the extent it applies to Yordy, Siegert, Dr. Young, Dr.
Craig, and Dr. Whinnery in their individual capacities.
See California v. Azar, 911 F.3d 558, 585 (9th Cir.
2018) (vacating in part an overbroad injunction and
remanding to the district court). On remand, the
district court shall modify the injunction to exclude
those defendants from its scope.

App. 137
B. Corizon
The State also contends that the injunction should
not apply to Corizon. It urges that Corizon does not
have a policy barring GCS and argues that such a
policy is a prerequisite to liability under Monell v.
Department of Social Services, 436 U.S. 658 (1978). We
have not yet determined whether Monell applies “to
private entities acting on behalf of state governments,”
such as Corizon. Oyenik v. Corizon Health Inc., 696
F. App’x 792, 794 n.1 (9th Cir. 2017). We leave that
issue for another day. Instead, we vacate the injunction
as to Corizon and remand with instructions to the
district court to modify the injunction to exclude
Corizon. See Azar, 911 F.3d at 585. Doing so still
provides Edmo the relief she seeks at this stage.22
C. Relief Ordered
The State next contends that the injunctive relief
ordered is overbroad because it requires the State to
provide Edmo all “adequate medical care.” The State
misconstrues the district court’s order. The order, read
in context, requires defendants to provide GCS, as well
as “adequate medical care” that is “reasonably
necessary” to accomplish that end—not every
conceivable form of adequate medical care. Edmo, 358
F. Supp. 3d at 1129; see also id. at 1109 (“Plaintiff
Adree Edmo alleges that prison authorities violated her
Eighth Amendment rights by refusing to provide her
22

For similar reasons, we need not reach Edmo’s contention and
the district court’s finding that “Corizon and IDOC have a de facto
policy or practice of refusing” GCS to prisoners. Edmo, 358
F. Supp. 3d at 1127.

App. 138
with gender confirmation surgery. For the reasons
explained below, the Court agrees and will order
defendants to provide her with this procedure, a
surgery which is considered medically necessary under
generally accepted standards of care.”); id. at 1110
(“[F]or the reasons explained in detail below, IDOC and
Corizon will be ordered to provide Ms. Edmo with
gender confirmation surgery.”).
The State similarly contends that the injunctive
relief ordered is overbroad because it requires the State
to provide Edmo surgery even though the defendants
are not surgeons and no surgeon has evaluated Edmo.
We reject this obtuse reading of the district court’s
order. The district court ordered the State to “take all
actions reasonably necessary to provide Ms. Edmo
gender confirmation surgery.” Edmo, 358 F. Supp. 3d
at 1129. That means that the State must take steps
within its power to provide GCS to Edmo, such as
finding a surgeon and scheduling a surgical evaluation.
Indeed, we modified our stay of the district court’s
order to permit a surgical consultation, which went
forward in April 2019. Oral Arg. at 12:00–12:10. The
State cannot reasonably understand the district court’s
December 13, 2018 order to require that the defendants
themselves provide surgery. To the extent there are
issues arising from a surgical evaluation, the State can
raise those issues with the district court.23

23

The State contends for the first time in its reply brief that the
injunctive relief ordered was inappropriate because the WPATH
Standards of Care require two referrals from qualified mental
health professionals who have independently assessed the patient
before GCS may be provided. It similarly contends for the first

App. 139
V. Challenges to the Procedure Used by the
District Court
Finally, the State contends that the district court
improperly converted an evidentiary hearing on a
preliminary injunction into a final trial on the merits
of Edmo’s Eighth Amendment claim for GCS without
giving them adequate notice and in violation of their
Seventh Amendment right to a jury trial. We address
and reject each contention.
A. Notice
We first address the State’s contention that the
district court erroneously converted the evidentiary
hearing into a final trial on the merits without giving
the State “clear and unambiguous notice.” Under
Federal Rule of Civil Procedure 65(a)(2), “[a] district
court may consolidate a preliminary injunction hearing
with a trial on the merits, but only when it provides the
parties with clear and unambiguous notice [of the
intended consolidation] either before the hearing
commences or at a time which will afford the parties a
full opportunity to present their respective cases.”
Isaacson v. Horne, 716 F.3d 1213, 1220 (9th Cir. 2013)
(second alteration in original) (quotation omitted).
“What constitutes adequate notice depends upon the
facts of the case.” Michenfelder v. Sumner, 860 F.2d
328, 337 (9th Cir. 1988).

time in its reply in support of its motion to dismiss that the order
is overbroad because it does not specify the type of GCS ordered.
Because the State did not present these arguments in its opening
brief, we do not consider them. See Smith v. Marsh, 194 F.3d 1045,
1052 (9th Cir. 1999).

App. 140
A party challenging consolidation must show not
only inadequate notice, but also “substantial prejudice
in the sense that [it] was not allowed to present
material evidence.” Michenfelder, 860 F.2d at 337; see
also 11A Charles Alan Wright et al., Federal Practice
and Procedure § 2950 (3d ed. Apr. 2019 update). “We
have on occasion upheld a district court’s failure to give
any notice whatsoever before finally determining the
merits after only a preliminary injunction hearing,
where the complaining party has failed to show how
additional evidence could have altered the outcome.”
Michenfelder, 860 F.2d at 337.
At the outset, we note that the State was provided
notice, twice, that the district court considered the
evidentiary hearing a final trial on the merits of
Edmo’s request for GCS. At the beginning of the
hearing, the district court explained “it’s hard for me to
envision this hearing being anything but a hearing on
a final injunction at least as to that part of the relief
requested [GCS],” and it asked the parties to address
by the end of the hearing whether it was for a
permanent injunction. At the close of the hearing, the
district court again questioned whether it could order
GCS in a preliminary injunction. It explained that it
had, in effect, “kind of treated this hearing as the final
hearing” on Edmo’s request for GCS, and it again asked
the parties to address in their oral closings or written
briefs whether the hearing was one for a permanent
injunction. The State never answered the court’s
question or objected to consolidation, despite the
district court specifically noting it had treated the
hearing as final. Cf. Reilly v. United States, 863 F.2d
149, 160 (1st Cir. 1988) (“[W]hen a trial judge

App. 141
announces a proposed course of action which litigants
believe to be erroneous, the parties detrimentally
affected must act expeditiously to call the error to the
judge’s attention or to cure the defect, not lurk in the
bushes waiting to ask for another trial when their
litigatory milk curdles.”). This is not a case where the
district court gave no notice whatsoever.
Regardless, the State has not shown any prejudice.
With full awareness of the stakes, the district court
permitted the parties four months of discovery and held
a three-day evidentiary hearing. The parties called
seven witnesses, submitted declarations in lieu of live
testimony for other witnesses, and submitted
thousands of pages of exhibits and extensive pre- and
post-trial briefing. Most importantly, both parties put
on extensive evidence concerning the treatment
provided to and withheld from Edmo and why it was or
was not appropriate—the key issue at the hearing.
When it comes to identifying prejudice, the State is
tellingly short on specifics. It indicates that it “would
have objected” to consolidation, but it failed to do so
despite repeated invitations—indeed, directives—to
address the issue. The State also urges that it would
have requested that the named defendants be able to
testify live, but it stipulated—knowing full well the
stakes of the hearing—to submit certain testimony via
declaration “[i]n lieu of and/or in addition to live
testimony.” Moreover, the State fails to identify what
testimony those witnesses would have offered or
explain how presenting that testimony live, instead of
via declaration, “could have altered the outcome.”
Michenfelder, 860 F.2d at 337. The district court did

App. 142
not commit reversible error in consolidating the
evidentiary hearing with a trial on the merits of
Edmo’s request for GCS.
B. Seventh Amendment
We turn to the State’s related contention that the
district court violated the defendants’ Seventh
Amendment right to a jury trial by converting the
evidentiary hearing into a trial on the merits. We
review that contention de novo. Palmer v. Valdez, 560
F.3d 965, 968 (9th Cir. 2009).
The Seventh Amendment guarantees the right to a
trial by jury “[i]n Suits at common law, where the value
in controversy shall exceed twenty dollars.” U.S. Const.
amend. VII. In a case such as this, where legal claims
are joined with equitable claims, a party “has a right to
jury consideration of all legal claims, as well as all
issues common to both claims.” Plummer v. W. Int’l
Hotels Co., 656 F.2d 502, 504 n.6 (9th Cir. 1981) (citing
Curtis v. Loether, 415 U.S. 189, 196 n.11 (1974)).
“Otherwise, the court might limit the parties’
opportunity to try to a jury every issue underlying the
legal claims by affording preclusive effect to its own
findings of fact on questions that are common to both
the legal and equitable claims.” Lacy v. Cook County,
897 F.3d 847, 858 (7th Cir. 2018).
Like other constitutional rights, the right to a jury
trial in civil suits can be waived. See United States v.
Moore, 340 U.S. 616, 621 (1951). It is well established
that “[a] failure to object to a proceeding in which the
court sits as the finder of fact waives a valid jury
demand as to any claims decided in that proceeding, at

App. 143
least where it was clear that the court intended to
make fact determinations.” Fillmore v. Page, 358 F.3d
496, 503 (7th Cir. 2004) (quotation omitted); see also 9
Wright & Miller, Federal Practice and Procedure § 2321
(“The right to jury trial also may be waived as it has in
many, many cases, by conduct, such as failing to object
to or actually participating in a bench trial . . . .”).
For example, in White v. McGinnis, we held that “[a]
party’s vigorous participation in a bench trial, without
so much as a mention of a jury, . . . can only be ascribed
to knowledgeable relinquishment of the prior jury
demand.” 903 F.2d 699, 703 (9th Cir. 1990) (en banc).
We explained that where a party chooses “to argue his
case fully before the district judge[,] it is not unjust to
hold him to that commitment.” Id. By contrast, we have
held that “[w]hen a party participates in [a] bench trial
ordered by the trial court while continuing to demand
a jury trial, his ‘continuing objection’ is ‘sufficient to
preserve his right to appeal the denial of his request for
a jury.’” Solis v. County of Los Angeles, 514 F.3d 946,
957 (9th Cir. 2008) (quoting United States v.
Nordbrock, 941 F.2d 947, 950 (9th Cir. 1991)). “This is
because the party in such a case is not seeking ‘two
bites at the procedural apple’ . . . . Rather, when a trial
court denies a party a jury trial despite the party’s
continuing demand, the party has little choice but to
accede to the trial court’s ruling and participate in the
bench trial.” Id. (citation omitted); see also Lovelace v.
Dall, 820 F.2d 223, 228 (7th Cir. 1987) (“Another policy
justifying the jury demand waiver rule is the view that
it is unfair to permit a party to have a trial, discover
that it has lost, and then raise the jury issue because it
is unsatisfied with the result of the trial.”).

App. 144
The State seeks a second bite at the apple. It
vigorously participated in the evidentiary hearing
without ever raising the right to a jury trial. The State
remained silent in the face of statements from the
district court that it was considering treating, and then
that it had treated, the hearing as a final trial on the
merits, which made it clear that the court “intended to
make fact determinations.” Fillmore, 358 F.3d at 503.
It also remained silent despite the district court asking
twice whether the hearing was one for a permanent
injunction—as clear a time as any to raise any concerns
about a jury trial.
The State raised the issue of a jury trial for the first
time on appeal, after the district court ruled against it.
Even after the district court’s ruling, the State made no
objection or claim to a jury trial. This conduct waived
the State’s right to a jury trial with respect to issues
common to Edmo’s request for an injunction ordering
GCS and her legal claims.
VI. Conclusion
We apply the dictates of the Eighth Amendment
today in an area of increased social awareness:
transgender health care. We are not the first to speak
on the subject, nor will we be the last. Our court and
others have been considering Eighth Amendment
claims brought by transgender prisoners for decades.
During that time, the medical community’s
understanding of what treatments are safe and
medically necessary to treat gender dysphoria has
changed as more information becomes available,
research is undertaken, and experience is gained. The
Eighth-Amendment inquiry takes account of that

App. 145
developing understanding. See Estelle, 429 U.S. at
102–03.
We hold that where, as here, the record shows that
the medically necessary treatment for a prisoner’s
gender dysphoria is gender confirmation surgery, and
responsible prison officials deny such treatment with
full awareness of the prisoner’s suffering, those officials
violate the Eighth Amendment’s prohibition on cruel
and unusual punishment.
***
We affirm the district court’s entry of an injunction
for Edmo. However, we vacate the injunction to the
extent it applies to Corizon, Yordy, Siegert, Dr. Young,
Dr. Craig, and Dr. Whinnery, in their individual
capacities, and remand to the district court to modify
the injunction accordingly. The district court shall also
modify the injunction to substitute Al Ramirez in his
official capacity as Warden of ISCI for Yordy.
Although we addressed this appeal on an expedited
basis, it has been more than a year since doctors
concluded that GCS is medically necessary for Edmo.
We urge the State to move forward. We emphatically
do not speak to other cases, but the facts of this case
call for expeditious effectuation of the injunction.
In light of the nature and urgency of the relief at
issue, we will disfavor any motion, absent
extraordinary circumstances or consent from all
parties, to extend the period to petition for rehearing or
rehearing en banc. Our stay of the district court’s
December 13, 2018 order shall automatically terminate
upon issuance of the mandate.

App. 146
Costs on appeal are awarded to Edmo.
AFFIRMED IN PART, VACATED IN PART,
AND REMANDED.

App. 147

APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
Case No. 1:17-cv-00151-BLW
[Filed May 31, 2019]
____________________________________
ADREE EDMO,
)
)
Plaintiff,
)
)
v.
)
)
IDAHO DEPARTMENT OF
)
CORRECTION, et al.,
)
)
Defendants.
)
___________________________________ )
ORDER
INTRODUCTION
The United States Court of Appeals for the Ninth
Circuit has remanded this case and asked the Court to
address three limited issues. First, the Court is asked
to “clarify whether its order denying Defendants’
motion for a stay pending appeal was meant to renew
the injunction.” Second, the Court must “clarify
whether, as part of its ruling on Edmo’s motion for
preliminary injunction, the district court also granted
permanent injunctive relief.” Third, the Court is asked

App. 148
to “clarify whether it concluded that Edmo actually
succeeded on the merits of her Eighth Amendment
claim for permanent injunctive relief.”
ANALYSIS
Beginning with the first issue, the Court’s order
denying Defendants’ request for a stay did not renew
the injunction. Dkt. 175. The issue of whether the
injunction should be renewed was not presented in the
parties’ briefing (Dkts. 156, 168, 174), and the Court’s
decision was limited to the question of whether a stay
should be issued.1 Dkt. 175.
Nevertheless, the Court expressly denied the stay
because of the significant risk that Ms. Edmo will make
a third attempt at self-castration if she is not provided
with gender confirmation surgery in the very near
future. Id. at 2 (“Given that Ms. Edmo made increasing
progress on her first two self-surgery attempts, it is
likely that Ms. Edmo will be successful if she attempts
self-surgery again.”) (emphasis in original). The Court
has found that the treatment employed by Defendants
has been ineffective, leaving gender confirmation
surgery as the sole remaining option. Edmo v. Idaho
Dep’t of Correction, 358 F. Supp. 3d 1103, 1118-20
(D. Idaho 2018). By denying Ms. Edmo gender
confirmation surgery, Defendants continue to subject
her to cruel and unusual punishment that is contrary
to the Eighth Amendment. Id. at 1129. The Court’s
intent in denying the stay was to secure a quick end to
1

To be sure, if the plaintiff had so requested, the Court would have
renewed the injunction as part of its decision denying Defendants’
request for a stay.

App. 149
Defendants’ constitutionally deficient care. That same
intent informs the Court’s decision today to reissue the
preliminary injunction in accordance with the Prison
Litigation Reform Act.2 See 18 U.S.C. § 3626.
The Ninth Circuit has also asked the Court to
clarify whether as part of its decision granting Ms.
Edmo’s motion for preliminary injunction it also
intended to grant permanent injunctive relief. That
was the Court’s intention.
At the outset of the evidentiary hearing on Ms.
Edmo’s motion for preliminary injunction and at the
hearing’s close, the Court asked the parties to address
whether the permanent or preliminary injunctive
standard applied. Dkts. 137, 139. Both parties failed to
do so. Lacking any guidance from the parties, the Court
issued its decision using the standard for a preliminary
injunction in light of the looming threat to Ms. Edmo’s
health and in accordance with Federal Rule of Civil
Procedure 1. See Edmo, 358 F. Supp. 3d at 1110, 1122
(citing Winter v. Natural Resources Defense Council,
Inc., 555 U.S. 7, 22 (2008)). In doing so, however, the
2

In doing so, the Court notes that its original injunction complied
with the Prison Litigation Reform Act’s requirement that the
Court consider and make certain factual findings regarding the
scope of the injunction. See Dkt. 193. The Court reincorporates all
those findings in today’s decision. In an abundance of caution, the
Court will again find that its injunction is “narrowly drawn,
extends no further than necessary to correct the violation of the
Federal right, and is the least intrusive means necessary to correct
the violation of the Federal right.” 18 U.S.C. § 3626(a)(1). The
Court has given “substantial weight to any adverse impact on
public safety or the operation of a criminal justice system caused
by the relief.” Id.

App. 150
Court explicitly “conclude[d] that under either [the
preliminary mandatory or permanent injunction]
standard Ms. Edmo is entitled to relief.” Id. at 1122,
n.1. Thus, the Court will reiterate its prior finding: Ms.
Edmo is entitled to gender confirmation surgery under
the permanent injunction standard.
Finally, the Ninth Circuit asks the Court to “clarify
whether it concluded that Edmo actually succeeded on
the merits of her Eighth Amendment claim for
permanent injunctive relief.” Simply stated, that was
the Court’s conclusion.
Because the Court’s original decision granted Ms.
Edmo a permanent injunction, she necessarily
succeeded on the merits of her Eighth Amendment
claim. The parties in this case “effectively converted . . .
the evidentiary hearing into the final trial on the
merits.” Edmo, 358 F. Supp. 3d at 1122, n.1. During
the hearing, the Court repeatedly informed counsel
that there did not appear to be any meaningful
distinction between a preliminary and permanent
injunction in this case. Defendants, who now object to
viewing the evidentiary hearing as a full trial on the
merits, said nothing. See Dkts. 137, 138, 139.
Additionally, in the lead up to the three-day long
hearing, the parties conducted extensive discovery.
During the hearing itself, they submitted, without any
limitation or restriction, all evidence and briefing they
wanted the Court to consider. Both sides put on
extensive expert and lay testimony that was
indistinguishable from the testimony that would have
been received during a full trial. And, finally, the Court
employed post-hearing procedures that are usually

App. 151
reserved for full trials including: (1) having the parties
submit proposed findings of fact and conclusions of law;
(2) expediting the hearing transcript so the parties
could have the full record before them in drafting their
findings of fact and conclusions of law; and (3) inviting
the parties to submit testimony via affidavit from any
witnesses who were not available to testify at the
hearing. In short, Defendants were afforded a full
opportunity to show that Ms. Edmo was receiving
constitutionally compliant care. They failed. Ms. Edmo
succeeded in showing that the care she is receiving
from Defendants is cruel and unusual punishment
under the Eighth Amendment.
ORDER
IT IS HEREBY ORDERED:
1. The preliminary mandatory relief set forth in
the Court’s decision at Docket No. 149 is
RENEWED.
2. The Court clarifies that as part of its ruling
on the motion for preliminary injunction, it
also granted permanent injunctive relief.
3. The Court further clarifies that it concluded,
and expressly incorporated into its final
decision, that Plaintiff succeeded on the
merits of her Eighth Amendment claim for
permanent injunctive relief.
DATED: May 31, 2019
s/_________________________
B. Lynn Winmill
U.S. District Court Judge

App. 152

APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF IDAHO
Case No. 1:17-cv-00151-BLW
[Filed December 13, 2018]
____________________________________
ADREE EDMO,
)
)
Plaintiff,
)
)
v.
)
)
IDAHO DEPARTMENT OF
)
CORRECTION, et al.,
)
)
Defendants.
)
___________________________________ )
FINDINGS OF FACT, CONCLUSIONS OF LAW,
AND ORDER
INTRODUCTION
For more than forty years, the Supreme Court has
consistently held that consciously ignoring a prisoner’s
serious medical needs amounts to cruel and unusual
punishment in violation of the Eighth Amendment. See
Estelle v. Gamble, 429 U.S. 97, 103 (1976). After all,
inmates have no choice but to rely on prison authorities
to treat their medical needs, and “if the authorities fail
to do so, those needs will not be met.” Id. Prison

App. 153
authorities thus treat inmates with all manner of
routine medical conditions – broken bones are set;
diabetic inmates receive insulin; inmates with cancer
receive chemotherapy; and so on. This constitutional
duty also applies to far less routine, and even
controversial, procedures – if necessary to address a
serious medical need. And so it is here. Plaintiff Adree
Edmo alleges that prison authorities violated her
Eighth Amendment rights by refusing to provide her
with gender confirmation surgery. For the reasons
explained below, the Court agrees and will order
defendants to provide her with this procedure, a
surgery which is considered medically necessary under
generally accepted standards of care.
The Court will explain its reasoning below but will
first pause to place this decision in a broader context.
The Rule of Law, which is the bedrock of our legal
system, promises that all individuals will be afforded
the full protection of our legal system and the rights
guaranteed by our Constitution. This is so whether the
individual seeking that protection is black, white, male,
female, gay, straight, or, as in this case, transgender.
This decision requires the Court to confront the full
breadth and meaning of that promise.
Adree Edmo is a male-to-female transgender
prisoner in the custody of the Idaho Department of
Correction (“IDOC”). She has been incarcerated since
April 2012. In June 2012, soon after being incarcerated,
an IDOC psychiatrist diagnosed Ms. Edmo with gender
dysphoria. An IDOC psychologist confirmed that
diagnosis a month later.

App. 154
Gender dysphoria is a medical condition
experienced by transgender individuals in which the
incongruity between their assigned gender and their
actual gender identity is so severe that it impairs the
individual’s ability to function. The treatment for
gender dysphoria depends upon the severity of the
condition. Many transgender individuals are
comfortable living with their gender identity, role, and
expression without surgery. For others, however,
gender confirmation surgery, also known as gender or
sex reassignment surgery (“SRS”), is the only effective
treatment.
To treat Ms. Edmo’s gender dysphoria, medical staff
at the prison appropriately began by providing Ms.
Edmo with hormone therapy. This continued until she
was hormonally confirmed – meaning she had the same
circulating sex hormones and secondary sex
characteristics as a typical adult female. Ms. Edmo
thus achieved the maximum physical changes
associated with hormone treatment. But, Ms. Edmo
continued to experience such extreme gender dysphoria
that she twice attempted self-castration. For her
second attempt, Ms. Edmo prepared for weeks by
studying the anatomy of the scrotum and took steps to
diminish the chance of infection by boiling a razor
blade and scrubbing her hands with soap. She was
successful in opening the scrotum and exposing a
testicle. But because there was too much blood, Ms.
Edmo abandoned her second self-castration attempt
and sought medical assistance. She was transported to
a hospital where her testicle was repaired.

App. 155
As already noted, an inmate has no choice but to
rely on prison authorities to treat their medical needs.
For this reason, the United States Supreme Court has
held that deliberate indifference to a prisoner’s serious
medical needs constitutes cruel and unusual
punishment in violation of the Eighth Amendment to
the United States Constitution. See, e.g., Estelle v.
Gamble, 429 U.S. 97, 103 (1976). To show such
deliberate indifference, Ms. Edmo must establish two
things. First, she must show a “serious medical need”
by demonstrating that failure to treat a medical
condition could result in significant further injury or
the “unnecessary and wanton infliction of pain.”
Second, she must show that the prison officials were
aware of and failed to respond to her pain and medical
needs, and that she suffered some harm because of that
failure.
Ms. Edmo’s case satisfies both elements of the
deliberate indifference test. She has presented
extensive evidence that, despite years of hormone
therapy, she continues to experience gender dysphoria
so significant that she cuts herself to relieve emotional
pain. She also continues to experience thoughts of selfcastration and is at serious risk of acting on that
impulse. With full awareness of Ms. Edmo’s
circumstances, IDOC and its medical provider Corizon
refuse to provide Ms. Edmo with gender confirmation
surgery. In refusing to provide that surgery, IDOC and
Corizon have ignored generally accepted medical
standards for the treatment of gender dysphoria. This
constitutes deliberate indifference to Ms. Edmo’s
serious medical needs and violates her rights under the
Eighth Amendment to the United States Constitution.

App. 156
Accordingly, for the reasons explained in detail below,
IDOC and Corizon will be ordered to provide Ms. Edmo
with gender confirmation surgery. Thus, the Court will
grant in part Plaintiff’s Motion for Preliminary
Injunction (Dkt. 62).
In so ruling, the Court notes that its decision is
based upon, and limited to, the unique facts and
circumstances presented by Ms. Edmo’s case. This
decision is not intended, and should not be construed,
as a general finding that all inmates suffering from
gender dysphoria are entitled to gender confirmation
surgery.
FINDINGS OF FACT
I. Transgender and Gender Dysphoria
1.

Transgender is an umbrella term for a person
whose gender identity is not congruent with
their assigned gender. Tr. 50:5-11. A
transgender person suffers from gender
dysphoria when that incongruity is so severe
that it impairs the individual’s ability to
function. Tr. 50:12-14.

2.

The American Psychiatric Association’s
Diagnostic and Statistical Manual of Mental
Disorders (“DSM-5”) sets forth specific criteria
which must exist before a diagnosis of gender
dysphoria is appropriate. Specifically, two
conditions are required:
a. First, there must be marked incongruence
between one’s experienced/expressed gender
and assigned gender, of at least six month’s

App. 157
duration, as manifested by at least two of the
following:
i.

A marked incongruence between one’s
experienced/expressed gender and
primary and/or secondary sex
characteristics.

ii.

A strong desire to be rid of one’s
primary and/or secondary sex
characteristics because of a marked
incongruence with one’s experienced/
expressed gender.

iii.

A strong desire for the primary and/or
secondary sex characteristics of the
other gender.

iv.

A strong desire to be of the other
gender.

v.

A strong desire to be treated as the
other gender.

vi.

A strong conviction that one has the
typical feelings and reactions of the
other gender.

b. Second, the individual’s condition must be
associated with clinically significant distress
or impairment in social, occupational, or
other important areas of functioning. Exh.
1001 at 3-4.
3.

“Clinically significant distress” means that the
distress impairs or severely limits the person’s
ability to function in a meaningful way and has

App. 158
reached a threshold that requires either medical
or surgical interventions, or both. Tr. 51:3-8.
4.

Not every person who identifies as transgender
has gender dysphoria. Tr. 50:5-11.
II. WPATH

5.

The World Professional Association of
Transgender Health (“WPATH”) Standards of
Care for the Health of Transsexual,
Transgender, and Gender Nonconforming People
were first promulgated in 1979 and are the
internationally recognized guidelines for the
treatment of individuals with gender dysphoria.
Tr. 42:6-20; Exh. 15. WPATH Standards of Care
are “flexible clinical guidelines.” Tr. 118:16-24,
119:1-7, 8-25, 288:7-23, and “are intended to be
flexible in order to meet the diverse health care
needs of transsexual, transgender, and gender
nonconforming people.” Exh. 15 at 8.

6.

The WPATH Standards of Care have provided
treatment guidelines for incarcerated
individuals since 1998. Tr. 54:11-21; Exh. 15 at
73. The current WPATH Standards of Care
apply equally to all individuals “irrespective of
their housing situation” and explicitly state that
health care for transgender people “living in an
institutional environment should mirror that
which would be available to them if they were
living in a non-institutional setting within the
same community.” Tr. 54:11-21; Exh. 15 at 73.
The next update to the WPATH Standards of
Care will also apply to an individual regardless

App. 159
of where that person is housed, including in a
prison setting. Tr. 54:25-55:12.
7.

The WPATH Standards of Care indicate that
options for psychological and medical treatment
of gender dysphoria include:
a. changes in gender expression and role,
b. hormone therapy to feminize or masculinize
the body,
c. surgical changes of primary or secondary sex
characteristics, and
d. psychotherapy. Exh. 15 at 15-16.

8.

The WPATH Standards of Care suggest options
for social support and changes in gender
expression, including:
a. offline and online peer support resources,
groups, or community organizations that
provide avenues for social support and
advocacy;
b. offline and online support resources for
families and friends;
c. voice and communication therapy to help
individuals develop verbal and non-verbal
communication skills that facilitate comfort
with their gender identity;
d. hair removal through electrolysis, laser
treatment, or waxing;

App. 160
e. breast binding or padding, genital tucking or
penile prostheses, padding of hips or
buttocks; and
f. changes in name and gender marker on
identity documents. Exh. 15 at 16.
9.

The WPATH Standards of Care provide that the
purposes of psychotherapy include “exploring
gender identity, role, and expression; addressing
the negative impact of gender dysphoria and
stigma on mental health; alleviating
internalized transphobia; enhancing social and
peer support; improving body image; or
promoting resilience.” Exh. 15 at 16.

10.

Cross-sex hormone therapy results in
development of secondary sex characteristics of
the other sex and provides an increase in the
overall level of well-being of a person with
gender dysphoria. Tr. 60:8-22. For a transgender
woman, hormone treatment has physical effects
such as breast growth, thinning of facial hair,
redistribution of fat and muscle, and shrinkage
of the testicles. Tr. 246:7-20. The maximum
physical effects of hormone therapy will typically
be achieved within two to three years. Exh. 15 at
42; Tr. 60:23-61:5, 246:7-247:1.

11.

Surgery – particularly genital surgery – is often
the last and the most considered step in the
treatment process for gender dysphoria. Exh. 15
at 60.

12.

Many transgender individuals find comfort with
their gender identity, role, and expression

App. 161
without surgery. Exh. 15 at 60. For many others,
however, surgery is essential and medically
necessary to alleviate their gender dysphoria.
Exh. 15 at 60. For the latter group, relief from
gender dysphoria cannot be achieved without
modification of their primary or secondary sex
characteristics to establish greater congruence
with their gender identity. Exh. 15 at 60.
13.

For individuals with severe gender dysphoria,
where hormone therapy is insufficient, gender
confirmation surgery is the only effective
treatment and is medically necessary. Tr.
168:23-169:15; see also Ettner Decl. ¶ 51.

14.

The WPATH criteria for genital reconstruction
surgery in male-to-female patients include the
following:
a. Persistent,
dysphoria;

well

documented

gender

b. Capacity to make a fully informed decision
and to consent for treatment;
c. Age of majority in a given country;
d. If significant medical or mental health
concerns are present, they must be well
controlled;
e. 12 continuous months of hormone therapy as
appropriate to the patient’s gender goals; and
f. 12 continuous months of living in a gender
role that is congruent with their gender
identity. Exh. 15 at 66.

App. 162
15.

Regarding the first criterion, “persistent, well
documented gender dysphoria” is deemed to
exist when the person has a well-established
diagnosis of gender dysphoria that has persisted
beyond six months. Tr. 55:21-56:3.

16.

Regarding the fourth criterion, the WPATH
Standards of Care make clear that the presence
of co-existing mental health concerns does not
necessarily preclude possible changes in gender
role or access to feminizing/masculinizing
hormones or surgery. Exh. 15 at 31. But these
concerns need to be optimally managed prior to,
or concurrent with, treatment of gender
dysphoria. Exh. 15 at 31.
a. It is often difficult to determine whether
coexisting mental health concerns are a
result of gender dysphoria or are unrelated to
that medical condition. Tr. 171:1-14, 24-25,
172:1-5; 387:20-25, 388:1, 398:2-18, 601: 11602: 2; Campbell Decl., Dkt. 101-4, ¶¶ 30-33.
Co-existing mental health issues directly tied
to an individual’s gender dysphoria should
not be considered in assessing whether an
individual meets the fourth WPATH criterion
that significant medical or mental health
concerns must be well controlled. Tr. 387:6 to
388:6.

17.

Regarding the sixth criterion – a twelve-month
experience of living in an identity-congruent
role – the WPATH Standards of Care provide
that this is intended to ensure that the
individual has had the opportunity to experience

App. 163
the full range of different life experiences and
events that may occur throughout the year (e.g.,
family events, holidays, vacations, seasonspecific work or school experiences). During this
time, patients should present consistently, on a
day-to-day basis and across all settings of life, in
their desired gender role. This includes coming
out to partners, family, friends, and community
members (e.g., at school, work, and in other
settings). Exh. 15 at 67.
18.

An individual in prison can satisfy the criterion
of living in a gender role congruent with their
gender identity. Tr. 62:16-63:4, 584:16-25.
III. Expert Testimony

A. Plaintiff’s Experts
19.

Dr. Ettner is one of the authors of the WPATH
Standards of Care, version 7. Tr. 42:21-24. Dr.
Ettner has been a WPATH member since 1993
and chairs its Committee for Institutionalized
Persons. Tr. 43:2-16; Exh. 1003.
a. Dr. Ettner has treated approximately 3,000
individuals with gender dysphoria, including
evaluating whether gender confirmation
surgery is necessary for certain patients. She
has referred approximately 300 patients for
gender confirmation surgery and assessed
approximately 30 incarcerated individuals
with gender dysphoria. Tr. 43:17-44:1, 44:913.

App. 164
b. Dr. Ettner has extensive experience treating
patients who have undergone gender
confirmation surgery. Tr. 44:2-8.
c. Dr. Ettner is an author or editor of numerous
peer-reviewed publications on treatment of
gender dysphoria and transgender
healthcare. Dr. Ettner is an editor for the
textbook, “Principles of Transgender
Medicine and Surgery,” which was revised in
2017 and is the textbook used in medical
schools. Tr. 44:14-45:1; Exh. 1003.
d. Dr. Ettner also trains medical and mental
health providers on treating people with
gender dysphoria, including assessing
whether gender confirmation surgery is
appropriate, through the global education
initiative of WPATH and other presentations.
Tr. 41:8-16, 45:17-46:18.
e. Dr. Ettner has been appointed by a federal
court as an independent expert related to
evaluation of an incarcerated patient for
gender confirmation surgery. Tr. 46:19-22.
f. However, Dr. Ettner is not a Certified
Correctional Healthcare Professional, and
she has not treated inmates with gender
dysphoria. Tr. 106:21-24, 107:11-18.
20.

Dr. Gorton is an emergency medicine physician
who practices at a federally qualified healthcare
center that primarily services uninsured
patients or those with Medicare or Medicaid.
Exh. 1004; Tr. 234:24-235:2. Dr. Gorton also

App. 165
works with Project Health, which has provided
training for numerous clinics regarding the
provision of transgender health care in
California. Tr. 233:5-21. Dr. Gorton is a member
of WPATH and is on WPATH’s Transgender
Medicine and Research Committee and its
Institutionalized Persons Committee. Tr. 238:46; Exh. 1004.
a. Dr. Gorton has been the primary care
physician for approximately 400 patients
with gender dysphoria and is currently the
primary care physician for approximately
100 patients with gender dysphoria. Exh.
1004; Tr. 237:4-12. Dr. Gorton currently
provides follow-up care for about thirty
patients who have had vaginoplasty. Exh.
1004; Tr. 249:20-250:3.
b. Dr. Gorton has published peer-reviewed
articles regarding treatment of gender
dysphoria. Tr. 239:16-18, Exh. 1004.
c. Dr. Gorton has been qualified as an expert in
multiple cases involving transgender
healthcare. Tr. 239:19-240:19; Exh. 1004.
d. However, Dr. Gorton has no experience
treating inmates with gender dysphoria. Tr.
269:17-23. Dr. Gorton is not a Certified
Correctional Healthcare Professional. Tr.
270:9-16.

App. 166
B. Defendants’ Experts
21.

Dr. Garvey is a psychiatrist and Certified
Correctional Healthcare Professional under the
National Commission on Correctional Health
Care. Tr. 525:15-23. As the Chief Psychiatrist in
the Massachusetts Department of Corrections,
Dr. Garvey served as the chair of the Gender
Dysphoria Treatment Committee. Tr. 508:10-11.
Dr. Garvey directly treated patients in the
Massachusetts Department of Correction who
had gender dysphoria. Tr. 508:13-509:1.
a. Prior to evaluating Ms. Edmo, Dr. Garvey
had never conducted an in-person evaluation
to determine whether a patient needed
gender confirmation surgery. Tr. 558:10-14.
b. Dr. Garvey has never recommended that a
patient with gender dysphoria receive gender
confirmation surgery or done long-term
follow-up care with a patient who has had
gender confirmation surgery. Tr. 556:20557:9.

22.

Dr. Andrade is a licensed independent clinical
social worker and is a Certified Correctional
Healthcare Professional with an emphasis in
mental health. Tr. 626:1-21. Dr. Andrade has
over a decade of experience providing and
supervising the provision of correctional mental
health care, including directing and overseeing
the treatment of all inmates diagnosed with
gender dysphoria in the custody of the
Massachusetts Department of Corrections in his

App. 167
role as clinical director, chair of the Gender
Dysphoria Supervision Group, and member of
the Gender Dysphoria Treatment Committee.
Tr. 627:22-23.
a. Over the last decade, Dr. Andrade has
provided treatment to gender dysphoria
inmates in his role on the treatment
committee and has evaluated and confirmed
diagnoses of gender dysphoria for over 100
inmates. Tr. 627:2-14. But Dr. Andrade has
never provided direct treatment for patients
with gender dysphoria and has never been a
treating clinician for a patient who has had
gender confirmation surgery. Tr. 647:8-14,
651:10-12.
b. As part of a committee, Dr. Andrade has
recommended gender confirming surgery for
incarcerated inmates on two occasions. Tr.
627-629:1-10. But the recommendation was
contingent upon the requirement that the
inmates first live in a women’s prison for
approximately twelve months. Tr. 647:19648:25. The Massachusetts Department of
Corrections houses prisoners according to
their genitals, so the inmates were not
allowed to move to a women’s prison. Tr.
649:1-650:11. To Dr. Andrade’s knowledge,
the inmates had not been moved to a
women’s prison at least seven months after
his recommendation. Tr. 649:1-650:11. Thus,
the twelve-month period of living in a

App. 168
women’s prison could not have started. Tr.
650:6-11.
c. As a licensed independent clinical social
worker, Dr. Andrade does not qualify under
IDOC’s former gender dysphoria policy as a
“gender identity disorder evaluator” who
could assess someone for surgery. Tr. 660:1117; Exh. 8 at 3.
23.

Dr. Campbell is IDOC’s Chief Psychologist. He
has provided mental health services to
incarcerated inmates since 2012. Campbell
Decl., Dkt. 101-4, ¶¶ 2-7. Dr. Campbell is a
member of WPATH and is familiar with the
WPATH Standards of Care regarding gender
dysphoria offenders and transgender inmates as
provided by the National Commission on
Correctional Healthcare (“NCCHC”), the
National Institute of Corrections, and the
Federal Bureau of Prisons. Campbell Decl., Dkt.
101-4, ¶¶ 8-10.
a. Dr. Campbell serves as chair of the
Management and Treatment Committee
(“MTC”), a multidisciplinary committee that
meets monthly to discuss and evaluate the
needs of inmates who have been diagnosed
with gender dysphoria. Campbell Decl., Dkt.
101-4, ¶¶ 13-14.
b. Dr. Campbell has directly conducted six
gender dysphoria assessments and has
overseen the treatment and assessment of
approximately fifty inmates who have

App. 169
requested gender dysphoria evaluations,
through his role as chair of the Management
and Treatment Committee and as the Chief
Psychologist. Campbell Decl., Dkt. 101-4,
¶¶ 13-14.
c. There is no evidence that Dr. Campbell has
ever recommended gender confirmation
surgery for an inmate.
IV. NCCHC
24.

The NCCHC endorses the WPATH Standards of
Care as the accepted standards for the
treatment of transgender prisoners. Exh. 1041
at 2, 4, n.1; Tr. 477:14-478:22.
V. Defendants’ Policies and Practices
Regarding Gender Dysphoria

A. Corizon’s Policies and Practices
25.

Corizon is a private corporation that contracts to
provide health care to prisons and jails
throughout the country. Corizon providers have
never recommended gender confirmation
surgery to a patient at any of the prisons where
it provides medical services. Tr. 489:20-23.

26.

Corizon’s only written policy regarding gender
dysphoria treatment does not include gender
confirmation surgery as a form of treatment. Tr.
482:25-483:9; Exh. 14.

App. 170
B. IDOC’s Policies and Practices
27.

The IDOC MTC is a multiple-disciplinary team
that addresses treatment, planning, and security
issues associated with IDOC inmates who have
gender dysphoria. Tr. 322:12-20. The
Management and Treatment Committee reviews
the treatment of all inmates with gender
dysphoria but does not make medical decisions.
Tr. 323:4-13, 324:9-14.

28.

There are currently 30 prisoners with gender
dysphoria in IDOC custody. Tr. 322:21-323:3. No
individual in IDOC custody has ever been
recommended for, or received, gender
confirmation surgery. Tr. 376:23-377:4.

29.

IDOC’s operative gender dysphoria policy when
Ms. Edmo was assessed for surgery defined a
“qualified gender identity disorder (GID)
evaluator as ‘[a] Doctor of philosophy (PhD) level
practitioner licensed by an appropriate state
licensing authority as a psychologist, or a
physician licensed by a state Board of Medicine,
who has demonstrated an indicia of basic
competence related to the diagnosis and
treatment of GID and related mental or
emotional disorders through their licensure,
training, continuing education, and clinical
experience.’” Exh. 8 at 3; Tr. 388:16-389:1.

30.

This policy stated that gender confirmation
surgery “will not be considered for individuals
within the Idaho Department of Correction

App. 171
(IDOC), unless determined medically necessary
by the treating physician.” Exh. 8 at 8.
31.

On October 5, 2018, shortly before the hearing in
this matter, IDOC implemented a new gender
dysphoria policy that would allow prisoners at
Idaho State Correctional Institute (“ISCI”)
diagnosed with gender dysphoria to order and
possess female commissary items and present in
a manner consistent with their gender identity.
Tr. 347:18-348:23; Exh. 9.
a. The new policy also states that “to avoid a
sexually charged atmosphere in IDOC
facilities . . .. [n]o provocative or sexually
charged clothing or behavior will be
permitted.” Exh. 9 at 6.
b. IDOC’s new gender dysphoria policy
continues to state that gender confirmation
surgery “will not be considered for
individuals within the Idaho Department of
Correction (IDOC), unless determined
medically necessary by the treating
physician.” Exh. 9 at 8-9.
c. The policy further states that prisoners will
be housed “based upon the inmate’s primary
physical sexual characteristics.” Exh. 9 at 4.
V. Adree Edmo’s Gender Dysphoria

32.

Adree Edmo is a male-to-female transgender
prisoner in the custody of IDOC. Ms. Edmo has
been incarcerated at ISCI since April 2012. Tr.

App. 172
192:19-20; see also Edmo Decl. ¶ 12. She is 30
years of age. Tr. 192:17-18.
33.

From the age of 5 or 6, Ms. Edmo has viewed
herself as female. In her words, “my brain
typically operates female, even though my body
hasn’t corresponded with my brain.” Tr. 193:7-8.

34.

While others viewed her as being gay, that is not
how she perceived herself. Tr. 193:18-23. While,
she struggled with her gender identity as a child
and teenager, she began living as a woman at
age 20 or 21. Tr. 211:1-11. She views herself as
a woman with a heterosexual attraction to men.
Tr. 193:15-17.

35.

Prior to being incarcerated, and learning about
gender identity and transgender, Ms. Edmo
struggled with her own identity and sexual
orientation. On two occasions in 2010 and 2011,
she attempted suicide. Tr. 206:12-15.

36.

In June 2012, soon after being incarcerated, Ms.
Edmo was diagnosed with gender identity
disorder by Corizon psychiatrist Dr. Eliason.
Exh. 1 at 321. In July 2012, Corizon psychologist
Claudia Lake confirmed Ms. Edmo’s diagnosis of
gender identity disorder. Exh. 1 at 323-27. There
is no dispute that Ms. Edmo suffers from gender
dysphoria. Tr. 69:20-70:3, 251:23-252:3, 518:1618, 635:1-7.

37.

Ms. Edmo legally changed her name to Adree
Edmo in September 2013. Tr. 192:6-9. Ms. Edmo
has also changed her sex to “female” on her birth

App. 173
certificate to further affirm her gender identity.
Tr. 203:13-22; Exh. 1002.
38.

Ms. Edmo has consistently presented as
feminine throughout her incarceration by
wearing her hair in traditionally feminine
hairstyles when able to do so, wearing makeup
when able to do so, and acting in a feminine
demeanor. Tr. 194:24-195:5, 411:1-7, 463:11464:21. Ms. Edmo’s feminine presentation has
been documented by Defendants’ medical
providers since 2012. See, e.g., Exh. 1 at 321,
347, 425, 452, 538. Ms. Edmo has also held two
jobs while in prison and has presented as
feminine at her places of employment. Tr.
201:24-202:10.

39.

Ms. Edmo has continually sought to present
herself as feminine despite receiving multiple
disciplinary offense reports related to wearing
makeup, styling her hair in a feminine manner,
and altering her male-issued undergarments
into female panties. Tr. 195:11-20; Exh. 5 at 8, 9,
21-22, 25, 27-28, 33-34, 41-43, 48-57, 62-65;
Yordy Dep. 47:4-49:15, 85:22-87:11; Edmo Decl.
¶ 19.

40.

Ms. Edmo testified that hormone therapy helped
treat her gender dysphoria to some extent. Tr.
223:9-14. The hormones “cleared her mind,” and
resulted in breast growth, body fat
redistribution, and changes in her skin
consistency. Tr. 196:15-25. As a result of
hormone therapy, Ms. Edmo is hormonally
confirmed, which means she has the same

App. 174
circulating sex hormones and secondary sex
characteristics as a typical adult female. Tr.
72:14-21; Ettner Decl. ¶ 59.
41.

Ms. Edmo has achieved the maximum physical
changes associated with hormone treatment. Tr.
602:1-603:4. However, Ms. Edmo continues to
experience distress related to gender
incongruence, which is mostly focused on her
male genitalia. She testified she feels
“depressed, embarrassed, and disgusted” by her
male genitalia and that this is an “everyday
reoccurring thought.” Tr. 197:7-24.

42.

Ms. Edmo first attempted self-castration to
remove her testicles in September 2015 using a
disposable razor blade. She wrote a note to let
the officers know she was not trying to commit
suicide and was only trying to help herself. She
attempted to cut her testicle sac open but was
unsuccessful. Edmo Decl. ¶ 31; Tr. 197:25-198:8.

43.

In January 2016, Ms. Edmo reported to Dr.
Eliason that she was having difficulty sleeping
due to thoughts of self-castration. In response,
Dr. Eliason prescribed Ms. Edmo sleeping
medication. Tr. 458:5-10, 461:18-24.

44.

Ms. Edmo also reported her frequent thoughts of
self-castration to her assigned clinician, Krina
Stewart, in November 2016. Ms. Stewart
testified that none of the interventions she
identified for Ms. Edmo at that visit would
alleviate her gender dysphoria or desire to self-

App. 175
castrate. Stewart Dep. 58:15-59:16; Exh. 1 at
584-85.
45.

Ms. Edmo attempted self-castration a second
time in December 2016. She prepared for weeks
by studying the anatomy of the scrotum and
took steps to diminish the chance of infection by
boiling the razor blade and scrubbing her hands
with soap. Ms. Edmo made more surgical
headway on this attempt and was able to cut
open the testicle sac and remove the testicle.
Gorton Decl. ¶ 74. Because there was too much
blood, Ms. Edmo abandoned her attempt and
sought medical assistance. Tr. 198:9-16. She was
transported to a hospital where her testicle was
repaired. Tr. 198:25-199:13.

46.

Ms. Edmo was receiving hormone therapy both
times she attempted to self-castrate. Tr. 228:2025.

47.

After the procedure, Ms. Edmo felt disappointed
in herself because she felt she had come so close
to removing her testicle but had not succeeded.
Tr. 199:17-23. Ms. Edmo continues to actively
experience thoughts of self-castration. Tr. 197:
21-24. In an effort to avoid acting on them, when
she has experienced extreme episodes of gender
dysphoria in the past year, Ms. Edmo “selfmedicat[es]” by using a razor to cut her arm. The
physical pain she feels from cutting helps her
release the emotional torment and mental
anguish she feels at the time. Tr. 199:24-200:15.

App. 176
48.

Ms. Edmo will likely be released from prison
sometime in 2021. Tr. 201:14-15, 230:3-10.

VI. Defendants’ Treatment of Ms. Edmo for
Gender Dysphoria
49.

On April 20, 2016, Dr. Eliason evaluated Ms.
Edmo for sex reassignment surgery. Jt. Exh. 1 at
538. Dr. Eliason noted that Ms. Edmo reported
she was “doing alright,” that she was eligible for
parole, but it had not been granted because of
multiple Disciplinary Offense Reports (“DORs”).
Jt. Exh. 1 at 538. The DORS were related to her
use of makeup and feminine appearance. Jt.
Exh. 1 at 538.

50.

Dr. Eliason noted that Ms. Edmo had been on
hormone replacement for the last year and a
half, but that she felt she needed more. Jt. Exh.
1 at 538. Dr. Eliason specifically noted that Ms.
Edmo stated an improvement in gender
dysphoria on hormone replacement but had
ongoing frustrations stemming from her current
anatomy. Jt. Exh. 1 at 538. He also recognized
Ms. Edmo’s multiple attempts to “mutilate her
genitalia” because of the severity of her distress.
Jt. Exh. 1 at 538. He also noted that he spoke to
prison staff about Ms. Edmo’s behavior, “which
is notable for animated affect and no observed
distress.” Jt. Exh. 1 at 538. Dr. Eliason then
stated that he also personally observed Ms.
Edmo in these settings and did not observe
significant dysphoria. Jt. Exh. 1 at 538.

App. 177
51.

Nevertheless, Dr. Eliason noted that Ms. Edmo
appeared feminine in demeanor and interaction
style. Jt. Exh. 1 at 538. He concluded that Ms.
Edmo had Gender Dysphoria, Alcohol Use
disorder, and Depression, Jt. Exh. 1 at 538, but
his ultimate conclusion was that Ms. Edmo
“[d]oes not meet criteria for medical necessity for
sex reassignment surgery.” Jt. Exh. 1 at 538.

52.

In assessing Ms. Edmo’s need for gender
confirmation surgery, Dr. Eliason indicated that
he staffed her case with Dr. Jeremy Stoddart,
Dr. Murray Young, and Jeremy Clark LCPC
(clinical supervisor and WPATH member). Each
of these individuals agreed with his assessment.
Jt. Exh. 1 at 538.

53.

Dr. Eliason indicated he would continue to
monitor and assess Ms. Edmo for the medical
necessity of gender confirmation surgery. Jt.
Exh. 1 at 538. He further determined that the
combination of hormonal treatment and
supportive counseling is sufficient for Ms.
Edmo’s gender dysphoria for the time being.

54.

To justify his conclusion, Dr. Eliason noted that
while medical necessity for gender confirmation
surgery is not very well defined and is
constantly shifting, the following situations
could constitute medical necessity for the
surgery:
a. Congenital malformations or ambiguous
genitalia;

App. 178
b. Severe and devastating dysphoria that is
primarily due to genitals; and
c. Some type of medical problem in which
endogenous sexual hormones were causing
severe physiological damage. Jt. Exh. 1 at
538.
55.

He also explained that there may also be other
situations where gender confirmation surgery is
medically necessary as more information
becomes available. Jt. Exh. 1 at 538.

56.

Although not noted in his April 20, 2016
progress notes, Dr. Eliason testified that Ms.
Edmo’s mental health concerns were not “fully
in adequate control.” Tr. 430:22-431:2. He
testified that not all of Ms. Edmo’s mental
health issues, such as her major depression and
alcohol use disorders, stemmed from her gender
dysphoria. His testimony, however, is
contradicted by his April 20, 2016 clinician
notes. Tr. 451:1-12.

57.

Ms. Edmo has received mental health treatment
from a psychiatrist and mental health nurse
practitioner since she began her incarceration in
2012. Tr. 225:8-227:2. However, she has not
consistently attended therapy to help her work
through serious underlying mental health issues
and a pre-incarceration history of trauma,
abuse, and suicide attempts. Tr. 134:8-25, 135:123, 218:21-25, 219:1-14, 220:17-20; 221:16-19;
Campbell Decl. Dkt., 101-4, ¶¶24, 29; Stewart

App. 179
Decl., Dkt. 101-1, ¶12; Watson Decl., Dkt. 101-3,
¶18; Clark Decl., Dkt. 101-7, ¶14).
58.

Dr. Eliason testified that there were two
primary reasons why sex reassignment surgery
was not medically necessary at the time:
a. Ms. Edmo had not satisfied the 12-month
period of living in her identified gender role
under WPATH standards. Tr. 430: 25-431:2;
and
b. “[I]t was not doing Ms. Edmo any service to
rush through getting gender reassignment
surgery in that current social situation.” Tr.
431:3-6.

59.

Dr. Eliason’s evaluation was the only time IDOC
and Corizon evaluated Ms. Edmo for gender
confirmation surgery prior to this lawsuit. Exh.
1 at 538; Tr. 419:1-10.

60.

In concluding that surgery was not medically
necessary for Ms. Edmo, Dr. Eliason did not
review her prior criminal record, disciplinary
history, or her presentence investigation reports.
Tr. 468:4-18. The only information Dr. Eliason
relied upon was Ms. Edmo’s medical record, staff
observations, and her therapist’s notes. Tr.
469:16-25. Dr. Eliason testified that when he
assessed her for surgery, he was aware of Ms.
Edmo’s prior self-surgery attempt. He believed
Ms. Edmo’s gender dysphoria had risen to
another level, but he made no change to her
treatment plan. Tr. 471:7-22.

App. 180
VII. Ms. Edmo’s Medical Necessity for Gender
Confirmation Surgery
61.

Plaintiff’s and Defendants’ experts disagree on
whether Ms. Edmo meets all the WPATH
standards criteria for gender confirmation
surgery. Specifically, Defendants’ experts believe
that Ms. Edmo does not meet the fourth and
sixth criteria – that any significant mental
health concerns be well controlled and that she
live twelve months in a fully gender-congruent
role. Tr. 75:9-78:3; 252:13-254:11; 607:2-10,
639:14-640:25.

62.

Notably, however, Dr. Eliason did not rely upon
any finding that Ms. Edmo did not meet the
WPATH criteria in concluding in his April 2016
assessment that she did not meet the criteria for
gender confirmation surgery. Tr. 462:3-463:10.

63.

With regard to the fourth criterion, Ms. Edmo
has been diagnosed with Major Depressive
Disorder, Alcohol Use Disorder, and Gender
Dysphoria. See, e.g., Exh. 1 at 538. These
diagnoses were generally confirmed by each of
the experts, with observation that any substance
use disorder has been in remission while Ms.
Edmo has been incarcerated. Tr. 67:16-18, 253:39, 518:16-219:6, 603:22-604:5.
a. Plaintiff’s experts testified that Ms. Edmo’s
depression and anxiety are as controlled as
they can be and do not impair her ability to
undergo surgery. Tr. 76:13-25, 123:14-124:11,
253:3-9; Exh. 15 at 30. In their view, the

App. 181
clinical significance of Ms. Edmo’s selfsurgery attempts and recent cutting of her
arm is that she has severe genital-focused
gender dysphoria and is not getting
medically necessary treatment to alleviate it.
Tr. 254:15-19, 98:11-22. Ms. Edmo’s selfsurgery attempts are not acts of mutilation
or self-harm, but are instead attempts to
remove her target organ that produces
testosterone, which is the cure for gender
dysphoria. Tr. 80:3-13. Ms. Edmo’s gender
dysphoria, not her depression and anxiety, is
the driving force behind her self-surgery
attempts. Tr. 254:20-255:8.
b. Thus, Ms. Edmo’s self-surgery attempts and
cutting do not indicate she has mental health
concerns that are not well controlled. Tr.
98:11-22. Rather, Ms. Edmo’s recent cutting
is attention-reduction behavior that she uses
to prevent herself from cutting her genitals.
Tr. 98:16-22. Her self-surgery attempts
indicate a need for treatment for gender
dysphoria. Tr. 98:11-15.
c. In the more than six years she has spent in
IDOC custody, no Corizon or IDOC provider
has ever diagnosed Ms. Edmo with
borderline personality disorder. Tr. 361:18362:3, 470:4-6. Defense expert Dr. Andrade is
the first person to ever diagnose Ms. Edmo
with borderline personality disorder, and he
was unable to identify his criteria for this
diagnosis of Ms. Edmo during his testimony.

App. 182
Tr. 652:21-24, 638:16-22. None of the other
experts, including Defense expert Dr.
Garvey, diagnosed Ms. Edmo with borderline
personality disorder. Tr. 131:24-132:3,
139:19-24.
d. One of the primary concerns underlying the
fourth criterion is that the individual be able
to properly participate in postsurgical care.
Ms. Edmo has demonstrated the capacity to
follow through with the postsurgical care she
would require. Tr. 99:3-8, 169:23-170:25.
e. Although it is troubling that Ms. Edmo has
declined to fully participate in the mental
health treatment and counseling sessions
recommended by Dr. Eliason and others, Dr.
Ettner made clear that, “Psychotherapy is
neither a precondition for treatment or a
condition -- a precondition for surgery.” Tr.
98:23-99:2.
f. Dr. Ettner concludes that Ms. Edmo meets
the fourth criterion, since she has no
unresolved mental health issues that would
prevent her from receiving gender
confirmation surgery. Tr. 98:3-10.
64.

With respect to the sixth criterion, both
Plaintiff’s experts testified that Ms. Edmo meets
and exceeds the condition of social role
transition by living as a woman to the best of
her ability in a male prison.
a. For the six-plus years she has lived in prison,
Ms. Edmo has consistently sought to present

App. 183
as feminine, despite living in an environment
hostile to her efforts, and despite the
disciplinary consequences she faces. Tr. 77:978:3, 254:4-11.
65.

Dr. Ettner testified that gender confirmation
surgery would eliminate Ms. Edmo’s gender
dysphoria and significantly attenuate much of
the attendant depression and symptoms she is
experiencing. Tr. 104:24-105:9. She testified that
gender confirmation surgery is the cure for
gender dysphoria and will therefore result in
therapeutic and beneficial effects for Ms. Edmo.
Tr. 81:13-19.

66.

Dr. Gorton testified that it is highly unlikely
that Ms. Edmo’s severe gender dysphoria will
improve without gender confirmation surgery.
Tr. 267:19-22.

67.

The risks of not providing gender confirmation
surgery to Ms. Edmo include surgical selftreatment, emotional decompensation, and risk
of suicide given her high degree of suicide
ideation. Tr. 80:24:81:8, 264:13-22. If she is not
provided with surgery, Ms. Edmo has indicated
that she will try self-surgery again to deal with
her extreme episodes of gender dysphoria. Tr.
199:24-200:5. Given that Ms. Edmo made
increasing progress on her first two self-surgery
attempts, it is likely that Ms. Edmo will be
successful if she attempts self-surgery again. Tr.
264:13-22.

App. 184
68.

Scientific studies indicate that the regret rate
for individuals who have had gender
confirmation surgery is very low and generally
in the range of one percent of patients. Tr.
103:25-12, 165:16-166:4. Ms. Edmo does not
have any of the risk factors that make her likely
to regret undergoing gender confirmation
surgery. Tr. 266:1-267:1.
CONCLUSIONS OF LAW
I. Injunction Standard

1.

Ms. Edmo asks for a preliminary injunction. A
preliminary injunction is only awarded upon a
clear showing that the plaintiff is entitled to the
requested relief. Winter v. Natural Resources
Defense Council, Inc., 555 U.S. 7, 22 (2008).

2.

To make this showing, the plaintiff must
establish: (1) a likelihood of success on the
merits; (2) a likelihood of irreparable harm to
the moving party in the absence of preliminary
relief; (3) that the balance of equities tips in
favor of the moving party; and (4) that an
injunction is in the public interest. Id.

3.

The requirements are stated in the conjunctive
so that all four elements must be established to
justify injunctive relief. The court may apply a
sliding scale test, under which “the elements of
the preliminary injunction test are balanced, so
that a stronger showing of one element may
offset a weaker showing of another.” Alliance for
the Wild Rockies v. Cottrell, 632 F.3d 1127, 1131
(9th Cir. 2011).

App. 185
4.

A more stringent standard is applied where
mandatory, as opposed to prohibitory, injunctive
relief is sought. Prohibitory injunctions restrain
a party from taking action and effectively
“freeze[ ] the positions of the parties until the
court can hear the case on the merits.” Heckler
v. Lopez, 463 U.S. 1328, 1333 (1983). Mandatory
injunctions go well beyond preserving the status
quo, as they order a party to take some action.
See Marlyn Nutraceuticals, Inc. v. Mucos
Pharma GmbH & Co., 571 F.3d 873, 879 (9th
Cir. 2009).

5.

Although the same general principles inform the
court’s analysis in deciding whether to issue
mandatory or prohibitory relief, courts should be
“extremely cautious” about ordering mandatory
relief. Martin v. Intl Olympic Comm., 740 F.2d
670, 675 (9th Cir. 1984). Mandatory preliminary
relief should not issue unless both the facts and
the law clearly favor the moving party and
extreme or very serious damage will result. See
Marlyn Nutraceuticals, 571 F.3d at 879.
Mandatory injunctions are not issued in
doubtful cases, or where the party seeking an
injunction could be made whole by an award of
damages. Id.

6.

The Court agrees with defendants that Edmo
seeks mandatory relief. Thus, the Court will
apply the more stringent standard.1

1

In discussions with counsel before the evidentiary hearing, the
Court expressed the concern that the nature of the relief requested

App. 186
7.

The Prison Litigation Reform Act (“PLRA”)
requires any preliminary injunction to be
“narrowly drawn, extend no further than
necessary to correct the harm the court finds
requires preliminary relief, and be the least
intrusive means necessary to correct the harm.
The court shall give substantial weight to any
adverse impact on public safety or the operation
of a criminal justice system.” 18 U.S.C.
§ 3626(a)(2).
II. Eighth Amendment Claim

A. Likelihood of Success on the Merits
8.

The Eighth Amendment to the United States
Constitution protects prisoners against cruel
and unusual punishment. To state a claim under
the Eighth Amendment, Ms. Edmo must show

in this case, coupled with the extensive evidence presented by the
parties over a 3-day evidentiary hearing, effectively converted
these proceedings into a final trial on the merits of the plaintiff’s
request for permanent injunctive relief. Neither party addressed
the Court’s concern, and both parties appear to have treated the
evidentiary hearing as a final trial of Ms. Edmo’s claims.
In an abundance of caution, the Court has considered the
standard for the issuance of a permanent injunction, which would
have required the plaintiff to show (1) she has suffered an
irreparable injury, (2) monetary damages would not compensate
her for that injury, (3) after balancing the hardships between the
parties, a remedy of equity is warranted, and (4) the public interest
would not be disserved by a permanent injunction. See, eBay Inc.
v. MercExchange, L.L.C., 547 U.S. 388, 391 (2006). That standard
appears to be no more rigorous than that applicable to a claim for
preliminary mandatory relief. The Court concludes that under
either standard Ms. Edmo is entitled to relief.

App. 187
that she is “incarcerated under conditions posing
a substantial risk of serious harm,” or that she
has been deprived of “the minimal civilized
measure of life’s necessities” as a result of
Defendants’ actions. Farmer v. Brennan, 511
U.S. 825, 834 (1994) (internal quotation marks
omitted).
9.

An Eighth Amendment claim requires a plaintiff
to satisfy “both an objective standard – that the
deprivation was serious enough to constitute
cruel and unusual punishment – and a
subjective standard – deliberate indifference.”
Snow v. McDaniel, 681 F.3d 978, 985 (9th Cir.
2012).

10.

The Eighth Amendment includes the right to
adequate medical care in prison, and prison
officials or prison medical providers can be held
liable if their “acts or omissions [were]
sufficiently harmful to evidence deliberate
indifference to serious medical needs.” Estelle v.
Gamble, 429 U.S. 97, 106 (1976).

11.

Regarding the objective standard for prisoners’
medical care claims, the Supreme Court of the
United States has explained that “[b]ecause
society does not expect that prisoners will have
unqualified access to health care, deliberate
indifference to medical needs amounts to an
Eighth Amendment violation only if those needs
are ‘serious.’” Hudson v. McMillian, 503 U.S. 1,
9 (1992) (quoting Estelle v. Gamble, 429 U.S., 97,
103 (1976)).

App. 188
12.

The Ninth Circuit has defined a “serious medical
need” in the following ways: failure to treat a
prisoner’s condition [that] could result in further
significant injury or the unnecessary and
wanton infliction of pain [;] ... [t]he existence of
an injury that a reasonable doctor or patient
would find important and worthy of comment or
treatment; the presence of a medical condition
that significantly affects an individual’s daily
activities; or the existence of chronic and
substantial pain . . . .” McGuckin v. Smith, 974
F.2d 1050, 1059–60 (9th Cir. 1992) (internal
citations omitted), overruled on other grounds,
WMX Techs., Inc. v. Miller, 104 F.3d 1133 (9th
Cir. 1997) (en banc).

13.

As to the subjective standard, a prison official or
prison medical provider acts with “deliberate
indifference . . . only if the [prison official] knows
of and disregards an excessive risk to inmate
health and safety.” Gibson v. Cnty. of Washoe,
Nev., 290 F.3d 1175, 1187 (9th Cir. 2002)
(citation and internal quotation marks omitted).
“Under this standard, the prison official must
not only ‘be aware of facts from which the
inference could be drawn that a substantial risk
of serious harm exists,’ but that person ‘must
also draw the inference.’” Toguchi v. Chung, 391
F.3d 1051, 1057 (9th Cir. 2004) (quoting Farmer,
511 U.S. at 837).

14.

“If a [prison official] should have been aware of
the risk, but was not, then the [official] has not
violated the Eighth Amendment, no matter how

App. 189
severe the risk.” Gibson, 290 F.3d at 1188
(citation omitted). However, “whether a prison
official had the requisite knowledge of a
substantial risk is a question of fact subject to
demonstration in the usual ways, including
inference from circumstantial evidence, . . . and
a factfinder may conclude that a prison official
knew of a substantial risk from the very fact
that the risk was obvious.” Farmer, 511 U.S. at
842; see also Lolli v. County of Orange, 351 F.3d
410, 421 (9th Cir. 2003) (deliberate indifference
to medical needs may be shown by
circumstantial evidence when the facts are
sufficient to demonstrate that defendant
actually knew of a risk of harm).
15.

In the medical context, a conclusion that a
defendant acted with deliberate indifference
requires that the plaintiff show both “a
purposeful act or failure to respond to a
prisoner’s pain or possible medical need and . . .
harm caused by the indifference.” Jett v. Penner,
439 F.3d 1091, 1096 (9th Cir. 2006).

16.

Deliberate indifference can be “manifested by
prison doctors in their response to the prisoner’s
needs or by prison guards in intentionally
denying or delaying access to medical care or
intentionally interfering with the treatment once
prescribed.” Estelle, 429 U.S. at 104–05
(footnotes omitted).

17.

Non-medical prison personnel are generally
entitled to rely on the opinions of medical
professionals with respect to the medical

App. 190
treatment of an inmate. However, if “a
reasonable person would likely determine [the
medical treatment] to be inferior,” the fact that
an official is not medically trained will not shield
that official from liability for deliberate
indifference. Snow, 681 F.3d at 986; see also
McGee v. Adams, 721 F.3d 474, 483 (7th Cir.
2013) (stating that non-medical personnel may
rely on medical opinions of health care
professionals unless “they have a reason to
believe (or actual knowledge) that prison doctors
or their assistants are mistreating (or not
treating) a prisoner”) (internal quotation marks
omitted).
18.

Differences in judgment between an inmate and
prison medical personnel regarding appropriate
medical diagnosis and treatment are not enough
to establish a deliberate indifference claim.
Sanchez v. Vild, 891 F.2d 240, 242 (9th
Cir.1989). “[T]o prevail on a claim involving
choices between alternative courses of
treatment, a prisoner must show that the chosen
course of treatment ‘was medically unacceptable
under the circumstances,’ and was chosen ‘in
conscious disregard of an excessive risk’ to the
prisoner’s health.” Toguchi, 391 F.3d at 1058,
(alteration omitted) (quoting Jackson v.
McIntosh, 90 F.3d 330, 332 (9th Cir. 1996)).

19.

Mere indifference, medical malpractice, or
negligence will not support a cause of action
under the Eighth Amendment. Broughton v.
Cutter Labs., 622 F.2d 458, 460 (9th Cir.1980)

App. 191
(per curiam). Likewise, a delay in treatment
does not constitute a violation of the Eighth
Amendment unless the delay causes further
harm. McGuckin, 974 F.2d at 1060.
1. Serious Medical Need
20.

There is no dispute that Ms. Edmo suffers from
gender dysphoria. And there is no dispute that
gender dysphoria is a serious medical condition
recognized by the DSM-5.

21.

WPATH Standards of Care are the accepted
standards of care for treatment of transgender
patients. These standards have been endorsed
by the NCCHC as applying to incarcerated
persons.

22.

There are no other competing, evidence-based
standards that are accepted by any nationally or
internationally recognized medical professional
groups.

23.

The Court finds credible the testimony of
Plaintiff’s experts Drs. Ettner and Gorton, who
have extensive personal experience treating
individuals with gender dysphoria both before
and after receiving gender confirmation surgery.
Plaintiff’s experts found that Ms. Edmo satisfied
all six WPATH medical necessity criteria for
surgery.

24.

Defendants’ experts, by contrast, have opined
that surgery is not medically necessary for Ms.
Edmo. However, neither Dr. Garvey nor Dr.
Andrade has any direct experience with patients

App. 192
receiving gender confirmation surgery or
assessing patients for the medical necessity of
gender confirmation surgery. Defendants’
experts also have very little experience treating
patients with gender dysphoria other than
assessing them for the existence of the condition.
25.

Defendants’ experts appear to misrepresent the
WPATH Standards of Care by concluding that
Ms. Edmo, despite presenting as female since
her incarceration in 2012, cannot satisfy the
WPATH criteria because she has not presented
as female outside of the prison setting. But there
is no requirement in the WPATH Standards of
Care that a “patient live for twelve months in
his or her gender role outside of prison before
becoming eligible for SRS.” Norsworthy v. Beard,
87 F. Supp. 3d 1164 (N.D. Cal. 2015),

26.

Indeed, Plaintiff’s experts opine that Ms. Edmo
exceeds this criterion because she has not only
presented as female for far longer than twelve
months, but has done so in an environment
arguably more hostile to these efforts than the
non-custodial community, and despite the
disciplinary consequences of doing so. The
WPATH Standards of Care explicitly provide
that they apply “in their entirety . . . to all
transsexual, transgender, and gendernonconforming people, irrespective of their
housing situation,” and “including institutional
environments such as prisons.” Exh. 15 at 73.
The Standards of Care make clear that “[d]enial
of needed changes in gender role or access to

App. 193
treatments, including sex reassignment surgery,
on the basis of residence in an institution are not
reasonable accommodations.” Exh. 15 at 74.
27.

Defendants’ evidence to the contrary is
unconvincing and suggests a decided bias
against approving gender confirmation surgery.

28.

In 2016, Dr. Eliason contacted Dr. Steven Levine
to lead a training for IDOC and Corizon
providers on medical necessity for gender
confirmation surgery. Tr. 433:23-434:24. Dr.
Levine’s training presentation was titled
“Medical Necessity of Transgender Inmates: In
Search of Clarity When Paradox, Complexity,
and Uncertainty Abound.” Exh. 17 at 1. Dr.
Levine trained Corizon and IDOC staff that
gender confirmation surgery is “not conceived as
lifesaving as is repairing a potentially leaking
aortic aneurysm but as life enhancing as is
providing augmentation for women distressed
about their small breasts.” Exh. 17 at 43; Exh.
16.

29.

Dr. Levine is considered an outlier in the field of
gender dysphoria and does not ascribe to the
WPATH Standards of Care. Tr. 176:14-21. His
training materials do not reflect opinions that
are generally accepted in the field of gender
dysphoria. Tr. 176:22-179:1.

30.

Dr. Levine’s training includes additional criteria
proposed by Cynthia Osborne and Anne
Lawrence that incarcerated individuals must
meet in order to receive gender confirmation

App. 194
surgery. Exh. 17 at 39-41, 51; Exh. 19. These
requirements are not part of the WPATH
criteria and are in opposition to the WPATH
Standards of Care. Tr. 101:15-22, 103:14-20.
There are no scientific studies that support
these additional requirements, and no
professional associations or organizations have
endorsed Osborne and Lawrence’s proposed
requirements for prisoners. Tr. 103:4-13. The
NCCHC has not adopted Osborne and
Lawrence’s additional requirements. Tr. 480:1216. Like Dr. Levine, Osborne and Lawrence are
considered outliers in the field of gender
dysphoria treatment, are not WPATH members,
and do not ascribe to the WPATH Standards of
Care. Tr. 101:2-14.
31.

A decision of the U.S. District Court in the
Northern District of California, Norsworthy v.
Beard, 87 F. Supp. 3d 1164 (N.D. Cal. 2015), is
noteworthy here. Dr. Levine was retained as a
defense expert by the California Department of
Corrections and Rehabilitation in a suit filed by
a transgender plaintiff in that case. In ordering
the prison to provide the plaintiff gender
confirmation surgery, the Norsworthy court
afforded Dr. Levine’s opinions “very little
weight,” stating: “To the extent that Levine’s
apparent opinion that no inmate should ever
receive SRS predetermined his conclusion with
respect to Norsworthy, his conclusions are
unhelpful in assessing whether she has
established a serious medical need for SRS.”
Norsworthy, 87 F. Supp. 3d at 1188. The court

App. 195
also determined that Dr. Levine’s opinion was
not credible because of illogical inferences,
inconsistencies, and inaccuracies,” including
misrepresentations of the WPATH Standards of
Care, overwhelming “generalizations about
gender dysphoric prisoners” and Dr. Levine’s
fabrication of a prisoner anecdote. Id.
32.

Under these circumstances, the Court gives
virtually no weight to the opinions of
Defendants’ experts that Ms. Edmo does not
meet the fourth and sixth WPATH criteria for
gender confirmation surgery.
2. Deliberate Indifference

33.

Defendants misapplied the recognized standards
of care for treating Ms. Edmo’s gender
dysphoria.

34.

Defendants insufficiently trained their staff with
materials that discourage referrals for surgery
and represent the opinions of a single person
who rejects the WPATH Standards of Care.

35.

Defendants’ sole evaluation of Ms. Edmo for
surgery prior to this lawsuit failed to accurately
apply the WPATH Standards of Care.
Specifically, Dr. Eliason’s assessment that Ms.
Edmo did not meet medical necessity for surgery
did not apply the WPATH criteria.

36.

Defendants have been deliberately indifferent to
Ms. Edmo’s medical needs by failing to provide
her with available treatment that is generally
accepted in the field as safe and effective,

App. 196
despite her actual harm and ongoing risk of
future harm including self-castration attempts,
cutting, and suicidal ideation.
37.

Evidence also suggests that Ms. Edmo has not
been provided gender confirmation surgery
because Corizon and IDOC have a de facto policy
or practice of refusing this treatment for gender
dysphoria to prisoners.

38.

In Norsworthy, the court found that the prison
had a blanket policy barring surgery in light of
evidence that the prison’s “guidelines for
treating transgender inmates, which do not
mention SRS as a treatment option, and the
2012 training provided to CDCR staff by Levine,
which indicated that SRS should never be
provided to incarcerated patients.” Norsworthy,
87 F. Supp. 3d at 1191.

39.

Here, the only guidelines Corizon issued to
assist its providers in treating gender dysphoria
likewise do not include surgery as a treatment
option. Moreover, Dr. Levine’s training provided
to Corizon and IDOC staff, and incorporated into
further Corizon and IDOC training, discourages
providing surgery to incarcerated persons with
gender dysphoria.

40.

Significantly, no Corizon or IDOC provider has
ever recommended that gender confirmation
surgery is medically necessary for a patient in
IDOC custody. In fact, Corizon has never
provided this surgery at any of its facilities in
the United States.

App. 197
41.

As was the case in Norsworthy, “[t]he weight of
the evidence demonstrates that for [Ms. Edmo],
the only adequate medical treatment for her
gender dysphoria is [gender confirmation
surgery], that the decision not to address her
persistent symptoms was medically
unacceptable under the circumstances, and that
[Defendants] denied her the necessary
treatment for reasons unrelated to her medical
need.” Norsworthy, 87 F. Supp. 3d at 1192.

42.

Accordingly, Ms. Edmo is likely to succeed on
the merits of her Eighth Amendment claim.

B. Likelihood of Irreparable Harm
43.

The Ninth Circuit has repeatedly held that
serious psychological harm, in addition to
physical harm and suffering, constitutes
irreparable injury. See, e.g., Chalk v. U.S. Dist.
Ct. Cent. Dist. of California, 840 F. 2d 701, 709
(9th Cir. 1988) (plaintiff’s “emotional stress,
depression and reduced sense of well-being”
constituted irreparable harm); Thomas v. Cnty.
of Los Angeles, 978 F. 2d 504, 512 (9th Cir. 1992)
(“Plaintiffs have also established irreparable
harm, based on this Court’s finding that the
deputies’ actions have resulted in irreparable
physical and emotional injuries to plaintiffs and
the violation of plaintiffs’ civil rights.”).

44.

Ms. Edmo’s gender dysphoria results in
clinically significant distress or impairment of
functioning.

App. 198
45.

Both Plaintiff’s and Defendants’ experts agree
that Ms. Edmo is properly diagnosed with
gender dysphoria and continues to experience
serious distress from this condition.

46.

Ms. Edmo has received hormone treatment and
achieved the maximum feminizing effects years
ago.

47.

Other district courts have recognized that the
significant emotional pain, suffering, anxiety,
and depression caused by prison officials’ failure
to provide adequate treatment for gender
dysphoria constitute irreparable harm
warranting a preliminary injunction. See, e.g.,
Hicklin v. Precynthe, 2018 WL 806764, at *9
(E.D. Missouri 2018); Norsworthy, 87 F. Supp.
3d at 1192.

48.

Ms. Edmo has twice attempted self-castration
resulting in significant pain and suffering.

49.

The Court is persuaded by Plaintiff’s experts
that, without surgery, Ms. Edmo is at serious
risk of life-threatening self-harm.

50.

Thus, Ms. Edmo has satisfied the irreparable
harm prong by showing that she will suffer
serious psychological harm and will be at high
risk of self-castration and suicide in the absence
of gender confirmation surgery.

C. Balance of Equities
51.

“Courts ‘must balance the competing claims of
injury and must consider the effect on each

App. 199
party of the granting or withholding of the
requested relief.’” Winter, 555 U.S. at 24
(quoting Amoco Production Co., 480 U.S. 531,
542 (1987)).
52.

The balance of equities tips in a plaintiff’s favor
where the plaintiff has established irreparable
harm in the form of unnecessary physical and
emotional suffering and denial of her
constitutional rights. See, e. g., Hicklin, 2018 WL
806764, at *13; Norsworthy, 87 F. Supp. 3d at
1193.

53.

Ms. Edmo has established that Defendants’
refusal to provide her with gender confirmation
surgery causes her ongoing irreparable harm.

54.

Defendants have made no showing that an order
requiring them to provide treatment that
accords with the recognized WPATH Standard of
Care causes them injury.

D. The Public Interest
55.

The Court finds that a mandatory preliminary
injunction is in the public interest. “[I]t is
always in the public interest to prevent the
violation of a party’s constitutional rights.” See
Melendres v. Arpaio, 695 F. 3d 990, 1002 (9th
Cir. 2012).

56.

“In addition, ‘the public has a strong interest in
the provision of constitutionally adequate health
care to prisoners.’” McNearney v. Wash. Dep’t of
Corr., 2012 WL 3545267, at *16 (W.D. Wash.
2012).

App. 200
57.

Accordingly, a mandatory preliminary injunction
should issue because both the facts and the law
clearly favor Ms. Edmo and extreme or very
serious damage will result if it is not issued. See
Marlyn Nutraceuticals, 571 F.3d at 879.

III. FOURTEENTH AMENDMENT AND ACA
CLAIMS
58.

Plaintiff has not met her burden for a
preliminary injunction on her Fourteenth
Amendment and Affordable Care Act claims at
this time.

59.

As explained above, to make this showing for
preliminary injunction, the plaintiff must
establish: (1) a likelihood of success on the
merits; (2) a likelihood of irreparable harm to
the moving party in the absence of preliminary
relief; (3) that the balance of equities tips in
favor of the moving party; and (4) that an
injunction is in the public interest. Winter, 555
U.S. at 22.

60.

While Ms. Edmo may ultimately prevail on her
Fourteenth Amendment and Affordable Care Act
claims, she is unable to show that she is entitled
to injunctive relief at this time. Given the
Court’s ruling on her Eighth Amendment claim,
there is no likelihood of irreparable harm to Ms.
Edmo in the absence of injunctive relief on these
two claims.

61.

Moreover, the balance of equities tips in favor of
Defendants because a more developed record on
Defendants’ treatment of transgender inmates is

App. 201
necessary before making a broader ruling based
upon the Fourteenth Amendment or the
Affordable Care Act.
62.

Likewise, a more developed record is necessary
to assess the public’s interest in granting such
injunctive relief. Id.
ORDER
IT IS ORDERED:

1. Plaintiff’s Motion for Preliminary Injunction
(Dkt. 62) is GRANTED IN PART. Defendants are
ordered to provide Plaintiff with adequate medical
care, including gender confirmation surgery.
Defendants shall take all actions reasonably necessary
to provide Ms. Edmo gender confirmation surgery as
promptly as possible and no later than six months from
the date of this order. However, given IDOC’s
implementation of an updated gender dysphoria policy
on October 5, 2018 that appears to provide Plaintiff’s
requested injunctive relief related to accessing genderappropriate underwear, clothing, and commissary
items, the Court will not address that relief at this
time. This is without prejudice to the plaintiff’s right to
raise the issue in the future, should IDOC revoke the
new policy or if the implementation of the policy results
in ongoing violations.
2. The Court’s Deputy, Jamie Bracke, is directed to
set a telephonic status conference in this case no later
than two weeks after this decision issues.

App. 202
DATED: December 13, 2018
s/______________________________
B. Lynn Winmill
Chief U.S. District Court Judge

